<html>
<title> - LEGISLATIVE HEARING ON H.R. 2942; H.R. 3056; H.R. 3614; H.R. 4031; H.R. 4037; H.R. 4038; H.R. 4147; H.R. 4150; AND H.R. 4151</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
  LEGISLATIVE HEARING ON H.R. 2942; H.R. 3056; H.R. 3614; H.R. 4031; H.R. 
                                  4037; 
              H.R. 4038; H.R. 4147; H.R. 4150; AND H.R. 4151

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        TUESDAY, MARCH 25, 2014

                               __________

                           Serial No. 113-59

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                    
       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
 
                        U.S. GOVERNMENT PUBLISHING OFFICE
  87-672 PDF                     WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001              
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado                   Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD WENSTRUP, Ohio                  DINA TITUS, Nevada
                                     ANN KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.





                                    (II)







                            C O N T E N T S

                              ----------                              
                                                                   Page

                        Tuesday, March 25, 2014

Legislative Hearing on H.R. 2942; H.R. 3056; H.R. 3614; H.R. 
  4031; H.R. 4037; H.R. 4038; H.R. 4147; H.R. 4150; AND H.R. 4151     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman.......................................     1
Hon. Mark Takano, Ranking Member.................................     2

                               WITNESSES

Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, U.S. Department of Veterans Affairs...............     7
    Prepared Statement...........................................    30

    Accompanied by:

        Mr. John Brizzi, Deputy Assistant General Counsel, U.S. 
            Department of Labor
Hon. Keith Kelly, Assistant Secretary, Veterans' Employment and 
  Training Service, U.S. Department of Labor.....................    10
    Prepared Statement...........................................    39

    Accompanied by:

        Ms. Demetra Nightingale, Chief Evaluation Officer, U.S. 
            Department of Labor
Mr. Steve Gonzalez, Assistant Director, National Economic 
  Commission, The American Legion................................    17
    Prepared Statement...........................................    43
Mr. Pete Hegseth, Chief Executive Office, Concerned Veterans for 
  America........................................................    19
    Prepared Statement...........................................    50
Mr. Ryan Gallucci, Deputy Legislative Director, Veterans of 
  Foreign Wars...................................................    21
    Prepared Statement...........................................    52
Mr. William Hubbard, Vice President of External Affairs, Student 
  Veterans of America............................................    23
    Prepared Statement...........................................    58

                   MATERIALS SUBMITTED FOR THE RECORD

Wounded Warrior Project..........................................    62
Disabled American Veterans (DAV), Paul R. Varela, Director.......    67
VetsFirst........................................................    73
Association of Private Sector Colleges and Universities, (APSCU).    77
Senior Executive Association.....................................    80


LEGISLATIVE HEARING ON H.R. 2942; H.R. 3056; H.R. 3614; H.R. 4031; H.R. 
          4037; H.R. 4038; H.R. 4147; H.R. 4150; AND H.R. 4151

                              ----------                              


                        Tuesday, March 25, 2014

             U.S. House of Representatives,
              Subcommittee on Economic Opportunity,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 3:17 p.m., in 
Room 340, Cannon House Office Building, Hon. Bill Flores 
[chairman of the subcommittee] presiding.
    Present:  Representatives Flores, Cook, and Takano.
    Also present:  Representatives Miller, Bilirakis, and 
Reichert.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good day, everyone. The subcommittee will come 
to order. Before we begin I would like to ask unanimous consent 
that our colleagues Chairman Miller, Mr. Gus Bilirakis, and Mr. 
David Reichert be allowed to sit at the dais, make opening 
statements, and ask questions. Hearing no objections, so 
ordered.
    I want to thank all of you for joining us here today to 
discuss legislation pending before the subcommittee concerning 
education benefits and employment programs for our returning 
servicemembers and veterans.
    This afternoon we have nine important pieces of legislation 
before us. I will focus my remarks on two of these bills which 
I introduced earlier this year. The first is H.R. 4037, the 
Improving Veterans' Access to Vocational Rehabilitation and 
Employment Act of 2014. This bill would streamline VA's 
vocational rehabilitation and employment, known as the VR&E 
program. This program helps disabled veterans become employment 
ready and also assists the most severely disabled veterans 
reach a point of maximum independent daily living. As I have 
said multiple times, I believe this program is one of the 
greatest resources our VA has to help our veterans with 
disabilities overcome many challenges they encounter when 
trying to find employment. However, I believe improvements need 
to be made to ensure that our most disabled veterans do not get 
lost in the shuffle while enduring long wait times to see a 
counselor.
    My bill would authorize the Secretary to prioritize VR&E 
services based on need so that they are able to triage cases as 
they come in based upon the severity of the veteran's 
disability or on other factors as determined by the Secretary. 
It would also require that any education or training courses a 
veteran pursues through the VR&E be approved for G.I. Bill 
benefits and would allow for home adaptations that are 
currently being completed for VR&E participants to be completed 
under specially adapted housing rules to ensure that our 
veterans are receiving high quality adaptations to their homes. 
The bill would also redefine eligibility for voc rehab for 
veterans with a ten percent disability. This provision would 
further streamline this benefit and help severely disabled 
veterans get the benefits and services they are qualified to 
receive in an expedited fashion.
    My second bill is H.R. 4038, the Veterans Benefits 
Administration Information Technology Improvement Act of 2014. 
This bill would require the VA to improve and finish the IT 
systems that adjudicates G.I. Bill and VR&E claims. At this day 
and age veterans should not have to endure long delays in 
receiving their earned education and VR&E benefits due to a 
lacking and/or outdated IT system. Through this legislation VA 
would be able to adjudicate to the maximum extent possible all 
G.I. Bill claims in a paperless environment and would be able 
to accurately track services and outcomes provided by the VR&E 
program to veterans.
    Through multiple GAO reports and hearings during this 
Congress the subcommittee has been shown the need to improve 
these systems. I know the ranking member also has a bill on 
this as well and I look forward to working with him to combine 
our two pieces of legislation to ensure these IT programs are 
improved to better serve America's veterans. I believe that 
both of these bills are critical to VA's successes and will 
allow the VA to more efficiently and thoroughly assist our 
veterans as they work toward a successful life following their 
service.
    With that being said, I am eager to discuss each of the 
nine pieces of legislation before us today and I am grateful to 
my colleagues who have introduced these bills, and to our 
witnesses for being here to discuss them with us. I look 
forward to a productive and meaningful discussion.
    I will now yield to my colleague Ranking Member Takano for 
any opening statement he may have.

        OPENING STATEMENT OF MARK TAKANO, RANKING MEMBER

    Mr. Takano. Thank you, Chairman Flores. Good afternoon. I 
would like to thank everyone for joining us and to thank the 
witnesses for taking time to testify and answer our questions.
    We do have a number of bills before us today which seek to 
reauthorize the VA Advisory Committee on Credentialing; 
prioritize VR&E services; help veterans obtain their license or 
credentialing through legislation; require a longitudinal 
study; and create a survey for users of the G.I. Bill. I 
support my colleagues' bills that aim to improve the lives of 
our veterans and of the nine pieces of legislation I have 
sponsored two bills which seek to help our veterans attending 
college.
    My first bill, H.R. 3056, the Warriors' Peer-Outreach Pilot 
Program Act, would direct the Secretary of Veterans Affairs to 
carry out a three-year pilot program on the provision of 
outreach and support services to veterans pursuing higher 
education. I see this program as supplementing VetSuccess On 
Campus, which uses credentialed and experienced vocational 
rehabilitation counselors to provide services to student 
veterans. The Warriors' Peer-Outreach Program will provide peer 
to peer services by employing veterans who have used the G.I. 
Bill. The VA will train veterans to assist individuals who may 
have a difficulty in adjusting or may need services or support 
that the institution is not equipped to provide.
    Again, this pilot program is designed to explore a new 
approach to on campus services for veterans and to act as a 
supplement to other federal programs with similar goals. I 
believe it has the potential to help many veterans across the 
country and I hope all our stakeholders will support it.
    Today we will also be discussing H.R. 4147, the Student 
Veterans IT Upgrade Act, which would require the VA to report 
on the current status of the long term solution for education 
claims processing, provide an action plan to improve it, and 
outline the anticipated cost of upgrading the system. I find it 
unfortunate that the VA has not completed this system and want 
to know when and how they plan to do so. Complete automation 
would provide the VA a more powerful system that is more 
responsive to the needs of our veterans. I may add that I look 
forward to working with Chairman Flores on combining our bills, 
I believe they are complementary, with regard to the Student 
Veterans IT Upgrade Act.
    Thank you, Mr. Chairman, for scheduling this hearing to 
review these bills. I look forward to the testimony and 
suggestions from our panelists. Thank you, Mr. Chairman, I 
yield back.
    Mr. Flores. Thank you, Mr. Takano. Chairman Miller of the 
full committee will be joining us to discuss his bill, H.R. 
4031, the Department of Veterans Affairs Management 
Accountability Act of 2014. We will yield to Chairman Miller 
when he arrives.
    In the meantime it is an honor to be joined by my friends 
and colleagues to discuss their bills. I thank each of you for 
being here. Mr. Cook is not here yet. We will have him speak as 
soon as he gets here. Ms. Kirkpatrick is not here but she 
submitted a statement for the record. Hearing no objection, we 
will enter hers into the record.
    Mr. Flores. Mr. Bilirakis, you are now recognized.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it and 
thanks for allowing me to sit in on the panel today. Again, I 
want to thank you for holding this legislative hearing. And I 
appreciate the opportunity to speak on my bill, H.R. 4151, the 
G.I. Bill Survey Act.
    Members of the committee understand the many challenges our 
veterans have in transitioning into civilian life after service 
to our great nation. America has always been the land of 
opportunity and it is our responsibility that our veterans are 
equipped with the necessary resources to pursue that happiness. 
The brave men and women in our military services have answered 
the call to protect the liberties we are entitled to. Likewise 
we must answer the call for our veterans, I am sure you all 
agree. Through the G.I. Bill veterans can use these benefits to 
cover tuition, housing, books, and supplies, testing, and 
certification fees, and other education related expenditures.
    Since the enactment of the Post-9/11 Veterans Educational 
Assistance Act of 2008 over one million of our nation's 
veterans have participated in this program. By fiscal year 2011 
the Post-9/11 G.I. Bill had the largest number of participants 
and highest total of obligations when compared to previous G.I. 
Bills since 1984. The VA provided nearly $10 billion for that 
fiscal year in education benefits for veterans and 
beneficiaries with the majority of these benefits applied to 
the Post-9/11 G.I. Bill program. One of the biggest problems we 
continue to encounter when discussing the G.I. Bill is the lack 
of data available regarding its participants. This goes beyond 
simply performance and outcome measures but it also includes 
basic demographic information.
    In May of 2013 the Government Accountability Office, the 
GAO, conducted a study on the challenges student veterans 
pursuing higher education and the obstacles regarding VA's 
management on the program that also affects veterans' academic 
success. The GAO reported the following, and I quote, ``it is 
unclear the extent to which veterans are achieving successful 
academic outcomes and VA lacks a plan for using student 
outcomes data from its new data collection efforts to improve 
its education programs.'' And I quote again, ``current data on 
student veterans are outdated or incomplete.''
    The GAO recommended the VA to create a plan to use new data 
on student outcomes to improve program management. The VA 
agreed with the recommendations and noted a number of actions 
it was taking to address these issues. Although that is 
progress this committee has not received any information 
regarding their efforts or progress on this initiative. Without 
objection from the chairman, I would like to submit the summary 
of the GAO report for the record.
    Mr. Flores. Without objection, so ordered.
    Mr. Bilirakis. Thank you. To safeguard this important 
resource and to ensure our nation's veterans that their success 
into civilian life is a top priority of ours, I have introduced 
H.R. 4151, the G.I. Bill Survey Act. This comprehensive study 
would encompass several elements to better understand the 
effectiveness of the Transition Assistance Program, known as 
TAP, and what improvements can be made to VA education 
benefits.
    The first step in making the positive changes to a program 
is to fully understand its benefits and drawbacks. H.R. 4151 
would require the Secretary of VA to contract with a third 
party entity to conduct a survey of G.I. Bill users. The survey 
would be a comprehensive study of veterans' experiences when 
using their education benefits. The survey would prove 
beneficial to both the VA and Congress by providing a better 
understanding of a veteran's experience from the processing end 
of VA to their experiences with the school certifying official 
and how their education benefits and this program have 
benefitted them.
    I appreciate the support for H.R. 4151 by the American 
Legion, the VFW, and the Student Veterans of America who came 
to testify before this committee, as well as the support from 
the Association of Private Sector Colleges, Wounded Warrior 
Program, and then also the VetsFirst. They all submitted their 
testimonies for the record.
    I encourage my colleagues on this committee to support this 
bipartisan piece of legislation. I hope we can come together to 
keep our promise to our veterans and ensure that the men and 
women who dedicated their lives to serving our nation have the 
viable resources to successfully transition into civilian life. 
Thank you very much, Mr. Chairman. And I yield back the balance 
of the time.
    Mr. Flores. Thank you, Mr. Bilirakis. Mr. Reichert, you are 
recognized for five minutes.
    Mr. Reichert. Thank you, Mr. Chairman. And thank you, 
Ranking Member Takano and other members of the subcommittee, 
thanks for having me here today at this legislative hearing. 
And I appreciate the opportunity to speak about the Military 
Skills to Careers Act, which is H.R. 3614.
    I introduced this legislation to help our veterans 
transition their military skills and expertise into long term 
civilian jobs. And it sounds like from listening to the 
description of other bills, these are all really going to fold 
nicely and neatly together. And that is, hey, it is happening 
here in Congress so that is shocking, right? Also there is 
Senate support for this bill so that is exciting, too. The 
Senate and the House of Representatives working together, and I 
understand veterans issues bring people together and that is a 
good thing.
    Some examples of the jobs included in this act, some of the 
skills that some of our military folks will learn that are 
compatible with this act are inclusive of electricians, truck 
drivers, healthcare professionals, IT workers. I have a nephew 
who just got out of the Marines and he is a, will soon be 
getting out of the Marines, and he is a diesel mechanic. So 
those professions, all taught, all performed within the 
military, are really applied to our public life. And we have 
got to make it easier for our veterans to transition into those 
jobs. So by making licensing and credentials in those chosen 
fields more accessible we can do this. This legislation would 
open opportunities to those veterans struggling to find 
employment.
    Additionally I want to mention that Senator Richard Burr, 
as I kind of alluded to, ranking member of the Senate Veterans' 
Affairs Committee has been an outstanding partner in this 
effort and I am pleased to have his leadership on this 
legislation in the Senate.
    When our veterans return from active service the last thing 
they should have to fear is unemployment. After all, they 
sacrificed to keep us safe. We have responsibility to ensure 
their security when they return. And a big part of that is 
being able to find a job and provide for themselves and their 
families. I am sure you all know families that are wondering, 
what am I going to do? What is my family going to do? How are 
we going to feed our kids? Where are we going to live? How are 
we going to pay for this? Those are worries we need to remove. 
We have to remove those. It is up to us to be their champions.
    According to figures released last week by the United 
States Bureau of Labor Statistic the unemployment rate for 
veterans who served on active duty since 9/11 was nine percent 
in 2013. Although this represented a decline from 2012, newly 
separated veterans are still entering the toughest civilian 
labor market in a generation.
    In my own State of Washington we have 675,000 veterans, Mr. 
Chairman, and the largest military base on the West Coast. Some 
people do not realize that, right in Washington State, the 
large military base on the West Coast in the Seattle-Takoma 
area. And over the next few years the Joint Base Lewis-McChord 
is set to discharge 6,000 troops per year, 6,000 per year just 
out of one base looking for work. I want those troops to know 
that we have a bright future waiting for them. That we are 
working for them and they do not have to worry.
    All too often recently separated veterans are facing 
hurdles transitioning their military skills to civilian 
employment, or identifying occupations in which they are 
interested that lead to long term employment and security. As 
our servicemembers and their family reintegrate back into 
communities we have the opportunity and the duty to guarantee 
the success for our greatest generation. As a part of this most 
important mission I introduced the Military Skills Act as a 
step to ensuring we are helping to secure bright futures for 
our men and women.
    I often hear from members of the business community in 
Washington State seeking highly qualified candidates with 
expertise compatible with skills gained in the military. Our 
challenge in Congress is to find ways to help veterans seeking 
employment. One way that this can be done is through reforms to 
the state license and certification process for veterans. 
Generally private sector businesses are looking for specific 
licenses and certifications to determine the most qualified 
candidate to fill the job position. Even though a veteran may 
have the qualifications and skills necessary for the job they 
are too often turned away because they lack the documentation. 
To address this many states including Washington have led 
through example by passing laws allowing veterans to obtain 
licenses or certifications in their training from the military 
so that they meet state standards. This helps streamline the 
application process, eliminates the need for veterans to go 
through redundant and sometimes costly training. In turn 
businesses are able to hire veterans who have the necessary 
credentials to proficiently get the job done. This legislation, 
Mr. Chairman, simply all it does is say let the veterans take a 
test. If they pass the test, they get a job. I should have just 
said that instead. I yield back my time, Mr. Chairman.
    Mr. Flores. Thank you, Mr. Reichert. Mr. Cook, you are 
recognized for five minutes.
    Mr. Cook. Thank you very much, Mr. Chair. H.R. 4150, the 
Veterans Employment and Training Service Longitudinal Study 
Act, there is a mouthful, ensures that veterans are receiving 
effective and successful employment training services. This 
bipartisan bill authorizes an independent organization to 
collect, analyze data on the effectiveness of the Department of 
Labor's Veterans Employment and Training Service.
    The study will focus on veterans who have received 
intensive services from two programs under VETS, excuse me that 
acronym I just referred to, the Disabled Veterans Outreach 
Program and the local veterans employment representatives, 
LVER. The study will track the employment status of veterans 
who receive these services, determine if the program 
contributed to their employment, monitor the employment 
retention rate, and determine if the services provided helped 
them increase their average earnings. A report on the findings 
will be presented to the Committee on Veterans Affairs in the 
House and Senate every year for the next five years.
    Congress has a duty to provide our veterans with the best 
employment services possible. Simply authorizing these program 
is not enough. We have to follow up and ensure that they are 
working as intended. An analysis of long term outcomes is 
precisely the type of oversight Congress needs to determine the 
effectiveness of these programs and to ensure their success.
    I think today you are hearing a lot of similar programs, as 
my distinguished colleague had mentioned earlier. It is all 
about follow up. If it is not working, we have got to change. 
To bottom line is the success rate should be much higher. I am 
a veteran and I am very, very passionate about people that have 
served. That is one of the things that we have as an ingredient 
of military service. When you go out on a patrol in a combat 
situation, you want to follow up that everybody has got enough 
water, that you have protection, that you have the codes, the 
radio frequencies. If you called in a preposition bombardment, 
mortars, what have you, that you have it. That is your job. And 
with such a poor record in getting these people into the right 
position, I think it is incumbent upon us in keeping with the 
philosophy and taking care of our troops that we find out how 
we can make it better, if we have got to make changes, and the 
appropriate funding hopefully will follow that out.
    I want to thank Congresswoman Titus for the support on this 
important bill. And once again, the follow up and the feedback 
when we get on this can hopefully help us achieve better 
results and take care of our men and women. Thank you very 
much. I yield back.
    Mr. Flores. Thank you, Mr. Cook. And again, as a reminder 
to everyone, when Chairman Mill arrives we will allow him to 
speak to support his legislation.
    I now want to recognize our first panel of witnesses today. 
Joining us is Mr. Curtis Coy, the Deputy Under Secretary for 
Economic Opportunity at the Department of Veterans Affairs. We 
also have with us the Hon. Keith Kelly, Assistant Secretary of 
the Veterans' Employment and Training Service at the Department 
of Labor who is accompanied by Ms. Demetra Nightingale, if I 
messed that name up, I am sorry, the Chief Evaluation Office of 
the Department of Labor. I thank all of you for being with us 
today and for your service during your time on active duty with 
our armed forces. Before I recognize Mr. Coy, I would like to 
point out again the Department of Labor was again late with its 
testimony. We would ask you to exercise appropriate diligence 
in providing that on time in the future. So Mr. Coy, let us 
begin with you. You are recognized for five minutes.

                    STATEMENT OF CURTIS COY

    Mr. Coy. Good afternoon, Mr. Chairman, Ranking Member 
Takano, who just left. Thank you for the opportunity to be here 
today to provide VA's views on seven pending legislative bills 
affecting VA's programs. Other bills under discussion today 
would affect programs or laws administered by the Department of 
Labor and respectfully we defer to DOL on those bills.
    We are encouraged seeing so many legislative proposals 
aimed at improving the Education and Vocational Rehabilitation 
and Employment Program for our nation's veterans. VA supports 
H.R. 2942 that reestablishes the VA's Professional 
Certification and Licensure Advisory Committee. This 
legislation would allow VA to receive recommendations and 
receive advice from the committee with regard to licensing and 
certification programs.
    While VA appreciates the intent of 3056, which would 
establish a three-year pilot program to provide outreach 
services to veterans using the Post-9/11 G.I. Bill, VA does not 
believe this legislation is necessary as it would create a 
program similar to our existing VetSuccess on Campus Program.
    H.R. 4031, the Department of Veterans Affairs Management 
Accountability Act of 2014 would enable the Secretary of 
Veterans Affairs to remove any individual from the senior 
executive service if the Secretary determines the performance 
of the individual warrants such removal. VA is committed to 
continuing our dialogue with the committee about effective 
accountability throughout VA but believe the Secretary has the 
tools under current law and regulations to address performance.
    VA appreciates the committee's focus to improve aspects of 
the Vocational, Rehabilitation and Employment Program through 
H.R. 4037. VA is unable to support the provisions of the bill 
but agrees with the intent to redefine the employment 
rehabilitation rate and note our own internal efforts to 
improve our performance measure calculations. We are also 
working to establish whether policies needed to further 
restrict the approval of courses approved for Chapter 30 or 33. 
We would request clarification on Section 4 of this bill which 
would expand the eligibility for specially adapted housing 
grants to Chapter 31 veterans but agree that modifications to 
adapt veterans' homes are best managed by SAH personnel with 
expertise and experience. While we are unable to support 
Section 6, which redefines serious employment handicap, we are 
happy to work with the committee on drafting technical language 
to ensure qualified veterans receive necessary services.
    VA is unable to support H.R. 4038, which makes IT 
improvements to reduce redundancy and process educational and 
vocational rehabilitation and employment claims more 
efficiently. VA recognizes the committee's efforts to improve 
our IT processes but notes that with competing resources 
affecting all veterans served at VA, we need the flexibility to 
prioritize resources based on the needs of the entire 
department.
    VA requests clarification on the ``system'' being 
referenced in H.R. 4147, which requires the Chief Information 
Officer and the Deputy Under Secretary for Economic Opportunity 
to develop an annual report detailing VA's plan for the system 
used to administer VA educational benefits. We would be happy 
to provide information to the committee on the areas of 
interest once clarified.
    Finally, VA supports the intent behind H.R. 4151 which 
would require VA to administer a survey to individuals who have 
used VA education benefits. We are currently administering a 
similar survey with the assistance of a private contractor and 
will investigate the feasibility of combining the requirements 
of H.R. 4151 with VA's current resources.
    Mr. Chairman, this concludes my oral statement. Thank you 
for the opportunity to appear before you today. I would 
certainly be pleased to respond to any questions you or the 
other members of the subcommittee may have regarding our views 
as presented today.

    [The prepared statement of Curtis Coy appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Coy. Chairman Miller, we have 
reserved five minutes for you for your bill, or such time as 
you may need.
    Mr. Miller. Thank you very much, Mr. Chairman. I ask 
unanimous consent that I can revise and extend my remarks.
    Mr. Flores. Without objection, so ordered.
    Mr. Miller. Thank you very much. And thank you for letting 
me speak out of order. And I am not going to use my entire 
time, nor use the entire statement that I have prepared. But I 
want to emphasize that H.R. 4031 in no way is meant to 
disparage the SES employees that are out there, the hardworking 
employees. It is really meant to help them. Every day well over 
300,000 employees at the VA go to work to do the right thing 
and I think most of the members here would agree with that. But 
more than a dozen examples of a very shocking trend have 
actually now arisen and we have listed them on our House Web 
site at veterans.house.gov/accountability. In fact, if you look 
at the recent VA preventable deaths that have been linked to 
mismanagement in Pittsburgh, Atlanta, Columbia, South Carolina, 
Augusta, Georgia, and Memphis, Tennessee, the VA executives who 
presided over the negligence are more likely to have received a 
bonus or a glowing performance review than any type of 
punishment. And I think it is past time to end this 
complacency.
    Now some have said that this bill would erode employee 
rights. To them I asked, why should government executives who 
are paid extremely well to serve the veterans of this country 
have the right to fail in their jobs with little threat of 
serious punishment? Not a single member of Congress would allow 
their staff to do the same. And those seeking VA healthcare, 
should they not have the right to know that VA executives who 
preside over mismanagement and negligence will be punished 
swiftly and accordingly?
    There are those who will say VA already has the necessary 
tools to properly discipline and fire failing executives. And I 
ask, if that is the case why have we not seen evidence in 
support of that particular argument? The reality is to those 
who closely follow that we see something very differently. And 
in instance after instance where mismanagement has led to 
veterans suffering, department officials have repeatedly 
pointed to non-disciplinary actions such as employee 
retirements, transfers, or bureaucratic slaps on the wrist such 
as a temporary written warning in a disingenuous attempt to 
create the experience of accountability.
    It is common knowledge within VA and throughout the 
government that it is easier to transfer a failing executive or 
leave them unchecked than it is to fire them. And I do not 
think that is what the citizens of this country want to do.
    So I would ask all members to consider the primary mission 
of our committee. We are here to support veterans and 
everything else should take second place. Mr. Chairman, thanks 
for your time. And I yield back.

    [The prepared statement of Jeff Miller appears in the 
Appendix]

    Mr. Flores. Thank you, Chairman Miller. Mr. Kelly, you are 
now recognized for five minutes.

                    STATEMENT OF KEITH KELLY

    Mr. Kelly. Good afternoon, Chairman Flores, Ranking Member 
Takano, and distinguished members of the subcommittee. Thank 
you for the opportunity to participate in today's hearing. As 
most of you know, my name is Keith Kelly and I am the Assistant 
Secretary for Veterans Employment and Training at the 
Department of Labor. Today I am accompanied by the department's 
Chief Evaluation Officer Demetra Nightingale. I will use my 
time here to highlight some of the department's views on DOL-
related legislation.
    The first bill I would like to discuss is H.R. 3614, as we 
have already heard from one of your colleagues, the Military 
Skills to Careers Act. This bill would require each state to 
administer an exam and issue a credential or license to a 
veteran without requiring any veteran should that veteran meet 
the certain criteria. H.R. 3614 would require the State to 
establish this program as a condition of receiving funding to 
employ disabled veteran outreach program specialists and local 
veteran employment representatives, more commonly referred to 
as DVOPS and LVERs. The department supports the intent of the 
legislation. However, we do have serious concerns about 
withholding DOL funding from states if they do not comply 
because it is those very DVOPS and LVERs that provide the 
critical intensive employment service to veterans, the 
transitioning servicemembers, and their families. This 
legislation would jeopardize these services and penalize the 
very people this bill is aimed at helping.
    What is more, DOL is concerned that the administrative 
burdens on the states in complying with this legislation would 
be very significant. The reality is that some states have 
hundreds of different credentials and licenses that are issued 
by dozens of different state agencies and this bill would apply 
to them all. In fact, the majority of states have already 
adopted legislation aimed at streamlining credentialing and 
licensing for veterans.
    There are a variety of legislation and regulatory 
approaches that have proven successful in different states and 
DOL is already working with the Department of Defense and the 
states to assist them in these efforts. For instance, we are 
working on a pilot program to analyze and compare transferrable 
skills. In addition the department is providing technical 
support to certain states to award credit for military training 
and experience.
    Now to the second piece of legislation that we have also 
have heard about from one of your colleagues. I would like to 
discuss H.R. 3150, the Veterans Employment and Training Service 
Longitudinal Study Act. H.R. 4150 would give the Secretary of 
Labor access to the National Directory of New Hires 
Information. At this time DOL does not have authority to 
readily access these earnings data from state unemployment 
agencies and as a result of that we strongly support this 
provision. Without such authority the process of obtaining 
earnings data is time consuming, costly, and burdensome. 
Moreover, the bill directs the Secretary to conduct a study of 
veterans and the long term impact of DOL services. We estimate 
the cost to successfully complete this longitudinal study will 
be about $10 million over five years.
    Ultimately the department welcomes the opportunity to 
better understand the current impact of the services we provide 
for veterans so that we may continue to further enhance our 
programs and therefore improving veterans' quality of life. We 
are ready to ensure that the legislation and the resulting 
study are well crafted. Thus we do look forward to working with 
the committee on clarifying the goals and objectives of that 
survey.
    The Department of Labor sincerely appreciates the support 
of the committee and we strive to provide higher quality, 
better targeted services to our nation's veterans. Chairman 
Flores, Ranking Member Takano, and members of the subcommittee, 
this concludes my statement. Thank you again for the 
opportunity to testify today. I would be pleased to answer any 
questions.

    [The prepared statement of Keith Kelly appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Kelly. I will now recognize 
myself for five minutes for questions. Mr. Coy, let us begin 
with you. You heard Chairman Miller's opening comments a few 
minutes ago. Would you agree that there have been an alarming 
number of instances where the VA's SES employees have acted 
improperly?
    Mr. Coy. As a 14-year senior executive in the government, I 
have heard of some of those stories but I am not familiar with 
the individual ones. So it would be irresponsible for me to 
comment on any one of those individuals. Most of those were, 
from what I understand, on the VHA side of VA.
    Mr. Flores. Can you tell us if any of VA's SES employees 
have been fired or disciplined over the past year because of 
problems like this?
    Mr. Coy. What I do know, Mr. Chairman, is that the 
Secretary has, to use your term, fired or removed 6 SESs in the 
past two years. Three of them were senior executives in their 
first year or probation, and three were senior executives that 
were career senior executives outside of the probationary one-
year period.
    Mr. Flores. Okay. We have heard that mentioned in earlier 
hearings. Can you, actually during a February 26th Subcommittee 
on Health hearing Dr. Benishek asked Under Secretary for Health 
Dr. Petzel to provide a list of everything VA has done to hold 
employees accountable in response to the preventable veteran 
deaths in Pittsburgh, Augusta, Columbia, Memphis, and Atlanta. 
And Dr. Petzel at that hearing, I saw this myself, said that he 
would provide that by the end of the week. It has been almost a 
month since that information was requested. So do you have, can 
you tell me when the VA will provide that information to Dr. 
Benishek's Health Subcommittee?
    Mr. Coy. Mr. Chairman, I am not familiar with specifics on 
what is holding up that information. But I will most certainly 
take that for the record and take that on.
    Mr. Flores. Okay. We would appreciate that. There are also 
reports that the IG has laid out for us that there is evidence 
that the VA was complicit in multiple preventable deaths in 
those same locations and that managers in those locations still 
received bonuses. Can you tell us how that would, how that 
situation would occur?
    Mr. Coy. Again, Mr. Chairman, I am not familiar with those 
very specific cases. I will take that for the record and ensure 
that you get a response back.
    Mr. Flores. Okay. Thank you. It is also, one of the things 
that the subcommittee noted, and I think is one of the things 
that frustrates Chairman Miller. I am not putting words in his 
mouth, but it frustrates him, it frustrates me, and that is 
that all but one of VA's SES employees in fiscal year 2012 
received high performance ratings. And it just seems like, you 
know, here we are. We have had these preventable deaths. We 
have got a backlog that, while it is coming down is still 
unacceptably high, and only one person get something less than 
a high rating. That just does not seem like the way the real 
world would treat these types of issues. So do you find that a 
little strange? That all but one SES employee wound up with a 
superior rating?
    Mr. Coy. Well Mr. Chairman, as I stated earlier, I have 
been a senior executive for 14 years. So I have hired and 
managed many, many senior executives. Before that I spent about 
seven years as a managing associate at PricewaterhouseCoopers, 
where I was on the annual board of evaluation. And for 24 years 
before that as a naval officer. I would suggest that while I am 
not familiar with the exact cases that you are referring to, 
one of the things that separates the Senior Executive Service 
from other entities is the bar for admission is incredibly 
high. That process to become a senior executive is outlined in 
very stringent requirements by the Office of Personnel 
Management.
    One of the things that I take very, very seriously is I try 
and hire the very, very best. I think I have done that in the 
time I have been at VA and in my 14 years as a senior 
executive. I would also suggest that one of my key 
responsibilities as a senior executive, as a leader in VA, and 
as a key manager, is to ensure that those people, those SESs 
that work for me, performance is not only acceptable but above 
acceptable. And it is my responsibility to ensure if I see them 
veering off course five or ten degrees to bring them back to 
the straight and narrow. I think I have been very successful in 
doing that and I think many, many senior executives at VA also 
would reflect that.
    Mr. Flores. Thank you, Mr. Coy. We will, obviously we are 
going to continue the debate on this particular question. We do 
look forward to your responses to the questions that we 
propounded to Dr. Petzel.
    Mr. Coy. Yes, sir.
    Mr. Flores. Mr. Takano, you are recognized for five 
minutes.
    Mr. Takano. Mr. Coy, you write that VetSuccess on Campus, 
VSOC, and the pilot program in the Warriors' Peer-Outreach 
Pilot Program Act are similar. How are the programs similar 
when the VSOC personnel have more experience and the 
participants in the pilot program will not be equally 
experienced or trained?
    Mr. Coy. Thank you, Mr. Takano. There are some unique 
differences from your legislation and the VetSuccess on Campus 
program. One of the things for the VetSuccess on Campus program 
is over the past number of years we have grown that program 
from about eight pilot sites to now 94 sites with 71 different 
counselors. One of the things that we have established in the 
last couple of years is a mentoring program and we are doing 
that on two fronts. Actually, we are doing it on three fronts. 
The one front is leveraging work study students which are 
veterans at each of those campuses to engage fellow veterans 
that help them in that process. We are also working with VHA's 
programs in what we call our PAVE program, which is VHA's Peer 
Advisors for Veteran Education, to provide also a model to 
enable VR&E to do that.
    We are also establishing a pilot program that we are hiring 
16 AmeriCorps volunteers. Those AmeriCorps volunteers are 6 
veterans, five spouses of veterans, one civilian, and then two 
pending hires that we think will be veterans as well. So we 
think between those three programs, the AmeriCorps program, and 
our AmeriCorps volunteers that we are hiring are going to help 
us be the boots on the ground at those VSOC sites such that 
they will be engaging with those veterans on campus and we hope 
to have those veterans be expanded such that they are recent 
college graduates similar to your piece of legislation.
    I would also suggest that the work study program students, 
those are students who have been in school. They have been 
through the, sort of the initial piece of their freshman year, 
early years, and they have seen what you need to do to get 
through those things. So we have those work study students as 
well. And then finally we also are developing the PAVE program 
in conjunction with our VHA partners and their behavioral 
health and psychologists.
    Mr. Takano. Well along those lines, since VSOC is currently 
found at 94 campuses, do you think that the Warriors Peer-
Outreach Pilot Program Act can be a supplement that could 
quickly extend to a great number of campuses?
    Mr. Coy. I think it could very well be. And if enacted we 
could leverage that program and take pieces of that program and 
also use it across the other 94 campuses as well.
    Mr. Takano. And similarly the Warriors' Peer-Outreach Pilot 
Program is currently limited to three campuses. Would the VA be 
more inclined to support it if it included more campuses 
instead of just three?
    Mr. Coy. Congressman Takano, I would suggest that we would 
take all the help we can certainly get and we would love to do 
all the schools we can get. One of the interesting things is as 
I look at the number of schools that have for example over 
1,000 beneficiaries, or 1,000 folks going to school using G.I. 
Bill, that number is 135 right now today. It could change 
tomorrow to 136 or 134. But it is right around there. And that 
accounts for less than two percent of all the G.I. Bill 
campuses. So any efforts that we could expand the program, 
whether it be by three or by 50, we would certainly love to do 
that. My concern would be, however, that resources would come 
with that. In other words, we take our current VSOC program and 
we hire, we take an experienced VR counselor and put them on 
campus full-time. And we think that is incredibly valuable. And 
then we backfill that individual with an entry level VR 
counselor. We did the AmeriCorps program at VSOC sites because 
we thought it was critical that we had that VA person, that 
experienced counselor, to sort of see that program though.
    Mr. Takano. Thank you. Mr. Chairman, my time is expired.
    Mr. Flores. Ranking Member, if it is okay with you I would 
like to go ahead and have a quick second round?
    Mr. Takano. Sure.
    Mr. Flores. If that is okay. Secretary Kelly, I did not 
want you to leave unquestioned so we will have a second round. 
You had a recommendation for H.R. 3614 that DOL should provide 
only the states technical assistance instead of requiring that 
the states submit all licensing and credentialing exams to DOL. 
Can you expand on that recommendation?
    Mr. Kelly. Thank you. Yes, I would be happy to. First I 
would like just to share with the committee because this is as 
of last week, the Bureau of Labor Statistics Annual Report on 
Veterans Employment that just came out last week, there is 
significant improvement with regard to veterans unemployment 
dropping over this last year from 2012. And actually in fact 
both for the most recent Gulf War era veterans, it has been 
almost a ten percent drop. And just to share that improvement 
is being made. And I want to thank the committee, the 
administration, and all of us that are implementing the 
programs and the changes you have made. Some things are working 
and they are working in the correct direction.
    Mr. Flores. May I interrupt you for a minute? Do you have 
that by age cohort?
    Mr. Kelly. Yes, I do.
    Mr. Flores. Particularly 18 to 29.
    Mr. Kelly. What is used in there the Gulf War II era 
veterans which takes it all the way back, I think, from 
September 12th forward. And I think that takes it all the way 
up 35. I do have the data. I will definitely get it 
specifically to you by the age cohort.
    Mr. Flores. Okay.
    Mr. Kelly. But that one has made almost the largest gain in 
the drop of unemployment almost to ten percent, from 9.9 down 
to nine percent.
    Mr. Flores. Okay.
    Mr. Kelly. With regard to your specific question, you know, 
that we do have concerns about this. We do, let me reiterate, 
appreciate the intention of the bill. And the concerns we have, 
we are first and foremost opposed to withholding the state 
funding to hire the DVOPS and the LVERs. Our result is we see 
this would penalize the very people that this legislation is 
aimed at helping, and hopefully even help drive down those 
unemployment numbers. The DVOPS and LVERs are the individuals 
at the state level that do provide the critical employment 
services.
    There is a second part with the concern with this bill and 
it is too broad as it is currently written in that all licenses 
and credentials issued by a state would be included in that. 
And I do have numbers on some of the states on the hundreds of 
licenses and credentials that are offered out there by various 
state agencies, it is almost overwhelming sometimes.
    And finally many states are already working to streamline 
the licensing process for veterans and transitioning services. 
Every year a legislature meets more are getting on board to do 
that. So it is for those reasons that we have concerns with the 
bill as it is written.
    Mr. Flores. Okay. Thank you, Secretary Kelly. Mr. Coy, one 
last question for you. In your written testimony on Section 5 
of H.R. 4037 you stated that the VA has the authority that it 
needs to prioritize voc rehab services. So if you already have 
this authority, the two-part question is A, how does VA 
prioritize those? B, what is the filter that they use for the 
prioritization?
    Mr. Coy. We currently are going through a change in two or 
three or four things. Prior to this review we used to 
prioritize those veterans who were Post-9/11 veterans would 
get, if you will, head of the line privileges. We are now 
looking across the board with respect to how we would set up a 
priority system similar to VHA's priority one, two, three, 
four, and laying those things out. As you know, most recently 
our new Direction of Vocational Rehabilitation and Employment, 
Jack Kammerer testified in front of this committee, I believe. 
And one of his responsibilities he has been tasked with by me 
is to sit down and establish a program to do just that. But we 
do believe that we have the current authority to be able to do 
that. The devil is in the details, most certainly. We need to 
figure out, you know, this balance of fair versus priority. And 
who gets head of the line privileges, but making sure that 
nobody gets the back of the line privileges. And so striking 
that balance is going to be a challenge.
    Mr. Flores. Okay. Thank you, Mr. Coy. Mr. Takano, I 
recognize you for five minutes for a second round.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Coy, with regard 
to H.R. 4031, what is the Secretary's general feeling about 
this attempt to give him enhanced flexibility with regard to 
the SES?
    Mr. Coy. Thank you, Congressman Takano. That is a great 
question. I believe the Secretary's views on this are pretty 
clear that he believes that he has the authority to do that. I 
have met very few individuals in my career, and that has been a 
long one, that does not have any, or that has the moral 
integrity and the honor that Secretary Shinseki does. He takes 
SES performance incredibly seriously. I have been in his office 
where he has ensured that everyone under his responsibility is 
clear on what the goals and strategic intent of his office and 
where the VA is headed. I would suggest that Secretary 
Shinseki's views on this are such that he has the authorities 
to do those things and he has in fact done that. He has removed 
people. He has reduced people's pay. He has reassigned people. 
He has suspended people. He has done all of those actions 
specifically in the last two years I know.
    Mr. Takano. So would he view the intent of this legislation 
for H.R. 4031 as a helpful additional tool? Or is he saying 
that he has enough authority as it is to provide the discipline 
and order for the SES?
    Mr. Coy. I believe that the view of the Department of 
Veterans Affairs is that the Secretary currently has the tools 
available to him or her to do, to ensure that senior executives 
within the Department of Veterans Affairs are held accountable 
and he has in fact used that tool on several occasions.
    Mr. Takano. Is there any thought that providing this 
flexibility for the Department of Veterans Affairs could be 
used as an example for enhanced flexibility in other 
departments of the federal government?
    Mr. Coy. That is, if you will, an opinion question on my 
part. And my opinion? This is Curt Coy's opinion. I would 
suggest that it could have a detrimental effect on recruiting 
and attracting candidates to the Department of Veterans Affairs 
if the Department of Veterans Affairs had a different SES 
system, if you will, than other departments in the government. 
The SES system that is in place now has what is generally 
considered adequate safeguards to ensure that senior 
executives, if action has been taken, they can go to the MSPB 
if necessary. That has happened at VA. And in fact MSPB at one 
point reversed a decision, and then they went back as I 
understand it. So there are those tools in place where SESers 
have due process. And so there might be a concern from the 
perspective of this particular bill that some of that due 
process may not be available to senior executives.
    Mr. Takano. Do you believe in your opinion that removing 
these protections could in fact turn these SES positions into 
expanded political appointees?
    Mr. Coy. I do not know that I am qualified, sir, to make 
that judgment. I would say again my experience as a senior 
executive, before I came over here I laid out the, I looked up 
the Senior Executive Service and refreshed myself and this is 
what the Office of Personnel Management defines a Senior 
Executive Service as comprised of men and women charged with 
leading the continuing transformation of government. These 
leaders possess well honed executive skills and share a broad 
perspective of government and public service commitment which 
is grounded in the Constitution. Members of the SES serve in 
key positions just below the top Presidential appointees.
    Mr. Takano. Thank you, Mr. Chairman. I have no further 
questions.
    Mr. Flores. Thank you, Ranking Member Takano. Well, I have 
a parting comment on this particular issue. I was a senior 
executive in the private sector for 30 years and I never went 
to an organization and worried what the due process policies 
were. I just worried about how well I was going to be able to 
execute my position and the responsibilities under my 
authority. And I hope that we can, my encouragement for the VA 
is to embrace these reforms that we are proposing because they 
are desperately needed, it sounds like.
    With this the first panel is excused with our thanks. We 
appreciate you joining us, Mr. Coy and Mr. Kelly. And we now 
invite the second panel to join us.
    Before you leave, Mr. Takano, without objection we are 
going to change the rules so we can carry on with one member. 
Okay? You do not object? Okay, good.
    All right. With our second panel today we have Steve 
Gonzalez, who is the Assistant Director for the National 
Economic Commission at the American Legion; Mr. Pete Hegseth, 
Chief Executive Officer at Concerned Veterans for America; Mr. 
Ryan Gallucci, Deputy District Director of the Veterans of 
Foreign Wars; and Mr. William Hubbard, Vice President of 
External Affairs at Student Veterans of America. And I 
apologize to those of you whose names I butchered. I thank all 
of you for being here, for your service to our nation while you 
were in uniform, and for your hard work and advocacy for 
veterans today. Mr. Gonzalez, we will begin with you. You are 
now recognized for five minutes.
    Statements of Mr. Steve Gonzalez, Assistant Director, 
National Economic Commission, The American Legion; Mr. Pete 
Hegseth, Chief Executive Officer, Concerned Veterans for 
America; Mr. Ryan Gallucci, Deputy Legislative Director, 
Veterans of Foreign Wars; And Mr. William Hubbard, Vice 
President of External Affairs, Student Veterans of America

                  STATEMENT OF STEVE GONZALEZ

    Mr. Gonzalez. Good afternoon, Chairman Flores, Ranking 
Member Takano, and distinguished members of the subcommittee. 
On behalf of the National Commander Dan Dellinger and the 2.4 
million members of the American Legion, we thank you and your 
colleagues for the work you do in support of our servicemembers 
and veterans, as well as their families. The hard work of this 
subcommittee in creating significant legislation leads a 
positive impact on our military and veterans community.
    H.R. 2942, enactment of legislation to reestablish the 
Professional Certification and Licensure Advisory Committee, 
PCLAC, will benefit servicemembers as well as those who 
eventually employ veterans in the civilian workforce, easing 
the placement of qualified veterans in civilian careers and 
matching civilian employers with skilled veteran employees. The 
Department of Veterans Affairs currently lacks subject matter 
experts that can provide knowledgeable recommendations to 
improve VA's licensing and certification. Therefore the 
American Legion believes that it is extremely important that 
the PCLAC be reauthorized. The American Legion strongly 
supports H.R. 2942.
    H.R. 3056, the American Legion believes strongly in the 
power of peer to peer support and has called for the 
development of peer to peer rehabilitation programs. However, 
we have several concerns with H.R. 3056. One, the commissioning 
of the pilot on only three college campuses. Two, the 
possibility of funding being diverted from existing programs 
such as VetSuccess on Campus that already provides such 
services. And three, the possibility of redundancy. For more 
details on these concerns please refer to our written 
testimony. The American Legion does not support H.R. 3056 as 
written.
    H.R. 3614, the American Legion's Resolution Number 52 holds 
that we support action that will require Congress through the 
Secretary of Labor to ensure that each workforce center in the 
various states offering labor exchange services have sufficient 
funding to provide at least one DVOP and LVER staff to provide 
services to all veterans requiring employment and training 
assistance residing within the state.
    As such, the American Legion cannot support any legislation 
which will withhold funding to these programs, even as a 
penalty. The American Legion does not support H.R. 3614 as 
written.
    H.R. 4031, the American Legion is deeply concerned with the 
lack of accountability within the VA. This legislation will 
provide tools to the Secretary of Veterans Affairs to better 
manage senior executive service employees and hold them 
accountable when they fail to perform their duties in a manner 
that better serves the veterans entrusted to their care. The 
American Legion supports H.R. 4031.
    H.R. 4037, the American Legion does not have a resolution 
or position on H.R. 4037.
    H.R. 4038, the American Legion believes that in order to 
ensure the continued success of the delivery of education 
benefits and accurately track the outcomes of VA's VR&E system, 
the VA will need to maximize the usage of paperless IT systems 
and be proactive in this area to prevent any kind of backlog as 
such, as has been seen with disability claims. The American 
Legion supports the passage of H.R. 4038.
    H.R. 4147, prior to the passage of the post-9/11 G.I. Bill, 
the VA delivered education benefits were relying on a 
combination of manual processes and legacy IT systems. However, 
the Department also determined at the time that its legacy 
systems were insufficient to support the demands for processing 
the new benefit. This report will allow policymakers to assess 
the status of the system, the plan of the system, the plan of 
action with regard to the finalization of the system, and the 
anticipated cost. The American Legion supports this bill.
    H.R. 4150, Congress and other key stakeholders lack 
essential information needed to assess the performance of many 
programs in the Department of Labor's VETS. The American Legion 
believes that a longitudinal study conducted by a third party 
will help to identify lapses in program stewardship and will 
allow for the Department of Labor's VETS to make improvements 
to existing programs and services. The American Legion supports 
this bill.
    Lastly, H.R. 4151, since the 2009 implementation of the 
post-9/11 G.I. Bill, education benefits have significantly 
increased for service members, veterans, and their families. 
However, the VA has yet to conduct an impact study--a survey or 
a study to evaluate the experiences of those individuals using 
the G.I. Bill benefit. In order to evaluate how such a robust 
benefit has impacted the lives of veterans who are 
transitioning from the military to civilian life, such an 
assessment on return on investment for policymakers, advocates, 
and taxpayers is much need. The Legion supports this bill.
    The American Legion appreciates the opportunity to comment 
on the bills being considered by the Subcommittee. I will be 
happy to answer any questions you might have. Thank you, 
Chairman.

    [The prepared statement of Steve Gonzalez appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Gonzalez. Mr. Hegseth, you are 
recognized for five minutes.

                   STATEMENT OF PETE HEGSETH

    Mr. Hegseth. Thank you, Mr. Chairman, Ranking Member 
Takano, and Members of the Committee. Thank you for the 
opportunity to be here today.
    My name is Pete Hegseth, and I am the CEO of Concerned 
Veterans for America. We are an organization of veterans and 
military families dedicated to fighting for the freedom and 
prosperity here at home that we fought for while in uniform.
    We are a growing organization of veterans and military 
families who refuse to accept the status quo in Washington. I 
am an Army veteran myself, having served three tours since 9/
11--Guantanamo Bay, Iraq, and Afghanistan.
    And today I am speaking on behalf of the members of 
Concerned Vets for America, and every veteran and their 
supportive families who feel like second-class citizens in 
their own system.
    I am here for every veteran who has waited and waited and 
waited for a disability claim, for every veteran who calls the 
VA Hotline and then sits on hold, for every veteran who waits 
weeks and even months for a medical appointment, every veteran 
who receives substandard care, and tragically I am here for 
every veteran who has died because they have not received the 
care they needed when they needed it.
    You have seen the stories, I have seen the stories, and it 
is long overdue that things change at the Department of 
Veterans Affairs. It is time for accountability, it is time for 
transparency, and it is time for results.
    These stories motivate my testimony here today, as well as 
my organization's full support of the bipartisan House 
Resolution 4031, the Department of Veterans Affairs Management 
Accountability Act of 2014. No sober observer of VA's track 
record, especially in the last few years, can look you, me, or 
any other veteran in the eye and defend the status quo. The 
status quo is simply unacceptable, and everyone knows it, 
especially those to access or I should say attempt to access 
VA's impenetrable, and woefully ineffective bureaucracy.
    The answer for years has been to spend more money. But as 
Secretary Shinseki says often, VA has all of the resources it 
needs. Since 2009, the budget for VA has increased by $66 
billion dollars. But what VA and many in its army of advocates 
will not publicly admit is that VA's problem has nothing to do 
with money, and everything to do with a calcified culture of 
mediocrity.
    At VA, nearly all employee performances rewarded, 
regardless of outcome, poor employee performance is routinely 
ignored or covered up, and veterans are left holding the bag--
wanting and waiting. What we have today is a VA that is very 
good at protecting managers and staff, and not very good at 
serving veterans.
    Omar Bradley, of World War II fame and a former Veterans 
Administrator, once said, ``We're dealing with veterans, not 
procedures, with their problems, not ours.'' Bradley's creed 
has been turned on its head. VA is obsessed with procedure and 
so engulfed in its own cultural problems, they are not serving 
veterans the way our Nation expects.
    Now I am not saying VA leadership managers and employees 
are bad people, they are not. Many of them are veterans and 
many of them do an excellent job. But with any bureaucracy over 
time, institutional incentives can distort human behavior in 
ways that become self-serving and process driven as opposed to 
customer service oriented and outcome driven.
    This has clearly happened at VA, as not a single senior VA 
manager has been fired under this Administration. Not one. To 
the contrary, in 2011 and 2012 every SCS received a performance 
rating of fully successful, while the back-load and other 
problems exploded. Tell me this: if basic accountability is not 
enforced at the top, how can performance be corrected 
throughout and organization?
    That is what House Resolution 4031 seeks to combat, 
providing the VA Secretary with the tools necessary to bend the 
incentive curve. The Bill would simply empower the VA Secretary 
to fire under-performing managers, specifically members of VA 
senior executive service. These are the folks who run the 
hospitals, lead the regional offices, and run entire 
departments. The ability to cut through red tape and actually 
fire bad managers is the same power we give our Secretary of 
Defense, which Secretary Gates used quite effectively in 
cleaning up the 2007 mess at Walter Reed.
    Why should the VA Secretary not have those same basic 
tools?
    Now, of course, VA has opposed this reform measure and is 
peddling their own watered down version. That is to be 
expected, as no bureaucracy would demand more accountability of 
itself. Some in Washington also derived the Bill as an issue of 
employee rights, saying it would undermine existing civil 
service rules.
    Critics mainframe the issue as a matter of employee rights, 
but what rights are they defending? The right of a poor-
performing VA executive to fail at their job? The right of a VA 
leadership to retaliate against whistle blowers, or the right 
to continue granting extravagant bonuses to failing managers? 
It takes a very expansive understanding of employee rights to 
oppose the bill on those grounds.
    Far from being an attack on dedicated public servants, H.R. 
4031 would instead empower and attract better managers. This 
bill would also bolster the best employees while sending a 
clear message to poor performers, that results matter. We think 
it would attract perform-minded individuals.
    In closing, the key question before this Committee and this 
Congress is simple--who will you stand with, under performing 
bureaucrats who can't be fired, or veterans who are being 
under-served? The answer to that question is crystal clear.
    Thank you for this opportunity, and I welcome your 
questions, Mr. Chairman.

    [The prepared statement of Pete Hegseth appears in the 
Appendix]

    Mr. Flores. Mr. Hegseth, well said, and that is obviously a 
YouTube that I would like to play over and over again. So, Mr. 
Gallucci, you are recognized for five minutes.

                   STATEMENT OF RYAN GALLUCCI

    Mr. Gallucci. Thank you, Mr. Chairman. I want to thank you 
and the Subcommittee for the opportunity to testify today on 
behalf of the VFW. I also want to thank this Subcommittee for 
its hard work over the last year, advancing critical 
legislation, like in-state tuition for veterans. We encourage 
you to keep up the hard work and look forward to working with 
you to accomplish our shared goals. For the VFW's full thoughts 
on today's bills, I will refer you to my prepared testimony, as 
I will only speak briefly to each of them.
    First, on H.R. 2942, the VFW supports this bill and we echo 
the sentiment of my colleague from the American Legion, who 
laid out the case for why this Advisory Committee must be 
extended.
    Next, on H.R. 3056, the VFW supports Ranking Member 
Takano's efforts to better understand the impact of peer 
support for student veterans; however, we question the need for 
a pilot program to do this. We worry that a pilot would 
duplicate what already happens on the grounds, thanks to our 
colleagues from Student Veterans of America, as well as through 
VA work study and programs like VSOC, VITAL, and Veteran 
Centers of Excellence.
    Recently, I discussed the peer support with Kenneth 
Wiseman, the VFW Student Veteran Outreach coordinator for 
Virginia, and a graduate student at Old Dominion University. 
Through his work around Virginia, Ken helps schools and student 
veterans understand the programs and support available to them. 
Just last week, Ken visited Virginia Western Community 
College's new Veteran Center, which will soon host 6 VA work 
study veterans to offer peer support. Ken's home campus, Old 
Dominion, hosts nearly a dozen VA work study veterans to do the 
same.
    The VFW believes that in lieu of a pilot, Congress should 
instead look to programs like those at Old Dominion to better 
understand how schools, student veterans, and VA are working 
together to deliver peer services.
    The VFW agrees that we know far too little about the 
student veteran experience and we should study peer support 
models to identify promising practices and potential 
shortcomings. However, to do so, the VFW recommends studying a 
diverse selection of schools already implementing peer support 
programs. The VFW fully supports the goal to report on the 
efficacy of peer support for student veterans, and we look 
forward to working with the Committee on this issue.
    Next, H.R. 3614. The VFW supports the concept of this bill 
to streamline licensing opportunities for veterans. Prior to 
this hearing, I visited the Army's recruiting website, 
goarmy.com, which touts the valuable career skills soldiers 
receive. To the VFW, it seems unreasonable that these skills 
would not easily translate to civilian jobs as we all know, and 
we look forward to working with the Committee on ways to fix 
this.
    On H.R. 4031, the VFW shares Chairman Miller's concerns 
over accountability for VA management. We support the intent of 
this bill to give VA broader authority to remove SES employees 
for poor performance, but have some concerns over the proposal 
as it is written right now. Any changes must protect that 
intricate link between political appointees and civil servants, 
but the VFW agrees that the current system makes it nearly 
impossible for VA to remove an SES.
    As a result, the VFW recommends changing the disciplinary 
procedures to ensure that SES employees must respond to notices 
within 30 days, with some appeal rights intact, in lieu of 
today's open-ended process.
    Recently, VFW Commander-in-Chief Bill Thien testified that 
it is a privilege to work for VA, not a right. We look forward 
to working with Chairman Miller to reinforce this message.
    H.R. 4037, the VFW supports the intent of your bill, Mr. 
Chairman, to ensure that VR and E helps the veterans who need 
it the most. VR and E is nearly at capacity for offering 
rehabilitative services and as the military draws down, we 
share your concerns that without responsible changes, VR and E 
may be stretched too thin. However, the VFW worries that 
restricting eligibility will cause some veterans to fall 
through the cracks.
    Although we cannot support this bill in its current form, 
we do look forward to working with you on meanful reforms that 
will ensure VR and E conserve those who need it without 
restricting access.
    On H.R. 4038 and 4147, the VFW supports both of these bills 
and we thank you, Mr. Chairman, and Ranking Member Takano for 
ensuring that VA invests in its education IT systems and can 
report on potential shortcomings to make necessary 
improvements.
    H.R. 4151, the VFW supports Congressman Bilirakis' efforts 
to understand the student veteran experience. Since we do not 
know enough about today's student veterans, many draw 
conclusions based on bad information. In my office, my 
colleagues and I joke that by Department of Education 
standards, none of us are considered a college graduate.
    We need quality information to demonstrate veteran success, 
coupled with Ranking Member Takano's report on peer services, 
and SVA's recent report on student veteran outcomes, we believe 
this bill will allow us to better understand the unique 
experiences of student veterans, protecting our investment in 
future veteran leaders.
    Finally, on a longitudinal study on vets, the VFW believes 
that the Department of Labor VETS can provide a critical 
gateway to civilian employment for many veterans, particularly 
through the DVOP and LVER network. Unfortunately, services vary 
across the country and we struggle to evaluate what works and 
what doesn't.
    Recently, the VFW referred a small business owner in 
Indiana to his local LVER, and we are proud to report that the 
next day he had several interviews lined up with viable 
candidates.
    So, we believe that this system can work, but we must have 
proper oversight to ensure that vets can deliver the services 
veterans need. We support this draft concept, and we look 
forward to working with the Committee to advance it.
    Mr. Chairman, Members of the Subcommittee, this concludes 
my statement. I am happy to answer any questions you may have.

    [The prepared statement of Ryan Gallucci appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Gallucci. Mr. Hubbard, you are 
recognized for five minutes.

                  STATEMENT OF WILLIAM HUBBARD

    Mr. Hubbard. Mr. Chairman, thank you for inviting Student 
Veterans of America to submit our testimony regarding pending 
legislation intended to increase support for military service 
members and veterans.
    Student Veterans of America is the largest and only 
national association of military veterans in higher education. 
Our mission is to provide military veterans with the resources, 
support, and advocacy needed to succeed in higher education and 
after graduation.
    We currently have nearly 1,000 chapters or student veteran 
organizations at colleges and universities in all 50 states 
that empowers veterans in their transition and through a higher 
education. This on-the-ground perspective, which comes from 
every corner of this Nation, and our experience in supporting 
thousands of G.I. bill beneficiaries, provides the framework 
for our testimony regarding these important issues.
    The two bills we would like to address today are H.R. 4150, 
and H.R. 4151 from the Offices of Congressmen Cook and 
Bilirakis, respectively.
    Looking at H.R. 4150, Veterans Employment and Training 
Services Longitudinal Study Act of 2014, on March 24 we 
released our initial findings of our Million Records project, 
an SVA--lead research study of veterans in higher education in 
collaboration with the Department of Veterans Affairs and the 
National Student Clearinghouse.
    As we look at H.R. 4150, we find it to be complimentary to 
our research, and within the spirit of seeking data-driven 
decisions on programs to support veterans in higher education.
    Since our organization's inception, we have held that the 
life cycle of the veteran's transition from the military, to 
school, and onwards to civilian careers, is a highly inter-
dependent process. Each component of this process builds on the 
proceeding steps, and this legislation seeks to empower 
veterans through several critical stages.
    For example, the Department of Labor's Veterans Employment 
and Training Service, VETS, builds bridges for millions of 
veterans across--over the coming years as they pursue gainful 
careers in post-graduation. However, the current lack of 
coordination and understanding of the breadth of impact 
surrounding this part of the transition process is a crucial 
gap that must be addressed.
    SVA applauds the interest and moving towards the goal of 
gaining greater clarity on the impact of job counseling, 
training, and placement of veterans. In 2012, a GAO report 
noted that the Federal government has sponsored 6 different 
programs, serving at least 880,000 participants at a cost of 
$1.2 billion.
    Such a broad variety of resources might be seen as a 
positive attribute and certainly reflects the sea of goodwill 
that has developed over the past decade. However, without 
coordination, duplicative efforts and inefficiencies threaten 
to stymie the full potential of these resources.
    A study as this legislation proposes would enable decision 
makers at multiple levels to understand what is working. As 
well, the study would highlight areas for change. SVA is in 
full support of H.R. 4150, and applauds the legislation for 
being fully inclusive of all individuals of any kind in 
educational assistance.
    Turning to H.R. 4151, the Veterans Education Survey Act of 
2014, SVA stands in strong favor of Congressman Bilirakis' 
legislation, H.R. 4151. It is right for some Americans to ask, 
what are we receiving for our investment in the G.I. Bill? 
Indeed, this is a crucial question as more than $34 billion has 
been spent on millions of veterans who have sought and are 
seeking degrees in higher education.
    As previously noted, our Million Records Project has sought 
to answer that question. H.R. 4151 is an important piece of 
legislation because it answers another key element of this 
investment in our veterans--what motivates veterans to pursue 
the paths that they do.
    We know that a majority of service members elect to pursue 
higher education as they transition out of the military. With 
an expected one million new veterans to enter the civilian 
population over the next several years, the importance of 
empowering veterans in higher education will continue to 
increase.
    Through the Million Records Project there are several data 
points that we have gained great insight on, and when paired 
with the data that would be collected through a study directed 
by this legislation, the picture will become even clearer. This 
legislation will add another element to that picture, factors 
that impact the past veterans' pursuit in higher education.
    The more data available on these topics, the better. Since 
2000, over 4 million veterans have benefitted from the use of 
the G.I. Bill, and American taxpayers can expect that this 
generation of veterans will positively impact the American 
economy, in magnitudes that will continue for several 
generations to come.
    Student Veterans of America is appreciative of the 
opportunity to provide this testimony. We thank the Chairman, 
the Subcommittee members for their time and attention and 
devotion the cause of veterans in higher education, and we look 
forward to continuing to work with the Subcommittee, the House 
Veterans Affairs Committee, and Congress to ensure the success 
of all generations of veterans through education.
    Mr. Chairman, thank you for allowing Student Veterans of 
America the opportunity to participate in this important 
hearing.

    [The prepared statement of William Hubbard appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Hubbard, and I thank all of you 
for your testimony. I now recognize myself for five minutes for 
questions.
    This is a question for all of Panel 2. If the VA is 
resistant to reforming the SES employment protocols, what sort 
of a message does that send to our veterans? Let us start with 
Mr. Gonzalez.
    Mr. Gonzalez. Mr. Chairman, at this moment I am not pretty 
much the person that would deal with this particular issue. My 
colleague, who is not here today, would be more than happy to 
follow-up with your staff with a written statement on the 
record on your particular question, Chairman.
    Mr. Flores. Okay. Mr. Hegseth, you were pretty passionate 
about this subject. What message do you think this sends to our 
veterans?
    Mr. Hegseth. I think it sends a signal of detachment from 
reality, that the bureaucrats or employees or those who--and 
let me be clear. Most SES, use that word, ``bureaucrats,'' I 
don't mean it pejoratively. These are folks that want to do 
well by veterans, but are detached from the outcomes and the 
realities that are actually coming down the pike and what 
veterans are experiencing. And when they see failures and they 
read the headlines and they wait in line, and then they do not 
see anything change at the top and then they read about bonuses 
for executives of failing departments, it tells them the very 
department that was meant to serve them is actually serving the 
interests of other people who can protect those interests 
easily, because they've got access and lobbyists and 
protections here in Washington, and it is the veteran who is 
left hanging.
    So I do think it creates a perception that VA is 
disinterested and detached from what actually happens in the 
lives of those veterans and reinforces the separation a lot of 
veterans feel right now from a department that should be 
serving them, and leaders who should be pounding the table for 
reform, which is why we believe the argument the VA has pushed 
forward, that this would discourage good managers is false--is 
utterly false.
    Why, as a good manager, would you want to enter a 
bureaucracy where you cannot effect change, where you cannot 
reform it so that it is better in the way it provides outcomes? 
So, we'd like to believe that these changes would encourage 
better employees.
    Mr. Flores. Okay. Mr. Gallucci, what reflections do you 
have?
    Mr. Gallucci. Well, thank you, Mr. Chairman. I do not want 
to speculate on what VA's--on why VA would come out in 
opposition to this. But from our perspective, one of the 
concerns that we have is to keep the pendulum swinging too far 
in the wrong direction, which is why we look forward to working 
with the Committee to put forward good legislation that will 
make sure we can hold senior executive service members 
accountable for the decisions that they have made.
    What we wrote about in our prepared remarks discussed that 
the SES exists to bridge the gap between political appointees 
and the career civil servants. What we would hate to see is 
them to hold the SES to the same standard as political 
appointees, in which you have just another level of political 
appointee, where SES is going to be fired at the whim of 
whoever is in that Administration.
    We agree there needs to be a bridge between those two, and 
that is why we look forward to working with the Committee and 
Chairman Miller to make sure that have a responsible bill for 
the SES accountability.
    Mr. Flores. Mr. Hubbard, what sort of a message do you 
think it sends to our veterans and front line VA employees if 
we don't reform the SES system?
    Mr. Hubbard. At this time, Student Veterans of America 
finds it out of the scope of our mission to comment on this 
bill.
    Mr. Flores. Okay. Thank you. Mr. Gallucci, you had a 
thoughtful suggestion on H.R. 4031 that I do remain concerned 
that the approach that you have recommended remains too close 
to the status quo, so we do look forward to working with you in 
terms of trying to find a way to hold SES employees 
accountable, but also we can't have a status quo. We have got 
too many things that are not working at the VA that we would 
like it to--bonuses being paid and veterans continue to suffer. 
So we will keep working with you on that.
    Continuing on to another question for Mr. Gallucci, you had 
some testimony on my Voc Rehab bill about the need to 
prioritize service and ensure the most severely injured 
veterans receive care first. Can you elaborate on how you would 
see that working?
    Mr. Gallucci. This the discussion we look forward to 
having. Obviously, the VFW, we would oppose restricting access 
to the program for veterans who are currently eligible. We 
worry that some veterans would slip through the cracks.
    However, we certainly recognize that the program is getting 
close to a point where it may not be able to deliver the 
rehabilitative services that veterans need. By the very nature 
of the program, it is designed to rehabilitate veterans who--
because of their service connected disability, need to find a 
new career path. And that is why we look forward to working 
with you on ways to come up with it.
    One of the issues that I brought up in our written 
testimony is the ratio of Voc Rehab counselors to Voc Rehab 
participants. Right now the independent budget--veteran service 
organizations report that at about 145 to 1, which is well 
above VA's acceptable ratio of 125 to 1. So that demonstrates 
to us that there is some stress on the system.
    So, though we do have concerns about the bill as written in 
restricting access to some veterans who may need it, who may 
have a low service connected disability but a significant 
barrier to employment, that is why we want to have an open and 
ongoing conversation about the best way to do that.
    Mr. Flores. Okay. Mr. Hubbard, I have got sort of a two-
part question, but I would like to start with how would you 
define success for student veterans?
    Mr. Hubbard. Sir, I would define success for our student 
veterans in terms of them being able to make a clear transition 
to educational institutions, for them to have a smooth process 
which would consist of working with the administration at their 
universities as well as their peers on campus, and then 
translating that success over to a gainful employment; to be 
able to find a career that is both fulfilling and also able to 
pay the bills. You know, individuals can't just land jobs. That 
is not the goal. The goal is to find careers for these veterans 
if they can actually contribute to society in a positive way, 
and frankly, really impact the American economy.
    Mr. Flores. I like your definition. Based on that 
definition, I have a question for you and Mr. Gallucci, both. 
Can you talk a little bit more about the need for hard data 
that truly shows success for student veterans? We'll start with 
you, Mr. Hubbard.
    Mr. Hubbard. Sure. Absolutely. So a lot of speculation and 
anecdotal evidence has been provided both ways about how 
student veterans are faring, in both education and then beyond. 
Without actual hard evidence data, this is just speculation. 
There is no actual ability to create programmatic change or 
effect policy.
    So being able to look at that base line of data, 
understanding how student veterans are faring in education, 
from that point forward you can actually make data-driven 
decision and you are basing your information on something that 
you know, versus something that you think.
    Mr. Flores. Okay. Mr. Gallucci, can you add to that?
    Mr. Gallucci. I think it is very important. Like I spoke 
about in my oral remarks, neither myself nor my colleagues at 
the VFW are considered college graduates by Department of 
Education standards. And that really comes from----
    Mr. Flores. They include a bunch of us.
    Mr. Gallucci. Exactly. I think probably everybody at this 
table would not be considered a graduate by those standards. 
And what we saw over the last couple of years is we were 
creating a false narrative about student veteran performance 
and higher education, and I have to thank my colleagues from 
Student Veterans of America for putting out their report that 
demonstrates that veterans are on par with their civilian 
peers, and actually do better than their non-traditional peers 
in higher education.
    What worried me about that report yesterday, though, is 
that the non-traditional data is more than 20 years old. So, we 
have a responsibility to find quality data on veterans.
    One of the things that I wanted to talk about is the 
importance of studying peer-to-peer support in higher 
education. This is one of the reasons why we encourage the 
Subcommittee and Representative Takano to adjust fire on their 
bill on peer-to-peer support. We think peer-to-peer support is 
critical on college campuses, but one of the problems that we 
see is that we know this is happening. We know it is happening 
in droves around the country. But the problem with 
commissioning a new pilot is that if these sites know that they 
are being studied, those sites are going to behave differently.
    Mr. Flores. Right.
    Mr. Gallucci. We already have this happening in the 
community and if we want to do it responsibly, I believe that 
we should study what is already happening and then adjust 
programs within VA and within the veteran's community 
accordingly.
    Mr. Flores. Okay. Thank you, Mr. Gallucci. Mr. Gonzalez, 
can you go into more detail about the view that you expressed 
related to the Department of Labor's current ability to track 
outcomes, and how H.R. 4150 would help to address this problem?
    Mr. Gonzalez. Well, we knew in the past that many of the 
outcomes that the Department of Labor lacks has affected, or I 
should say, the DVOPS and LVERS and how the resources are being 
allocated or how the resources are being actually delivered to 
the veterans, transitioning into whatever state that they are--
respective state that they are going back into, whether it is 
their home state or the current state that they are stationed 
at.
    One of the problems we have seen in the past with a lot of 
the inability for Department of Labor to even know what is 
going on is how is money--how is the funding going into the 
state, how DVOPS and LVERS are in some cases of being not just 
allocated to help veterans look for employment, but also the 
whole entire population which goes against their mandate.
    The Department of Labor, through many past GAO reports have 
shown the lack of Department of Labor's VETS program or 
Department of Labor in general ability to actually acquire this 
type of information. Now knowing and being able to acquire such 
an information again will allow for advocates but also 
policymakers like yourself, Chairman, and this Committee to 
figure out is the money being used for the right reasons. And 
the reason we say that is, as we all know, the draw downs are 
coming. The Army alone will be shedding roughly about 140,000 
soldiers within the next couple of years, where guess what? 
Welcome to society. Here you go.
    We know in the past that the Army's spending--and that is 
the other part to this, is that this particular issue is not 
just going to affect the Department of Labor, but it is also 
going to affect the Department of the Defense. If we cannot 
find those individuals employment, Department of Defense is on 
the hook for paying unemployment benefits, and as we well know, 
in the last--I don't know, ten years or so, the Department of 
Defense has spent $9 billion in unemployment benefits.
    Now that money, which people don't realize, comes out of 
operating budgets of each respective service, which again, goes 
back to our National security. It goes back to our readiness, 
which that is a topic of conversation right now within the 
public, is how do we continue to have readiness? And if we are 
drawing down and we cannot find them employment, will DoD 
better be able to cough up the money, because someone is paying 
for it and DOD is on the hook.
    Mr. Flores. Right.
    Mr. Gonzalez. So, it has bigger implications, Chairman.
    Mr. Flores. You did get into a vicious spiral, so--because 
you hurt readiness more and then the budgets get tighter and 
the more people----
    Mr. Gonzalez. Yes, sir.
    Mr. Flores. You reduce the uniform strength. It does get to 
that spiral that none of us want to see.
    This is my last question to Mr. Gonzalez, Mr. Gallucci, and 
Mr. Hubbard. Assuming for a minute that H.R. 4038 becomes law 
and the VA has upgraded its IT systems related to the G.I. 
Bill. What are some of the positive things that you think would 
happen by doing this, and Mr. Hubbard, we will start with you 
first.
    Mr. Hubbard. I am sorry. Can you repeat the question?
    Mr. Flores. Sure. Yes. Assuming for a minute that H.R. 
4038--it is my bill related to having the VA upgrade its IT 
systems with respect to the G.I. Bill to go to a rule space 
processing system. What are some of the positive outcomes that 
you think would happen and would be experienced by our student 
vets?
    Mr. Hubbard. Well, for starters, I think the ability to 
have a clear system that they understand and can be responsive, 
that is the number one outcome. Student veterans who put in for 
the benefits who don't get them processed ultimately even just 
one month being missed can have a detrimental impact long-term. 
You might miss the first month of classes, university might 
hold the degree, you might not be able to graduate. And the 
lasting effects of this can range for years. You know, an 
individual loses time on their G.I. Bill benefits and 
ultimately it will effect their ability to graduate.
    Mr. Flores. Okay. Mr. Gallucci, same question.
    Mr. Gallucci. Thank you, Mr. Chairman, for the question. I 
think the reason that we support this or we want to see VA 
finish its IT resources for education is because we have 
already seen significant progress on automation within 
processing G.I. Bill claims. So they have reduced the wait time 
significantly on initial claims, and then on supplemental 
claims are almost fully automated. So veterans are not having 
to wait months to receive their benefits.
    We have seen some hiccups in the system; we want to prevent 
those. We think it is a good thing if they finish their IT 
resources because then we will have something concrete in 
place, something that veterans can rely on, something that they 
can work off of, and when they--as my colleague Will was saying 
that when they show up to school they know that their check is 
going to arrive on time, that they can pay the rent and pay the 
bills.
    Mr. Flores. Okay. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Chairman, for the question and 
again I will pretty much agree with my colleagues but also to 
talk about that would be also is allowing it to streamline such 
a system to ensure that we do not have the same mistakes we 
have seen with backlog claims, is first of all.
    Second, the other problem is making sure that by 
streamlining it it allows for one less burden for an individual 
who does have other issues. It can be taking of family, going 
to school full-time. I use myself as an example. When I went to 
school, I was a full-time student. I worked full-time, and I 
was also in the Reserves.
    Mr. Flores. Wow.
    Mr. Gonzalez. So having that, that is one less burden as 
myself, as a student veteran, as a drilling reservist, and as 
well as a full-time employee, as a second job, it allows for 
one less burden for myself to have to worry about and having 
such a system will allow myself to, again, pay my bills, pay 
the school on time, and not be held accountable for basically 
the issues that VA has occurred, and again just also prevent 
one other disaster, especially again with the draw-down 
happening, you are going to see more and more student veterans 
entering actual institutions of higher learning. So you want to 
be proactive and not reactive in this situation.
    Mr. Flores. Okay. I want to thank each of you for your 
testimony today. Again, thank you for your service to our 
country while you were in uniform and thank you again for your 
advocacy on behalf of our Nation's veterans, one of our 
Nation's most important resources for our future.
    If there are no further questions, and I do not think there 
are since we have a bunch of empty chairs, I want to thank each 
of you for being here today and taking the time to share your 
views on these nine bills. This is very important to the 
Legislative process and we appreciate your insight and your 
feedback and your passion.
    We also want to announce that the Subcommittee will be 
holding a markup on some or all of these bills on April the 
8th. I ask unanimous consent that the following organizations 
be allowed to submit testimony for the record: The Association 
of Private Sector Colleges and Universities, Vets First, 
Disabled American Veterans, Wounded Warrior Project, and the 
Senior Executive Association. Without objection, so ordered.
    Finally, I ask unanimous consent that all members have five 
Legislative days to revise and extend remarks and include 
extraneous material on any bills under consideration this 
afternoon. Without objection, so ordered.
    Again, I want to ask you for your forbearance. We started 
about an hour late in order to accommodate votes, but we 
appreciate everybody in the audience. We appreciate the VA and 
the Department of Labor for their forbearance, as well, and for 
our current panel of witnesses.
    The hearing is now adjourned. Thank you.
    [Whereupon, at 4:51 p.m. the meeting of this subcommittee 
was adjourned]
    Good morning, Mr. Chairman, Ranking Member Takano, and 
Members of the Subcommittee. Thank you for the opportunity to 
be here today to provide VA's views on pending legislation 
affecting VA's programs, including the following: H.R. 2942, 
H.R. 3056, H.R. 4031, H.R. 4037, H.R. 4038, H.R. 4147, and H.R. 
4151. Other bills under discussion today would affect programs 
or laws administered by the Department of Labor (DOL). 
Respectfully, VA defers to DOL on H.R. 3614, the ``Military 
Skills to Careers Act,'' a bill to improve the recognition by 
states of skills learned in the military by Veterans when 
issuing licenses and credentials, and H.R. 4150, the ``Veterans 
Employment and Training Service Longitudinal Study Act of 
2014,'' a bill directing DOL to enter into a contract for the 
conduct of a longitudinal study of job counseling, training, 
and placement services for Veterans provided by that 
Department. Accompanying me this morning is Mr. John Brizzi, 
Deputy Assistant General Counsel.

H.R. 2942

    H.R. 2942 would amend section 3689(e)(5) of Title 38, 
United States Code, to reestablish VA's Professional 
Certification and Licensure Advisory Committee with a new 
termination date of December 31, 2019. VA may appoint new 
members of the Committee without regard to the individuals who 
served as members before the date of enactment of this bill.
    The Committee would advise the Secretary of the 
requirements of organizations or entities offering licensing 
and certification tests to individuals receiving VA education 
benefits and other related issues as the Committee determines 
to be appropriate.
    VA supports this legislation. If reestablished, the 
Secretary would be able to receive recommendations and seek 
advice from the Committee with regard to licensing and 
certification programs.
    VA estimates that, if enacted, there would be no benefit 
costs or savings associated with H.R. 2942. VA did not have 
administrative costs available at the time of the hearing.

H.R. 3056

    H.R. 3056, the ``Warriors' Peer-Outreach Pilot Program 
Act,'' would direct VA to carry out a 3-year pilot program on 
the provision of outreach and support services to Veterans 
pursuing higher education under that Department's Post 9/11 
Educational Assistance Program (chapter 33 of Title 38, United 
States Code). VA would select three institutions of higher 
learning at which the pilot program should be carried out, to 
include: One 4-year public university, one community college, 
and one private, not-for-profit college. To be eligible to 
participate in the pilot program, the institution is required 
to:
    1) Provide office space to use information technology 
equipment and appropriate support services for the individual 
who will provide peer-outreach and peer-support services at the 
institution.
    2) Cooperate in providing data required to evaluate the 
effectiveness of the pilot program.
    Priority selection for the pilot program will be given to 
institutions of higher learning with existing peer outreach 
programs for Veteran students and institutions of higher 
learning located in states with large Veteran populations.
    In carrying out the pilot program, the Secretary shall 
provide peer-outreach and peer-support services to Veterans of 
Operation Enduring Freedom, Operation Iraqi Freedom, and 
Operation New Dawn who are students at an institution where the 
Secretary carries out the pilot program. Emphasis will be 
placed on individuals who have difficulty adjusting to an 
institution, or who need services or support that the 
institution is not equipped to provide, by employing:
    1) Veterans who are using chapter 33 benefits to pursue a 
program of education leading to a degree at the institution of 
higher learning;
    2) Those who have used entitlement to educational 
assistance under chapter 33 to complete a program of education 
and graduate from such an institution during the 18-month 
period preceding the date on which the Veteran is hired to 
perform services under the pilot program; and
    3) Veterans who have served on active duty in a theater of 
combat operations (with special consideration given to Veterans 
who have recovered or are recovering from a mental health 
condition).
    The Secretary shall provide training for Veterans hired 
under the pilot program and develop requirements and measures 
for assessing the impact and effectiveness of the services 
provided, including:
    1) Developing and disseminating an online survey;
    2) Developing and disseminating (not earlier than 18 months 
after the start of the pilot program) a follow-up online survey 
instrument to gather data, including data to assess engagement 
with peer support, experience-accessing services, and 
adjustment to higher education; and
    3) Tabulating the number of Veterans who meet on an 
individual basis with peers, the number of referrals the 
individual makes, and the outcome of the referrals.
    The pilot program would terminate 3 years after the date of 
commencement or the last day of the academic year that ends no 
more than 180 days after the date that is 3 years after the 
date of commencement.
    H.R. 3056 would require the Secretary to submit a report to 
the Committees on Veterans' Affairs of the Senate and the House 
of Representatives no later than months after completion of the 
pilot program. The report would include a description of the 
implementation and operation of the program and an evaluation 
of the effectiveness of the peer-outreach services provided 
under the program.
    VA does not support this legislation because we do not 
believe it is necessary. If enacted, it would create a pilot 
program similar to VA's VetSuccess on Campus (VSOC) program. 
The legislation also calls for VA to carry out the pilot 
program on only three campuses, thus limiting the population 
pool we would be reaching to effectively conduct outreach. The 
VSOC program aims to help Veterans, Servicemembers, and their 
qualified dependents succeed and thrive through a coordinated 
delivery of on-campus benefits assistance and counseling, 
leading to completion of their education and preparing them to 
enter the labor market in viable careers. The VSOC program 
provides a VA Vocational Rehabilitation Counselor (VRC) at each 
VSOC school, with requisite space for using information 
technology equipment and in a private setting to discuss 
matters specific to the individual's needs. In fiscal year 
2013, the VSOC program expanded to 62 campuses, bringing the 
total number of VSOC sites to 94.
    The proposed legislation would require VA to employ 
Veterans to provide peer outreach and peer support to certain 
Veterans. However, VSOC VRCs partner with Veterans Health 
Administration Vet Center Outreach Coordinators on many 
campuses, to provide peer-to-peer counseling and referral 
services. These individuals ensure Veterans receive the support 
and assistance necessary to pursue their educational and 
employment goals.
    VA estimates that, if H.R. 3056 was enacted, there would be 
no benefit costs. Administrative costs are estimated to be 
$211,000 in the first year, and $652,000 over 3 years. 
Information technology costs, which include information 
technology equipment for full time equivalents, installation, 
maintenance, and information technology support, are estimated 
to be $6,000 in the first year, and $18,000 over 3 years.

H.R. 4031

    H.R. 4031, the ``Department of Veterans Affairs Management 
Accountability Act of 2014,'' would amend chapter 7 of Title 
38, United States Code, by adding a new section 713 that would, 
notwithstanding any other provision of law, enable the 
Secretary of Veterans Affairs to remove any individual from the 
Senior Executive Service (SES) if the Secretary determines the 
performance of the individual warrants such removal. The 
Secretary could remove the individual from Federal service or 
transfer the individual to a General Schedule position at any 
grade he determines appropriate.
    The bill would require notice to the House and Senate 
Veterans' Affairs Committees within 30 days after removing an 
individual from the SES, and the reason for the removal. It 
provides that ``[a] removal under this section shall be done in 
the same manner as the removal of a professional staff member 
employed by a Member of Congress.'' VA opposes this 
legislation.
    The purpose and principles Congress provided in 5 United 
States Code Sec.  3131 to govern the SES include ensuring 
employment conditions that attract and retain highly-competent 
senior executives, protect them from arbitrary or capricious 
action and prohibited personnel practices, ensure compliance 
with the civil service rules, and secure protection from 
improper political interference.
    The SES is comprised of men and women charged with leading 
the Federal Government. The leadership provided by those 
serving in the SES is critical, as is the need for effective 
performance management for the SES, and indeed all Federal 
employees. VA is committed to continuing our dialog with the 
Committee about effective accountability and performance 
management throughout VA, including the SES within VA, but we 
believe this bill would generate serious unintended 
consequences that would prove counterproductive. Further, as 
detailed below, under current law, the Secretary already has 
tools to address the performance of SES managers who have not 
met acceptable standards.
    First, enactment of H.R. 4031 would have a chilling effect 
on VA's ability to recruit and retain high-quality leaders and 
managers, especially when VA is in competition with other 
Federal agencies for those leaders. Enactment of the bill would 
significantly diminish workplace protections for VA SES. This 
would jeopardize VA's ability to recruit senior managers from 
outside the Department as well as promising General Schedule 
employees that VA hopes to advance to SES leadership (a 
critical part of succession planning). We believe this change, 
if enacted, would diminish VA's ability to best serve Veterans, 
as well as be an effective steward for the U.S. taxpayer.
    Second, we believe employees who are removed would (and 
should) still retain due-process protections. Thus, actions 
taken by the Secretary under the authority provided by H.R. 
4031 could still lead to lengthy litigation, even if the intent 
of the legislation was to make removal from the SES a non-
appealable action.
    As noted above, the Secretary already has tools under 
current law and established regulations to address executive 
performance. SES statutes give agencies the authority to manage 
executives and remove individuals from the SES who perform 
unacceptably. A career executive can be removed if rated 
unsatisfactory after an appraisal period. The law requires 
certain procedural steps within the agency that promote 
deliberation and fairness but cannot restrict the agency head's 
final action. An executive removed for performance has no 
appeal right. To encourage high performers to join the SES, the 
statute provides fallback to a position of a level at which 
they formerly excelled, which preserves the agency's long-term 
investment in the employee. The Secretary also has the ability 
to effect a reduction in pay as a response to poor performance, 
as well as reflect that judgment in performance evaluations and 
performance awards. Secretary Shinseki has utilized all of 
these tools to address performance and accountability.
    We believe restriction of this bill to VA executives will 
not diminish the systemic threat it poses to the Government-
wide SES Corps. Should H.R. 4031 be enacted, it would set 
precedent for other agencies. This could be viewed as a 
fundamental abrogation of Federal commitments to senior 
executives and should not be done without thorough 
consideration of the implications for the SES Corps and 
executive management of Federal programs throughout the 
Government.
    While VA believes H.R. 4031, if enacted, could have broad 
negative effects on its ability to recruit and retain 
managerial talent, we cannot estimate with any specificity the 
budget impact of this measure.

H.R. 4037

    H.R. 4037, the ``Improving Veterans' Access to Vocational 
Rehabilitation and Employment Act of 2014,'' would make certain 
improvements relating to training and rehabilitation for 
Veterans with service-connected disabilities. Section 2 of H.R. 
4037 would add a new section 3123 to chapter 31 of Title 38, 
United States Code, for calculating the rate at which Veterans 
are determined to be rehabilitated to the point of 
employability during a fiscal year. Under this new section, the 
Secretary would be required to divide the number of Veterans 
who participated in a chapter 31 rehabilitation program and 
those determined to have been rehabilitated to the point of 
employability during a fiscal year by the sum of the number of 
Veterans who participated in a chapter 31 rehabilitation 
program during the fiscal year and the number of Veterans who 
were entitled to participate in a chapter 31 rehabilitation 
program during the fiscal year but did not complete the 
program.
    VA cannot support this section as drafted because the 
required calculation would not validly measure the Vocational 
Rehabilitation and Employment (VR&E) program outcomes. VA 
agrees that it is important to improve calculations to measure 
success, however, the required calculation would not accurately 
measure the percent of Veterans made employable and would only 
account for VA's success at preparing individuals for jobs, not 
VA's success at helping Veterans obtain jobs. VA is currently 
improving performance measures and is ready to work with the 
Committee to further refine its performance measures. No costs 
would be associated with this section.
    Section 3 of the draft bill would add a requirement to 
section 3104(b) of Title 38, United States Code, that any 
courses of education or training pursued by a Veteran as part 
of a chapter 31 rehabilitation program be approved for purposes 
of either chapter 30 or 33, unless this requirement is waived 
by the Secretary as deemed appropriate. This new section would 
apply with respect to a course of education or training pursued 
by a Veteran who begins a program of rehabilitation on or after 
the date that is 1 year after the date of enactment of this 
Act.
    VA supports the intent behind this section and is examining 
the need for a policy that would require the approval of the 
Director, VR&E Service, for Veterans participating in a chapter 
31 rehabilitation program to enroll in schools that are not 
approved for purposes of chapters 30 and 33. VA has the 
authority under section 3115 of Title 38, United States Code, 
to approve any course of training at any facility if VA 
determines that it will meet the unique rehabilitation needs of 
a Veteran participating in a chapter 31 rehabilitation program, 
and an approved course is not available for that Veteran. This 
flexibility is necessary to cover the special needs of chapter 
31 program participants in certain cases, such as when a 
Veteran requires specialized, non-college degree training, and 
an appropriate training facility is located near the Veteran's 
residence but has not been approved for purposes of chapters 30 
or 33 education benefits because it has not been in operation 
for 2 years. Maintaining the flexibility to approve such 
courses of training under section 3115 allows VA to provide 
individualized services based on a Veteran's unique personal 
needs. Before approving any course or training facility for a 
chapter 31 program, VA ensures it meets the requirements of 38 
Code of Federal Regulation Sec. Sec.  21.120 through 21.162 and 
21.290 through 21.299. No costs would be associated with this 
section.
    Section 4 of the draft bill would expand eligibility for 
specially adapted housing (SAH) to disabled Veterans who are 
eligible for a chapter 31 vocational rehabilitation program and 
are referred for assistance pursuant to section 2107 of Title 
38, United States Code. VA cannot support the section as 
written because it is not clear if Congress intends to 
establish a new category of eligibility for the smaller SAH 
grant, which would be provided in addition to chapter 31 
assistance, or if Congress intends to move the authority for 
the housing modification authorized under chapter 31 so that it 
is only administered as a type of SAH grant under chapter 21. 
If the latter, VA agrees that any significant modifications to 
adapt Veterans' homes are best managed by SAH personnel with 
extensive construction expertise and experience. Our VR&E 
counselors work collaboratively with SAH personnel to meet the 
adapted housing needs of chapter 31 Veterans. VA is ready to 
work with the Committee on drafting technical language that 
would ensure services are provided to Veterans in need of 
assistance. VA is unable to estimate costs for this section as 
additional clarification of this section is needed.
    Section 5 of the draft bill would add a new section 3104(c) 
to Title 38, United States Code, giving the Secretary authority 
to prioritize the provision of chapter 31 services based on 
need. The Secretary would be required to consider disability 
ratings, the severity of employment handicaps, qualification 
for a program of independent living, income, and other 
appropriate factors in evaluating need. Section 5 would also 
require the Secretary to submit to Congress a plan describing 
any changes with regard to prioritizing the provision of 
chapter 31 services not later than 90 days before making any 
changes.
    VA cannot support this section because VA does not believe 
legislation is needed to prioritize vocational rehabilitation 
services. VA currently has authority to provide vocational 
rehabilitation services based on the rehabilitation needs of 
individuals. In addition, under section 3120 of Title 38, 
United States Code, VA is required to provide independent 
living programs first to Veterans for whom the reasonable 
feasibility of achieving a vocational goal is precluded solely 
as a result of a service-connected disability. Furthermore, 
income is not a factor used to determine VR&E services to be 
provided to Veterans. No costs would be associated with this 
section.
    Section 6 of the draft bill would amend the definition of 
``serious employment handicap'' in section 3101(7) of Title 38, 
United States Code, to mean a significant impairment resulting 
from the service-connected disability that is directly related 
to the Veteran's ability to prepare for, obtain, or retain 
employment consistent with the Veteran's abilities, aptitudes, 
and interests. The current definition requires that the 
employment handicap results in substantial part from a service-
connected disability rated at least 10 percent disabling that 
significantly impairs the Veteran's ability to prepare for, 
obtain, or retain employment consistent with his/her abilities, 
aptitudes, and interests. A Veteran is currently entitled to 
chapter 31 services if the Veteran has a service-connected 
disability rated at 10 percent and is in need of rehabilitation 
because of a serious employment handicap as currently defined 
in section 3101(7). Under the legislation's new definition, for 
a Veteran to qualify for chapter 31 services based on a serious 
employment handicap, there must be a direct relation between 
the service-connected disability that causes the impairment and 
the Veteran's ability to prepare for, obtain, or retain 
employment. In contrast, under the current definition, the 
service-connected disability that causes the impairment need 
only be a ``substantial'' cause of the impairment for a Veteran 
to qualify for chapter 31 services based on a serious 
employment handicap.
    VA cannot support this section as written because its 
meaning is not clear. VA is unable to determine whether the 
change in the current definition of ``serious employment 
handicap'' would establish entitlement to chapter 31 services 
for more or fewer Veterans. VA would be pleased to provide 
technical assistance to draft bill language that would ensure 
qualified Veterans receive necessary services. VA is unable to 
estimate costs that may be associated with this section.

H.R. 4038

    H.R. 4038, the ``Veterans Benefits Administration 
Information Technology Improvement Act of 2014,'' would make 
certain improvements in information technology to help VBA 
reduce redundancy and process claims more efficiently. Section 
2 of H.R. 4038 would require the Secretary to ensure that all 
original and supplemental claims, for chapter 33 educational 
assistance, are adjudicated electronically, and that rules-
based processing is used to make decisions on such claims with 
little human intervention. Section 2 would also require the 
Secretary to ensure that payments of subsistence allowance for 
Veterans participating in a chapter 31 rehabilitation program 
are processed and paid out of one corporate information 
technology system, and that the information technology system 
supports more accurate accounting of services and outcomes for 
Veterans participating in a chapter 31 rehabilitation program. 
The Secretary would also be required to submit a report to 
Congress on any changes made in information technology pursuant 
to section 2, but not later than 180 days after the date of 
enactment of this Act.
    VA does not support this provision because VA needs the 
flexibility to prioritize information technology needs and 
resources based on the needs of the entire Department. VA has 
deployed 6 major releases for the Post-9/11 GI Bill Long-Term 
Solution (LTS), which provides an end-to-end claims processing 
system utilizing rules-based, industry-standard technologies 
for the delivery of education benefits. On September 24, 2012, 
end-to-end automation of select Post-9/11 GI Bill supplemental 
claims was activated in LTS. Since this deployment, over 4,600 
claims are automatically processed per day with no human 
intervention. Approximately 80 percent of all Post-9/11 GI Bill 
supplemental claims are fully or partially automated. While VA 
has rules and automation for processing Post-9/11 GI Bill 
supplemental claims, VA would have to develop these mechanisms 
for original claims. Eligibility determinations for original 
Post-9/11 GI Bill claims are very labor-intensive. Currently, 
LTS is in a sustainment phase with limited development. VA 
would need development funding to enhance LTS with 
functionality to process all original and supplemental claims 
to the maximum extent practicable, with little human 
intervention. Original claims currently are being processed in 
an average of 19 days. VA would need a minimum of 24 months 
from receipt of funding to report on the changes made under 
this provision.
    With respect to chapter 31, VA already has plans in place 
to ensure claims are processed and paid from one system and is 
actively planning for development of a new information 
technology case-management system for chapter 31 claims. VA is 
currently beta-testing a phased transition to one chapter 31 
payment system using the Corporate Subsistence Allowance Module 
(SAM). This phased approach enables VA to minimize the risks 
associated with payments to Veterans during the transition. As 
with any phased system change, there will be a transition 
period in which some processing is accomplished in one system 
and some in another. It is unclear whether this provision of 
H.R. 4038 would restrict VA from continuing a phased approach 
for this transition, potentially adversely affecting services 
to Veterans. If beta-testing of CWINRS SAM continues as 
expected, national deployment is expected to begin by November 
2014. VA is also validating the business requirements for a new 
information technology case-management system that will better 
reflect the business and data reporting needs of the chapter 31 
program.
    VA estimates that, if enacted, no benefits costs would be 
associated with H.R. 4038, however, VA estimates administrative 
costs to be $3 million, and information technology costs to be 
$30 million for section 2(a) and $15 million for section 2(b).

H.R. 4147

    H.R. 4147, the ``Student Veterans IT Upgrade Act,'' would 
require VA to submit to Congress a report regarding ``the 
information technology system of the Department of Veterans 
Affairs that is used in connection with the administration of 
[VA] educational benefits . . . '' The bill also references a 
plan ``with respect to such system that was submitted to 
Congress prior to the date of the report,'' but VA is unclear 
to which plan the bill refers.
    The bill uses the singular ``system,'' but VA has a number 
of different systems related to separate educational benefits, 
many with differing rules and requirements.
    H.R. 4147 also requires an annual briefing to be held by 
the Chief Information Officer and the Deputy Under Secretary 
for Economic Opportunity. We are unclear if this is in addition 
to annual reports.
    VA, thus, does not support the bill as drafted, but 
recommends we discuss with Committee staff the specific areas 
of interest. The Department will be glad to provide information 
on those areas of interest, once identified.

H.R. 4151

    H.R. 4151, the ``Veterans Education Survey Act of 2014,'' 
would require VA to work with a private contractor to 
administer a survey to individuals who have used or are using 
VA education benefits under chapters 30, 32, 33, and 35 of 
Title 38, United States Code. The survey would collect the 
following information:

        <bullet> Demographic information to include:
        <all> The highest level of education completed by the 
        individual;
        <all> The military occupational specialty or 
        specialties performed by the individual while they were 
        serving in the armed forces; and
        <all> Whether the individual has a service-connected 
        disability.
        <bullet> The individual's opinion of the Transition 
        Assistance Program (TAP), as well as the effectiveness 
        of TAP, including the instruction on how to use VA 
        education benefits.
        <bullet> The resources the individual used to support 
        the decision to go to school using his/her VA education 
        benefits.
        <bullet> The resources used to decide on the program of 
        study in which to enroll.
        <bullet> The individual's goal when he/she enrolled in 
        the program of education.
        <bullet> The nature of the individual's experience 
        using VA's education benefits computer-processing 
        systems.
        <bullet> The nature of the individual's experience 
        working with the certifying official at his/her school.
        <bullet> Services or benefits provided by the school to 
        the Veteran.
        <bullet> Type of educational institution the individual 
        attended.
        <bullet> Whether the individual completed his/her 
        program of study, how many credit hours he/she 
        completed, and any degrees or certificates he/she 
        obtained.
        <bullet> The employment status of the individual and 
        whether his/her employment status was different prior 
        to starting the program of study.
        <bullet> Whether the individual was enrolled on a full-
        time or part-time basis.
        <bullet> The individual's opinion on the effectiveness 
        of VA's benefits program he/she used to complete the 
        program of study.
        <bullet> Whether the individual was ever entitled to or 
        used a rehabilitation program under chapter 31.
        <bullet> Any other matters VA determines appropriate.

    The survey would be conducted electronically and by any 
other means the contracting agency deems appropriate.
    H.R. 4151 would require VA to enter into a contract not 
later than 180 days after enactment of this Act, and the survey 
would be completed 180 days after VA enters into the contract. 
The survey would be submitted to the Senate and House 
Committees on Veterans' Affairs not later than 1 month before 
the survey is administered. VA would submit a report to 
Congress not later than 90 days after completion of the survey, 
as well as any recommendations related to the results of the 
survey. VA would also submit an unedited version of the results 
of the survey.
    While VA supports the intent behind this legislation, the 
Benefits Assistance Service (BAS) is currently administering a 
similar survey with the help of a private contractor, J.D. 
Power and Associates. BAS expects to receive fiscal year to 
date results from the survey by September 30, 2014. The current 
survey collects much of the information required by this bill, 
although the survey would need to be modified to include 
questions about military occupational specialty; whether the 
Veteran has a service-connected disability; the effectiveness 
of TAP; the Veteran's experience with the school certifying 
official; the effectiveness of the Veteran's program of study; 
the Veteran's experience with VA's computer systems; and 
whether the Veteran has eligibility under VA's chapter 31 
vocational rehabilitation program.
    To prevent duplication of work, VA would investigate the 
feasibility of combining the requirements in H.R. 4151 with 
VA's current survey within available resources and would work 
with the Office of Management and Budget to change the survey 
in accordance with the Paperwork Reduction Act as appropriate. 
VA would save expenditures by using the currently existing 
survey, as opposed to starting the process from the beginning. 
VA expects to receive fiscal year to date results from the 
current survey by September 30, 2014. VA would need 1 year from 
the date of enactment to complete the required survey.
    VA estimates that, should H.R. 4151 be enacted, General 
Operating Expenses (GOE) would be $263,000 to enter into a 
contract with a non-Government entity to create a new survey of 
a statistically-valid sample of individuals who have used or 
are using educational assistance under chapters 30, 32, 33, and 
35 of Title 38, United States Code. Alternatively, to 
incorporate the additional questions into the existing survey, 
GOE are estimated to be $106,000.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you today. I would be pleased 
to respond to questions you or other Members of the 
Subcommittee may have regarding our views as presented.


                    Prepared Statement of Keith Kelly

Introduction

    Good afternoon, Chairman Flores, Ranking Member Takano, and 
distinguished Members of the Subcommittee. As the Assistant 
Secretary for Veterans' Employment and Training Service (VETS) 
at the Department of Labor (DOL or Department), I am honored to 
testify before you. I am accompanied today by the Department's 
Chief Evaluation Officer, Demetra Nightingale.
    Thank you for the opportunity to provide the Department's 
views on pending legislation and for your continuing support of 
our Nation's veterans, transitioning service members, and their 
families. The Department will continue to work with the Members 
of the Committee to ensure that the men and women who serve 
this country have the employment support, assistance, and 
opportunities they need and deserve to succeed in the civilian 
workforce.
    While this hearing is focused on numerous bills pending 
before the Subcommittee, I will limit my remarks to those 
pieces of legislation that have a direct impact on DOL, 
including: H.R. 3614, the Military Skills to Careers Act; and 
H.R. 4150, the Veterans Employment and Training Service 
Longitudinal Study Act of 2014. DOL respectfully defers to the 
Department of Veterans Affairs (VA) on the remaining pieces of 
legislation.

H.R. 3614--The Military Skills to Careers Act

    The first piece of legislation that I will address is H.R. 
3614, the Military Skills to Careers Act. H.R. 3614 would 
require that a State establish a program under which the State 
administers an examination and issues a license or credential 
to a veteran, without requiring any training or apprenticeship, 
if the veteran: (1) Receives a satisfactory score on the 
relevant State examination; (2) has been awarded a military 
occupational specialty that is substantially equivalent to, or 
exceeds, the State requirements; (3) has engaged in the 
occupation for at least two of the five preceding years; and 
(4) pays any fees required by the State. H.R. 3614 would 
require the State to establish such a program as a condition of 
a contract or grant from DOL to hire and support Disabled 
Veterans' Outreach Program (DVOP) Specialists or Local 
Veterans' Employment Representatives (LVERs).
    Each State would be required to submit a description of the 
results of the exams administered to the Secretary of Labor 
(Secretary), who would summarize those results in a report to 
Congress and the Secretary of Defense at least once a year. 
H.R. 3614 would also allow the Secretary to waive the 
requirement to establish such a program if the State certifies 
that, in issuing licenses or credentials, the State: (1) Takes 
into account previous military training; (2) permits veterans 
to completely satisfy, through examination, any training or 
testing requirements for which a veteran has previously 
completed military training; and (3) for any credential or 
license for which a veteran is unable to completely satisfy 
such requirements through examination, substantially reduces 
the required training time based on the military training 
received by the veteran.
    The Department supports the intent of H.R. 3614 and looks 
forward to working with Members of Congress to ensure that 
separating service members and veterans are able to 
successfully translate their military training and experience 
to civilian occupations. DOL also supports efforts to encourage 
States to apply consistent measures when awarding credit for 
military training and experience towards certain occupational 
licensing requirements. Greater uniformity will help enable a 
comparison of military training and experience to nationwide 
requirements for licensure.
    However, withholding funding that supports DVOP and LVER 
staff is not the right approach to achieve this goal. That 
approach could have the unintended consequence of penalizing 
veterans and States who rely on these critical personnel to 
help them attain employment. A better and more practical 
approach would be to provide assistance to States that are 
working hard to make progress in streamlining licensing and 
credentialing processes for veterans and disseminate best 
practices to other States. At the same time, States should 
continue to be funded by DOL to employ veteran-employment 
specialists to provide services to veterans and conduct 
outreach to employers to encourage the hiring of veterans.
    In addition, the Department is concerned that, by including 
all licenses and credentials issued by a State, H.R. 3614, as 
currently drafted, is overly broad. Some States issue hundreds 
of different licenses and credentials. For instance, Illinois 
has close to 400 different occupational licenses and California 
has 350 occupational licenses. In fact, more than half of the 
States, thirty-four of them, have over 100 different 
occupational licenses. As a result, the administrative burdens 
could be significant. Moreover, State licensing boards use a 
variety of mechanisms and methods that are specific to each 
industry and State in establishing licensing criteria. As a 
result, DOL recommends that the legislation authorize DOL to 
provide Technical Assistance to assist the States and to 
establish any necessary reporting systems.
    The majority of States have adopted legislation aimed at 
supporting service members who seek to qualify for licenses and 
credentials based on their military education, training, and 
experience. There are a variety of different legislative and 
regulatory approaches that have been adopted and proved 
successful in different States. The Administration will 
continue to work with States to develop and implement solutions 
that work at the State and Federal level to assist veterans.
    The Department, in collaboration with the Department of 
Defense, has been working with States to help improve their 
licensing and certification practices. Two such projects are 
currently under way: one to analyze and compare transferable 
skills from military training to civilian credentials for a set 
of key military occupations; and a second to provide 
information and technical support to selected States to award 
credit for military training and experience toward State 
occupational licensing requirements. The latter demonstration 
project provides assistance to efforts in 6 States to 
facilitate and accelerate licensing of veterans for selected 
occupations (EMT/Paramedic; Licensed Practical Nurse; Physical 
Therapy Assistant; Registered Nurse; Police Patrol Officer; and 
Commercial Bus and Truck Drivers).
    We note that the Department of Transportation (DOT) has 
worked with the States to obtain a waiver of the road test for 
veterans, to facilitate the process of obtaining Commercial 
Driver's Licenses. DOT also has responsibilities for Emergency 
Medical Service occupations although other health occupations 
would be relevant to the Department of Health and Human 
Services. Results and promising practices will be disseminated 
to assist the efforts of other States. We look forward to 
sharing the results of the Department of Labor efforts with the 
Committee as they become available.

H.R. 4150--The Veterans Employment and Training Service 
Longitudinal Study Act

    H.R. 4150, the Veterans Employment and Training Service 
Longitudinal Study Act of 2014, would direct the Secretary to 
enter into a contract with a non-government entity to conduct a 
statistically valid longitudinal study of veterans and the job 
counseling, training, and placement services for veterans 
provided by the Department. In addition, H.R. 4150 would give 
the Secretary access to the National Directory of New Hires 
information.
    I'll first note the provision that would make the National 
Directory of New Hires available to the Secretary. At this 
time, DOL does not have authority to readily access earnings 
data nationally, and for that reason, we strongly support the 
provision. Without such authority, the process of obtaining 
earnings data involves timely and costly negotiation with 
States and significant delays in studies often occur. The 
Department looks forward to working with the Committee to 
provide technical assistance. In particular, the Department 
recommends that the legislation amend Section 453(j) of the 
Social Security Act to provide DOL the same authority to access 
the NDNH that other Federal agencies currently have.
    The Department also looks forward to conducting the type of 
longitudinal study called for in the legislation. The 
Department welcomes the opportunity to have a survey to better 
understand the impact of our services on the employment 
outcomes of veterans. We look forward to working with the 
Committee to ensure that the legislation, and the resulting 
study, is appropriately crafted.
    The Bill calls for a survey of the following groups: (1) 
Veterans who received intensive services through the 
Department's programs; (2) veterans who received services but 
did not get an intensive service; and (3) veterans who did not 
seek or receive services from the Department's programs. The 
study could be done by either following the same cohorts of 
individuals within each group over five years or conducting a 
survey sample of these three groups of veterans each year. 
Under both approaches, the Department recommends a mixed-method 
study that uses a combination of administrative data and 
surveys.
    Based on DOL's conversations with Congressional staff, we 
understand that the intent of this legislation is to create a 
longitudinal study of the same veterans in each of these three 
groups over five years. Therefore, a survey would be the 
primary source of information. A nationally representative 
sample of individuals in the three groups would be surveyed 
each year over the course of the study, starting in year two. 
This type of study would assess the short-, medium-, and long-
term outcomes of veterans, based on their responses to 
questions about whether they had received these services at 
specific times and would follow up on their employment, 
educational activities, income, and other meaningful measures 
of well-being.
    The survey would also ask veterans their opinions about the 
services they sought or received. A complementary statistical 
analysis of program administrative data could be done to 
analyze the characteristics of veterans served in the programs 
and their outcomes, although it may not be possible to directly 
link the program data to the longitudinal survey. The 
Department would provide yearly reports to Congress on the 
outcomes of the three cohorts of individuals in the survey 
beginning after the first year during which the survey will be 
developed and tested.
    Another approach would be to create a cross-sectional study 
that looks at a representative sample of veterans each year for 
each of the three groups. This type of study would require a 
slightly different mixed-method approach. The characteristics 
and outcomes of veterans would come from program administrative 
data and a survey would be conducted periodically, say every 
two years, of samples of veterans in each of the groups. Again, 
the survey would include questions about the veteran's use of 
services and their opinions of the usefulness of the services 
they received. In this type of study, it may be possible to 
link administrative program earnings data to the survey data 
for a richer analysis. We would deliver results to Congress 
each year, based on the data-collection schedule.
    Either approach to the survey has challenges that could 
affect the timeline for reports to Congress. The Department 
would need to determine whether it can obtain reliable contact 
information to draw a representative sample from each group in 
a timely manner, and whether the sample should select from the 
entire nation or from selected States. Access to the National 
Directory of New Hires and cooperation from States and partner 
agencies with necessary information will be essential.
    The estimated cost of the study is $10 million. This cost 
includes a longitudinal study of outcomes across the above 
dimensions for five years as well as three surveys of the same 
12,000 veterans, 4,000 in each group, over the course of the 
study. The cost also includes the production of yearly reports 
to Congress, as well as a larger report that includes the 
results of the survey.
    The Department believes that this type of study could be a 
tremendous opportunity to learn about the impact of the 
Department's services for veterans. By studying the three 
groups of veterans over time, the Department could obtain more 
complete data on the long-term outcomes of veterans who receive 
services from the Department and the key factors influencing 
those outcomes. In addition, the study would allow the 
Department to examine trends in program satisfaction and the 
long term employment and standard of living outcomes. The 
results would allow the Department to better tailor services to 
services to assist veterans with their immediate and long-term 
employment needs.

Conclusion

    Mr. Chairman, Ranking Member Takano, and Members of the 
Subcommittee, this concludes my Statement. Thank you again for 
the opportunity to testify today on these Bills. I am pleased 
to answer any questions you may have.

                  Prepared Statement of Steve Gonzalez

    Chairman Flores, Ranking Member Takano and distinguished 
Members of the Subcommittee, on behalf of National Commander 
Dan Dellinger and the 2.4 million members of The American 
Legion, we thank you and your colleagues for the work you do in 
support of our service members and veterans as well as their 
families. The hard work of this Subcommittee in creating 
significant legislation has left a positive impact on our 
military and veterans' community.

H.R. 2942

    To amend Title 38, United States Code, to reestablish the 
Professional Certification and Licensure Advisory Committee of 
the Department of Veterans Affairs.
    For the past fifteen years, The American Legion has been 
working with both Federal and State lawmakers, as well as 
industry leaders, to streamline the military-to-civilian 
licensing and certification process. Our research has shown 
that licensing and certification (credentialing) requirements 
for civilian employment pose a barrier to a smooth transition 
from military service to civilian employment.
    At our 2012 National Convention, The American Legion passed 
Resolution No. 326: Support Licensure and Certification of 
Active-Duty and Selected Reserve Personnel,\1\ which mandates 
support for efforts to eliminate employment barriers that 
impede the timely and successful transfer of military job 
skills to the civilian labor market. Enactment of legislation 
to reestablish the Professional Certification and Licensure 
Advisory Committee (PCLAC) will benefit service members, as 
well as those who eventually employ veterans in the civilian 
work-force easing the placement of qualified veterans in 
civilian careers, and matching civilian employers with skilled 
veteran employees. The Department of Veteran Affairs (VA) 
currently lacks subject matter experts that can provide 
knowledgeable recommendations to improve VA's licensing and 
certification, improve the quality of State Approving Agency 
(SAA) approval process, review applications used by the SAA's, 
and develop and update material on licensing and certification 
for use in training SAA staff.
---------------------------------------------------------------------------
    \1\ The American Legion, ``Resolution No. 326: Support Licensure 
and Certification of Active-Duty and Reserve Personnel'', Ninety-Fourth 
National Convention of The American Legion, Indianapolis, Indiana, 
August 28 - 30, 2012, http://archive.legion.org/bitstream/handle/
123456789/2195/2012N326.pdf?sequence=1 (accessed March 10, 2014).
---------------------------------------------------------------------------
    Therefore, The American Legion believes that it is 
extremely important that the PCLAC be reauthorized. It will 
bring in those subject matter experts to assist VA where they 
lack expertise in assessing certification and licensing 
programs, as well as assisting in the development of new 
material to support SAA's in the field.
    Legislative gains in veteran licensing and credentialing 
have been made with the passage the Legion-supported Veteran 
Skills to Jobs Act. However, its more work to be done, and as 
such, The American Legion believes there is a definite need to 
resume this independent body with expertise in matters relating 
to licensing and credentialing which can present new solutions 
to VA's senior leadership and congressional members as well as 
other stakeholders.
    The American Legion strongly supports H.R. 2942.

H.R. 3056: Warriors' Peer-Outreach Pilot Program Act

    To direct the Secretary of Veterans Affairs to carry out a 
pilot program on the provision of outreach and support services 
to veterans pursuing higher education under the Post-9/11 
Educational Assistance Program of the Department of Veterans 
Affairs.
    The American Legion applauds Representative Takano and his 
colleagues for their work in support of America's service 
members, veterans, and their families, and for introducing this 
legislation. However, The American Legion has several concerns 
with H.R. 3056, Warriors' Peer-Outreach Pilot Program Act: (1) 
The commissioning of the pilot on only three college campuses; 
(2) the possibility of funding being diverted from existing 
programs, such as VetSuccess on Campus (VSOC), that are already 
providing such services; (3) the possibility of redundancy.
    The American Legion believes strongly in the power of peer-
to-peer support, and has called for the development of peer-to-
peer rehabilitation programs, in Resolution No. 136, passed at 
the 2012 National Convention. Similarly, The American Legion 
recognizes the impact that peer-to-peer support has had on 
currently attending service member and veteran students 
throughout all levels and types of institutions of higher 
learning (IHL). This impact has been evident through the 
creation of American Legion posts on college campuses \2\ 
across spectrum of IHL. The American Legion has collaborated 
closely with our partners in the VSO community and Department 
of Veterans Affairs on the state and local levels in an effort 
to bring peer-to-peer support to currently enrolled students.
---------------------------------------------------------------------------
    \2\  List of American Legion Posts on college campus: University 
Veterans Post 360, Indiana University-Purdue University Indianapolis 
(IUPUI), Indiana; NDSU Post 400, North Dakota State University in 
Fargo, North Dakota; Florida Post 397, Hodges University, Florida; 
Lance Corporal Andrew ``Andy'' Nowacki Post 807, Lake Erie College, 
Ohio; Colorado State University-Pueblo American Legion Post, CSU-
Pueblo, Colorado; Saddleback Valley American Legion Post 862, 
Saddleback College, California; and UND Post 401, University of North 
Dakota, North Dakota).
---------------------------------------------------------------------------
    The Department of Veterans Affairs has commissioned VSOC to 
provide a cross-cutting system designed to serve student 
veterans attending college or university. One of VSOC mandates 
is to provide ``peer-to-peer counseling'' \3\ to those 
servicemembers and veterans currently enrolled in college. VOSC 
began as a pilot program in 2009 at the University of South 
Florida, and by fiscal year 2013, had expanded to a total of 94 
sites. \4\ The American Legion through Resolution No. 27: 
Veterans GI Bill Education Improvement \5\ believes that 
Congress should look to existing programs like VSOC, in order 
to ensure that we maximize this success and improve what has 
already been accomplished through VSOC, rather than creating 
new pilot programs that can have an adverse impact on the 
success of such VA existing programs.
---------------------------------------------------------------------------
    \3\ United States Department of Veterans Affairs, ``Welcome to 
VetSuccess.VA.GOV'', https://www.vetsuccess.va.gov/public/vetsuccess-
on-campus.html (access March 16).
    \4\ Ibid. For a complete list of VSOC locations and VSOC Counselor 
contact information can be found at the following link: VetSuccess on 
Campus Locations and Contacts.
    \5\ The American Legion, ``Resolution No. 27: Veterans GI Bill 
Education'', Ninety-Fourth National Convention of The American Legion, 
National Executive Committee of The American Legion, Indianapolis, 
Indiana, October 16 - 17, 2013, http://archive.legion.org/bitstream/
handle/123456789/2760/2013F027.pdf?sequence=1 (accessed March 15, 
2014).
---------------------------------------------------------------------------
    To properly reflect the diverse experiences of veterans in 
higher education and to produce a quality report on the success 
of peer support in higher education, The American Legion 
recommends examining and assessing VSOC's existing peer-to-peer 
services, and IHLs that already have a successful peer support 
program. This will give policymakers the opportunity to assess 
the existing programs' barriers and to formulate solutions.
    The American Legion looks forward to working with Rep. 
Takano and the subcommittee to improve peer-to-peer programs 
through existing initiatives.
    The American Legion does not support H.R. 3056 in its 
current form.

H.R. 3614: Military Skills to Careers Act

    To amend Title 38, United States Code, to improve the 
recognition by States of skills learned in the military by a 
veteran when issuing licenses and credentials.
    The American Legion's Resolution No. 52: Support 
Legislation that Would Return Disabled Veterans' Outreach 
Program (DVOP) and Local Veterans' Employment Representative 
(LVER) Funding to a Staffing Grant holds that we ``support 
action that would require the Congress through the Secretary of 
Labor to ensure that each workforce center in the various 
states offering labor exchange services have sufficient funding 
to provide at least one DVOP/LVER staff to provide services to 
all veterans requiring employment and training assistance 
residing within the state''. \6\ As such, The American Legion 
cannot support any legislation which would withhold funding to 
these programs, even as a penalty.
---------------------------------------------------------------------------
    \6\ The American Legion, ``Resolution No. 52: Support Legislation 
that Would Return Disabled Veterans' Outreach Program (DVOP) and Local 
Veterans' Employment Representative (LVER) Funding to a Staffing 
Grant'', Ninety-Fourth National Convention of The American Legion, 
National Executive Committee of The American Legion, Indianapolis, 
Indiana, October 16-17, 2013, http://archive.legion.org/bitstream/
handle/123456789/2213/2012N052.pdf?sequence=1 (accessed March 15, 
2014).
---------------------------------------------------------------------------
    The American Legion does not support H.R. 3614 as written.
    H.R. 4031: Department of Veterans Affairs Management 
Accountability Act of 2014
    To amend Title 38, United States Code, to provide for the 
removal of Senior Executive Service employees of the Department 
of Veterans Affairs for performance, and for other purposes.
    The past several years have seen a growing number of 
instances of troubled management within VA facilities, with 
little visible administrative action taken by VA Central Office 
(VACO) to address those responsible for the actions in 
question. Whether the incidents were ``negligence and 
mismanagement by Mental Health Service Line (MHSL) leadership 
[that] contributed to the death of a Mental Health (MH) unit 
inpatient at the Atlanta VA Medical Center'',\7\ or the more 
widely publicized incident in the Pittsburgh, PA VA Medical 
System where VA officials knew ``for more than a year it had an 
outbreak of Legionnaires' disease, but failed to warn 
patients'',\8\ the response, or lack of transparent response 
has been consistent. The claims side of the picture is no 
better, with service center managers at VA receiving large 
bonuses and accolades despite presiding over Regional Offices 
that have seen backlog figures soar to double or more the 
previous figures, even in the midst of a concerted effort by VA 
to finally tame and eliminate the backlog. When leadership in 
these positions fails, there are little to no consequences 
apparent to outside observers. Veterans need to have confidence 
that the system will correct itself and weed out those outliers 
contributing to a lack of confidence in the VA, an institution 
ostensibly created to serve veterans. This legislation gives 
the Secretary the authority needed to effectively run the 
Department.
---------------------------------------------------------------------------
    \7\ Department of Veterans Affairs Office of the Inspector General 
Report No. 12-03869-179 ``Healthcare Inspection: Mismanagement of 
Inpatient Mental Health Care Atlanta VA Medical Center Decatur, GA-APR 
2013.
    \8\ http://www.cbsnews.com/news/va-hospital-knew-human-error-
caused-legionnaires-outbrea/k
---------------------------------------------------------------------------
    The American Legion is deeply concerned with the lack of 
accountability within the VA. This legislation would provide 
tools to the Secretary of Veterans Affairs to better manage 
Senior Executive Service employees, and hold them accountable 
when they fail to perform their duties in a manner that better 
serves the veterans entrusted to their care.
    When veterans see a Regional Office losing ground and wait 
times increasing in the fight to reduce the claims backlog, 
they grow frustrated when leadership continues as if nothing 
was wrong. When veterans see mismanagement practices in their 
healthcare system that put patient health at risk, veterans 
want to see leadership change to show a commitment from the top 
down that says their health and safety are the top priority of 
VA. This bill gives the Secretary of Veterans Affairs the tools 
he needs to help convey that message back to veterans and help 
ensure veterans have faith and trust in the systems designed to 
provide health care to them and to care for their wounds of 
war.
    The American Legion supports H.R. 4031.

H.R. 4037: Improving Veterans' Access to Vocational 
Rehabilitation and Employment Act of 2014

    To amend Title 38, United States Code, to make certain 
improvements in the law administered by the Secretary of 
Veterans Affairs relating to training and rehabilitation for 
veterans with service-connected disabilities, and for other 
purposes.
    At this time, The American Legion does not have an official 
position regarding H.R. 4037. The American Legion's goal is to 
ensure that veterans who incur an injury, illness or disability 
during military service can properly receive quality assistance 
in obtaining suitable employment once they leave the Armed 
Forces. Therefore, as a general Legion policy, any legislation 
passed that modifies the current rules for eligibility or 
priority in a federal veteran program, should also ensure that 
successful comparable programs are available to those veterans 
who find themselves no longer eligible.
    The American Legion does not have a resolution or position 
on H.R. 4037.

H.R. 4038: Veterans Benefits Administration Information 
Technology Act of 2014

    To direct the Secretary of Veterans Affairs to make certain 
improvements in the information technology of the Veterans 
Benefits Administration of the Department of Veterans Affairs 
to process claims more efficiently, and for other purposes.
    Currently, veterans apply for enrollment in the U.S. 
Department of Veterans Affairs (VA), Vocational Rehabilitation 
and Employment (VR&E) through a combination of manual processes 
and IT systems. It is true that the VA's handling of education 
benefits claims seems to be generally successful, with $27 
billion in benefits already provided nationally since 2009 to 
about 938,000 veterans, service members, and their families.
    However, The American Legion believes that in order to 
ensure the continued success of the delivery of education 
benefits, and accurately track the outcomes of VA's VR&E 
program, VA will need to maximize the usage of paperless IT 
systems, and be proactive in this area to prevent any kind of 
backlog such as has been seen with disability claims.
    The American Legion supports the passage of H.R. 4038.

H.R. 4147: Student Veterans IT Upgrade Act

    To direct the Chief Information Officer of the Department 
of Veterans Affairs and the Deputy Under Secretary of Veterans 
Affairs for Economic Opportunity to submit to the Committees on 
Veterans' Affairs of the Senate and House of Representatives a 
report regarding the information technology of the Department 
that is used in administering the educational benefits 
administered by the Secretary of Veterans Affairs, and for 
other purposes.
    The Veterans Benefits Administration (VBA), one of U.S. 
Department of Veterans Affairs (VA) three line administrations, 
\9\ provides assistance and benefits, such as educational 
assistance, through four veterans' regional processing offices. 
\10\ According to a U.S. Department of Veterans Affairs 
Education Program Beneficiaries report released January 10, 
2014, \11\ twenty-three states account for 80% of VBA 
beneficiaries' workload with a 42% increase in VBA 
beneficiaries' workload from 2009 to 2010 due in part to the 
Post-9/11 GI Bill program being fully implemented.
---------------------------------------------------------------------------
    \9\ VA's two other line administrations are the Veterans Health 
Administration and the National Cemetery Administration.
    \10\ The regional processing offices are located in Atlanta, 
Georgia; Buffalo, New York; Muskogee, Oklahoma; and St. Louis, 
Missouri.
    \11\  National Center for Veterans Analysis and Statistics, 
``Education Program Beneficiaries'', U.S. Department of Veterans 
Affairs, January 2014, http://www.va.gov/VETDATA/docs/QuickFacts/
Education-Beneficiaries.pdf (accessed March 18, 2014).
---------------------------------------------------------------------------
    Prior to the passage of the Post-9/11 Veterans Educational 
Assistance Act of 2008, better known as the Post-9/11 GI Bill, 
VA delivered education benefits by relying on a combination of 
manual processes and legacy IT systems. However, the department 
also determined at that time that its legacy systems were 
insufficient to support the demands for processing the new 
benefit. This report will allow policymakers to assess the 
status of the system, the plan of the system, the plan of 
action with regard to the finalization of the system, and the 
anticipated cost. Under The American Legion's Resolution No. 
27: Veterans GI Bill Education, \12\ we support the passage of 
H.R. 4147.
---------------------------------------------------------------------------
    \12\ The American Legion through ``Resolution No. 27: Veterans GI 
Bill Education Ninety-Fourth National Convention of The American 
Legion, National Executive Committee of The American Legion, 
Indianapolis, Indiana, October 16-17, 2013, http://archive.legion.org/
bitstream/handle/123456789/2760/2013F027.pdf?sequence=1 (accessed March 
15, 2014).
---------------------------------------------------------------------------
    The American Legion supports the passage of H.R. 4147.

H.R. 4150: Veterans Employment and Training Service 
Longitudinal Study Act of 2014

    To amend Title 38, United States Code, to direct the 
Secretary of Labor to enter into a contract for the conduct of 
a longitudinal study of the job counseling, training, and 
placement services for veterans provided by the Secretary, and 
for other purposes.
    The American Legion through Resolution No. 304: Support 
Full Funding and Staffing for the Veterans Employment and 
Training Services (VETS) \13\ has long championed full funding 
and staffing for the Department of Labor's Veterans Employment 
and Training (VETS) program, and believes that collecting data 
and resetting performance metrics is integral to the wise 
stewardship of a program.
---------------------------------------------------------------------------
    \13\ The American Legion, ``Resolution No. 304: Support Full 
Funding and Staffing for the Veterans Employment and Training Services 
(VETS)'', Ninety-Fourth National Convention of The American Legion, 
Indianapolis, Indiana, August 28-30, 2012, http://archive.legion.org/
bitstream/handle/123456789/2171/2012N304.pdf?sequence=1 (accessed March 
10, 2014).
---------------------------------------------------------------------------
    According to a Government Accountability Office (GAO) 
report entitled, ``Veterans' Employment and Training, Better 
Targeting, Coordinating, and Reporting Needed to Enhance 
Program Effectiveness'', it is estimated that the Federal 
government spends around $1.2 billion on 6 veterans' employment 
and training programs, two of which are Disabled Veterans' 
Outreach Program (DVOP) and Local Veterans' Employment 
Representatives (LVER), which serve about 888,000 
participants.\14\ The Department of Labor (DOL) has yet to 
conduct impact evaluations that assess their program 
effectiveness to determine whether outcomes are attributable to 
program participation of veterans and not other factors. As a 
result, Congress and other key stakeholders lack essential 
information needed to assess each program performance.
---------------------------------------------------------------------------
    \14\ United States Government Accountability Office (GAO), 
``Veterans' Employment and Training, Better Targeting, Coordinating, 
and Reporting Needed to Enhance Program Effectiveness'', December 2012, 
http://www.gao.gov/assets/660/650876.pdf (accessed March 16, 2014).
---------------------------------------------------------------------------
    Crucial to properly administering the DVOP and LVER 
employment services is collection and analysis of past 
performance data in order to gauge the effectiveness of 
federally-funded programs and services which the states 
administer. DOL's inability to gauge the results and 
effectiveness of their own programs, as well as their 
inadequate oversight of performance measure at the state level, 
is cause for concern of accountability.
    The American Legion enjoys the unique benefit of having a 
large contingent of members who are DVOPs and LVERs and who sit 
on various commissions and councils which advise The American 
Legion with regard to policy. Based on testimony supplied by 
these members, The American Legion believes a longitudinal 
study conducted by a third party would help to identify lapses 
in program stewardship and will allow DOL-VETS to make 
improvements to existing programs and services. The American 
Legion supports the `Veterans Employment and Training Service 
Longitudinal Study Act of 2014.'
    The American Legion supports H.R. 4150.

H.R. 4151: Veterans Education Survey Act of 2014

    To direct the Secretary of Veterans Affairs to enter into a 
contract with a non-government entity to conduct a survey of 
individuals who have used or are using their entitlement to 
educational assistance under the educational assistance 
programs administered by the Secretary of Veterans Affairs, and 
for other purposes.
    In 2012, the Department of Veterans Affairs has dispersed 
nearly $11 billion of VA education benefits to almost 1 million 
veterans.\15\ Since the 2009 implementation of the Post-9/11 GI 
Bill, education benefits have significantly increased for 
service members, veterans, and their families. The Post-9/11 GI 
Bill provides payments for tuition and fees at accredited 
institutions of higher learning (IHL), as well as disbursing a 
separate payment for housing expenses and a stipend for books. 
The VA's education and training benefits are intended to 
provide resources which afford opportunities to veterans which 
they may have missed due to his or her military service, and to 
ease transition from military service to the civilian 
workforce.
---------------------------------------------------------------------------
    \15\ United States Government Accountability Office (GAO), ``VA 
Education Benefits: Student Characteristics and Outcomes Vary across 
Schools'', July 25, 2013, http://www.gao.gov/products/gao-13-567 
(accessed March 17, 2014).
---------------------------------------------------------------------------
    Despite this huge expenditure of funds, the VA has yet to 
conduct an impact survey and/or study to evaluate the 
experiences of those individuals using the GI Bill benefit, in 
order to evaluate how such a robust benefit has impacted the 
lives of veterans who are transitioning from the military to 
civilian life. Such an assessment would ascertain the return-
on-investment for policymakers, advocates, and taxpayers. The 
American Legion, as author of the Serviceman's Readjustment Act 
of 1944, known as the GI Bill, continues to take a great 
interest in veteran education benefits, and as such, supports 
H.R. 4151 through Resolution No. 27: Veterans GI Bill Education 
\16\ as sound legislation which will help to ensure that we are 
able to examine the extent to which this benefit provides 
effective transitioning tools to service members and veterans.
---------------------------------------------------------------------------
    \16\ The American Legion, ``Resolution No. 27: Veterans GI Bill 
Education'', Ninety-Fourth National Convention of The American Legion, 
National Executive Committee of The American Legion, Indianapolis, 
Indiana, October 16 - 17, 2013, http://archive.legion.org/bitstream/
handle/123456789/2760/2013F027.pdf?sequence=1 (accessed March 15, 
2014).
---------------------------------------------------------------------------
    The American Legion supports H.R. 4151.
    The American Legion appreciates the opportunity to comment 
on the Bills being considered by the Subcommittee. I would be 
happy to answer any questions you might have. Thank you.

                 Prepared Statement of Peter B. Hegseth

    Chairman Flores, Ranking Member Takano, and Members of the 
Committee, thank you for the opportunity to be here today. It's 
a privilege to take part in these proceedings.
    My name is Pete Hegseth and I am the Chief Executive 
Officer for Concerned Veterans for America, an organization of 
veterans and military families dedicated to fighting for the 
freedom and prosperity here at home that we fought for while in 
uniform. Our organization represents a growing number of 
veterans, military families, and concerned Americans--young and 
old--who refuse to accept the status quo in Washington, 
especially as it pertains to our veterans, our military, and 
our country's fiscal future.
    I received my commission from Princeton University in 2003, 
and have served three tours with the U.S. Army since 9/11; 
first at Guantanamo Bay, Cuba, second in Iraq, and most 
recently in Afghanistan. I'm currently an infantry Captain in 
the Minnesota Army National Guard, and recently graduated with 
a Masters in Public Policy from Harvard University's John F. 
Kennedy School of Government. I'm before this committee today 
as a veterans advocate, and certainly do not purport to speak 
on behalf of the military.
    I am speaking, however, on behalf of the membership of 
Concerned Veterans for America--and every veteran, and their 
supportive families, who feel like second-class citizens in 
their own system. I'm here for every veteran who has waited and 
waited and waited for disability claims resolution, only to be 
denied and thrown into an even longer appeals backlog. For 
every veteran who calls a VA hotline, and then sits on hold for 
hours. For every veteran who waits days, weeks, and even months 
for basic health care appointments. For every veteran who 
receives sub-standard care because, through no fault of their 
own, they live near a poorly-run VA facility. And, tragically, 
I'm here for every veteran who passed away because they didn't 
receive the care they needed when they needed it. You've seen 
the stories. I've seen the stories. And it's long overdue that 
things change at the Department of Veterans Affairs. It's time 
for accountability. It's time for transparency. And it's time 
for results.
    This context and these stories motivate my testimony today, 
as well as my organization's full support of House Resolution 
4031, the Department of Veterans Affairs Management 
Accountability Act of 2014. No sober observer of VA's track 
record, especially in the past few years, can look you, me--or 
any veteran--in the eye and defend the status quo. The status 
quo is unacceptable--and everyone knows it; especially those 
who access, or I should say attempt-to-access, VA's 
impenetrable, unaccountable, and woefully ineffective 
bureaucracy.
    This situation, of course, is not for a lack of trying. The 
Obama administration, this committee, legislators from both 
sides of the aisle, and traditional Veterans Service 
Organizations--of which I am a member--have made very well-
intentioned and repeated attempts to make VA work. Everyone 
wants to help veterans; there is no doubt about that. For 
years, and understandably so, the overwhelming answer has been 
to spend more money, hire more staff, and fund more programs.
    As Secretary Shinseki says repeatedly, VA has all the 
resources it needs. Since 2009, VA's budget has increased by 
over $66 billion, or 67%. But what VA and its army of advocates 
will not admit publicly is that VA's problems have nothing to 
do with money--and everything to do with a calcified culture of 
mediocrity, as opposed to a dynamic culture of excellence. At 
VA, nearly all employee performance is rewarded (regardless of 
outcomes), poor employee performance is routinely ignored (or 
covered up), and veterans are left holding the bag--wanting and 
waiting.
    What we have today is a VA that is really good at serving 
and protecting managers, staff, and bureaucrats--and not so 
good at actually serving veterans. Omar Bradley, of World War 
II fame and former VA administrator, once said, ``We are 
dealing with veterans, not procedures; with their problems, not 
ours.'' Bradley's creed has been turned on its head; today's VA 
is the exact opposite. VA is obsessed with procedure, and so 
engulfed in it's own cultural problems, that they're not 
serving veterans they way our nation expects.
    I'm not saying VA leadership, managers, and bureaucrats are 
bad people--they're not, and they're certainly not the enemy. 
Many of them are veterans, and many of them do an excellent 
job. But with any bureaucracy, over time, institutional 
incentives can distort human behavior in ways that become self-
serving and process-driven, as opposed to customer-service 
focused and outcome-driven. This has clearly happened at VA--as 
not a single senior VA manager has been fired under this 
administration. Not one. Tell me this, if basic accountability 
is not enforced at the top, how can incentives--and therefore 
behavior--be corrected throughout the organization?
    That is what H.R. 4031 seeks to combat, providing the VA 
Secretary with the tools necessary to bend the incentive curve. 
The Bill would simply empower the VA Secretary to fire 
underperforming managers, specifically members of VA's Senior 
Executive Service. These are the folks who run the hospitals, 
lead regional offices, and run entire departments. The ability 
to cut through red-tape, and actually fired bad managers, is 
the very same power the Secretary of Defense enjoys--which 
Secretary Gates used quite effectively in cleaning up the 2007 
mess at Walter Reed. Why should the VA Secretary not have the 
same tools?
    Of course, VA opposes this reform measure--and is peddling 
their own, watered down versions. That's to be expected, as 
it's rare that any bureaucracy would demand more accountability 
for itself. Some in Washington also deride the Bill as an issue 
of ``employee rights.'' They argue that H.R. 4031 would 
eliminate key employment protections and undermine existing 
civil service rules.
    Critics may frame the issue as a matter of employee rights, 
but what ``rights'' are they defending? The ``right'' of a poor 
performing VA executives to continue failing at their jobs, at 
great cost to veterans, their families and the taxpayers? The 
``right'' of VA employees to retaliate against whistle-blowers 
who report problems plaguing the department? Or the ``right'' 
to grant--and accept--extravagant bonuses for employees when 
VA's performance is failing? It takes a very expansive 
understanding of ``employee rights'' to oppose this Bill on 
those grounds.
    Far from being an attack on dedicated public servants, H.R. 
4031 would instead empower them. By bringing greater 
accountability to an underperforming organization, this Bill 
would bolster the best employees, while sending a clear signal 
to poor performers that results matter. If anything, these 
reforms will finally attract reform-minded leaders to VA, where 
they are desperately needed.
    The key question before this committee--and this Congress--
is simple: who will you stand with? Underperforming bureaucrats 
who can't be fired? Or veterans who are underserved? The answer 
to that question is crystal clear. I urge you to consider this 
question as you consider H.R. 4031. Thank you for the 
opportunity to address this important topic, and I welcome your 
questions.

                     Statement Of Ryan M. Gallucci

    With Respect to H.R. 2942, H.R. 3056, H.R. 3614, H.R. 4031, 
H.R. 4037, H.R. 4038, H.R. 4147, H.R. 4151, and a draft Bill 
entitled the ``Veterans Employment and Training Service 
Longitudinal Study Act of 2014''

    Chairman Flores, Ranking Member Takano and members of the 
Subcommittee, on behalf of the men and women of the Veterans of 
Foreign Wars of the United States (VFW) and our Auxiliaries, I 
want to thank you for the opportunity to present the VFW's 
stance on legislation pending before this Subcommittee.
    With deep proposed reductions in the military's active duty 
force, the VFW believes that offering quality transitional, 
educational and career-development opportunities for the men 
and women slated to leave military service remains a national 
imperative.
    We thank this committee for its hard work in the first 
session of the 113th Congress moving critical legislation to 
make this possible--particularly the recently-passed in-state 
tuition protection for college-bound veterans. The VFW 
encourages you to continue your bipartisan work to improve 
civilian training and career opportunities for our veterans, 
and we look forward to working with you to accomplish this 
critical mission.

H.R. 2942, to amend Title 38, United States Code, to 
reestablish the Professional Certification and Licensure 
Advisory Committee of the Department of Veterans Affairs

    The VFW supports Ms. Kirkpatrick's Bill, which will extend 
a critical advisory committee on professional licenses and 
certifications for the Department of Veterans Affairs (VA). At 
a time when the Department of Labor anticipates a significant 
influx of veterans into the civilian workforce, VA must have 
the ability to evaluate professional licenses and 
certifications for which veterans may choose to use their 
earned education benefits. This advisory committee provides 
critical expertise to VA with which to evaluate professional 
licenses and credentials.
    The VFW has long acknowledged that not all veterans 
entitled to VA education benefits will choose to use those 
benefits for a traditional college degree. This is why we fully 
support allowing veterans to use these benefits for relevant 
professional training, as well as licensure and certification 
evaluations that will lead to quality careers.

H.R. 3056, Warriors' Peer-Outreach Pilot Program Act

    The VFW supports Rep. Takano's efforts to better understand 
the positive impact of peer support for student veterans going 
back to college. However, we have concerns over this Bill's 
proposal to commission a pilot program on peer-to-peer support 
for student veterans.
    The VFW already believes that peer support works and we 
believe this can be demonstrated through the rapid growth of 
nearly 1,000 Student Veterans of America (SVA) chapters on 
college campuses around the country. VFW posts in college 
communities have also helped to cultivate significant peer-to-
peer support for student veterans on college campuses with 
tremendous success for future veteran leaders.
    VA has also commissioned two unique programs designed to 
serve student veterans on college campuses, VetSuccess on 
Campus (VSOC) and Veterans Integration to Academic Leadership 
(VITAL), which offer unique VA support services to veterans. 
VSOC assists veterans on more than 90 campuses and VITAL was 
recently expanded to 15 campuses. In 2010, the Department of 
Education also awarded grants to 15 college campuses to 
commission Centers of Excellence for Veteran Student Success 
(CEVSS) to deliver support services to student veterans.
    VSOC, VITAL and CEVSS all have the authority to hire 
student veterans as VA Work Study participants, and many 
campuses are already taking advantage of this resource to 
deliver peer-to-peer services. The VFW believes that Congress 
should look to these programs to better understand how to best 
deliver peer-to-peer support services to veterans on campus.
    Finally, the VFW supports Rep. Takano's goal to report on 
the efficacy of peer-to-peer support services for veterans in 
higher education. However, in lieu of commissioning three new 
peer support programs, the VFW recommends identifying current 
peer-to-peer support programs commissioned through the VA Work 
Study program to support VSOC, VITAL and CEVSS, and reporting 
on their efficacy.
    To properly reflect the diverse experiences of veterans in 
higher education and to produce a quality report on the success 
of peer support in higher education, the VFW recommends 
expanding the proposed report to reflect a geographically 
diverse selection of four-year public schools, community 
colleges, and private non-profit universities; as well as 
examples of non-profit online programs, elite non-profit 
schools, for-profit campus-based programs, and for-profit 
online programs.
    The VFW agrees with Rep. Takano that we know far too little 
about the experiences of student veterans in higher education. 
The first statistically valid report on student veteran 
outcomes in higher education was released by SVA only earlier 
this week. The VFW supports studying examples of current peer 
support models to demonstrate success, and we look forward to 
working with Rep. Takano and the subcommittee to make this 
happen.

H.R. 3614, Military Skills to Careers Act

    The VFW supported this Bill's Senate companion, S. 492, in 
testimony last year, and we support Rep. Flores' efforts to 
help close the civilian/military licensing and credentialing 
gap. This Bill takes reasonable steps to ensure that states 
will allow experienced military professionals to sit for 
licensing exams, while still ensuring states have the autonomy 
to issue professional licenses as they see fit. States will not 
have to relax their standards for professionals operating 
within their borders, but experienced veterans will not be 
unnecessarily burdened with satisfying duplicative training 
requirements.
    However, the VFW has some concerns over the specific 
language of this Bill, and we want to work with the 
subcommittee to ensure that states will not be penalized for 
holding military-trained professionals to standards established 
by professional trade associations, but enforced by the states 
through licensing procedures.

H.R. 4031, Department of Veterans Affairs Management 
Accountability Act of 2014

    Chairman Miller's Bill would provide the Secretary the 
authority to remove a Senior Executive Service (SES) employee 
based on performance. Accountability within VA management is a 
growing concern. Without defined authority to remove an SES 
employee from a position or from employment, accountability for 
poor performance will never be reached.
    Section 7543 of title 5, U.S.C., provides the authority to 
suspend or remove a member of the SES. This provision of law 
provides for two things: First, an agency may remove or suspend 
a senior executive only for misconduct, neglect of duty, 
malfeasance, or failure to accept a direct reassignment. 
Second, it provides that members of the SES are entitled to at 
least 30 days advance written notice of why disciplinary action 
is being proposed, at least 7 days to respond to the notice for 
suspension or removal, representation by an attorney or other 
representative, and a written decision with specific reasons. 
The agency may also provide for a hearing to allow the SES 
member a chance to answer questions. The problem with this 
scenario is that it allows SES employees to engage in a 
perpetual back-and-forth with their superiors through archaic 
legal processes. This means that SES employees can rarely be 
sanctioned or removed for poor performance, as Chairman Miller 
has rightly pointed out.
    This Bill will provide the Secretary the authority to 
remove SES employees when the Secretary determines that poor 
work performance warrants such removal. While it is important 
for the Secretary to have the ability to quickly remove 
employees, and specifically members of the SES, it is also 
important to recognize that members of the SES are career 
employees who serve as the link between political appointees 
and the civil service employees of the department, and that 
allowing removal without due process or the ability to appeal 
could jeopardize the unique roll of the SES.
    The VFW would support this legislation if it were amended 
to place a 30 day limitation, with one opportunity for an 
additional 30 day extension, on the title 5 provision that 
allows at least 7 days for an SES employee to respond to the 
notice of suspension or removal. This would force notified SES 
members to quickly respond to their notification, thereby 
decreasing the time it takes to remove an underperforming SES 
member. SES members must also retain their appeal rights 
through the Merit Systems Protection Board. These changes would 
send a clear message to underperforming employees, but provide 
needed protection for positions that were designed to provide 
and retain institutional knowledge and reduce cronyism.

H.R. 4037, Improving Veterans' Access to Vocational 
Rehabilitation and Employment Act of 2014

    The VFW supports the intent of Rep. Flores' Bill to ensure 
that VA's Vocational Rehabilitation and Employment (VR&E) 
Program has the ability to provide rehabilitative services to 
veterans who need it the most. The VFW also supports Flores' 
initiative to more accurately measure success within the 
program.
    By design, VR&E is supposed to offer intensive 
rehabilitative services to veterans who must be retrained in a 
new civilian industry because of their service-connected 
disability. Under current law, any veteran with a service-
connected rating of 10 percent or more is eligible for VR&E.
    Through this legislation, Rep. Flores hopes to ensure that 
VR&E can continue to meet an increasing demand for 
rehabilitative services among veterans who need it the most--
specifically disabled veterans with significant barriers to 
employment.
    The VFW understands that VR&E in its current form is nearly 
at capacity for offering rehabilitative services to disabled 
veterans. According to VA's own data, VR&E counselors are 
already working beyond a reasonable capacity, with counselors 
serving veterans at a ratio of 145:1, when VA's standard of 
service is 125:1. With more and more service members projected 
to leave the military in the coming years, the VFW shares Rep. 
Flores' concerns that VR&E may not be able to adequately serve 
the veterans who will need it the most if changes are not made 
to the current system.
    However, the VFW worries that restricting eligibility for 
VR&E will lead to some disabled veterans falling through the 
cracks. Though the VFW cannot support this Bill in its current 
form, we look forward to working with Rep. Flores to develop 
meaningful reforms for VR&E that will ensure VA can deliver 
quality rehabilitative service to veterans who need it without 
restricting access.

H.R. 4038, Veterans Benefits Administration Information 
Technology Improvement Act of 2014

    The VFW supports Rep. Flores' Bill to ensure that VA 
prioritizes the completion of its information technology (IT) 
solution for processing VA education benefit claims. The VFW 
acknowledges the significant progress VA has made in the 
timeliness and accuracy of its GI Bill benefit processing. 
However, we share the subcommittee's concerns that as Veterans 
Benefits Administration sees success in education benefit 
processing, they have now shifted resources to focus solely on 
the disability claims backlog. The VFW understands VBA's 
urgency in seeking to resolve the backlog, but we must not 
neglect the mission to properly serve student veterans. By 
completing the IT solution, we ensure that education benefits 
can continue to be processed in a timely, accurate manner.

H.R. 4147, the Student Veterans IT Upgrade Act

    The VFW supports Rep. Takano's Bill to commission a report 
to Congress on the status of VA's education IT systems. Similar 
to H.R. 4038, the VFW believes that VBA has an obligation to 
process timely and accurate education benefits. Critical to 
this is the 
development and completion of VBA's education IT systems. This 
report is a responsible way to demonstrate progress in IT 
development, identify potential shortcomings and develop a 
course of action to complete tasks. To the VFW, this Bill is 
responsible governance and we support its quick passage.

H.R. 4151, the Veterans Education Survey Act of 2014

    The VFW proudly supports Rep. Bilirakis' efforts to 
commission a survey of student veterans currently using their 
earned GI Bill benefits. Without statistically valid 
information on the student veteran experience or student 
veteran outcomes, these special interests groups in higher 
education have been able to make vague assertions about the 
student veteran population based off of assumptions drawn from 
incomplete Department of Education data. While the VFW can only 
speculate as to their motives, we believe this false narrative 
does a disservice to the 1 million beneficiaries currently 
enrolled in VA education benefit programs and threatens the 
long-term viability of programs like the Post-9/11 GI Bill.
    For example, some special interests point to low graduation 
rates among student veterans at schools with high military 
populations like American Military University and University of 
Maryland University College as indications that these schools 
fail to properly serve their student veterans. What is missing 
from this narrative is that the graduation rate reported by 
these schools to the Department of Education likely includes 
very few, if any, veterans, since the Department of Education 
counts only first time, full time students.
    Student veterans--particularly student veterans who enroll 
in non-traditional programs like those offered by AMU or UMUC--
usually start their studies on a part-time basis while serving 
in the military, or they bring significant transfer credits 
into their programs after completing military service, meaning 
they are never considered first time, full time students, and 
thus are never tracked by the Department of Education.
    Moreover, when the Department of Veterans Affairs recently 
launched its new comparison tool and the raw data used to 
compile it, the VFW was surprised to learn of all the programs 
across higher education that reported abysmally low graduation 
rates. The VFW took a closer look at many of the schools who 
reported graduation rates of five percent or lower, only to 
realize on the Department of Education's College Navigator 
website that each of these schools were likely comprised of 
non-traditional students, like student veterans. Because of 
these unique circumstances, we often joke that among all of the 
veterans in our office, none of us are considered a college 
graduate by Department of Education standards.
    Only this week did we start to scratch the surface on 
understanding how student veterans fare in higher education 
when SVA released its 1 Million Records Project, tracking 
outcomes for nearly 1 million veterans who attended college on 
VA education benefit programs after 9/11. We applaud SVA for 
its groundbreaking findings, which demonstrated that student 
veterans fare well in higher education when compared to 
traditional students as tracked by the Department of Education. 
However, this report only scratches the surface and does not 
capture attitudes and impressions of student veterans currently 
using their GI Bill benefits. This is the gap in information 
that Rep. Bilirakis' report would fill in.
    The original GI Bill returned $7 to the American economy 
for every dollar spent on a veteran. Historians credit the 
original GI Bill for building the American middle class as we 
know it. The VFW believes that the Post-9/11 GI Bill has the 
potential to be a similarly transformative benefit for today's 
college-bound veterans, but in times of fiscal uncertainty, we 
have to be able to demonstrate this to the American public. We 
encourage Congress to quickly pass this legislation to better 
quantify the experiences of veterans in higher education.

Draft Bill, Veterans Employment and Training Service 
Longitudinal Study Act of 2014

    The VFW has long believed that the services provided by the 
Department of Labor's Veterans Employment and Training Service 
(VETS) could provide a critical gateway for veterans into 
meaningful civilian employment after military service. The key 
piece to providing career opportunities rests with Disabled 
Veterans Outreach Program specialists (DVOPs) and Local 
Veterans Employment Representatives (LVERs) located at American 
Jobs Centers around the country. Unfortunately, the VFW has 
seen that not all DVOPs and LVERs have the same capability, and 
not all veterans and employers know what they have to offer.
    Recently, the VFW was approached by a small business owner 
in Indiana who was looking to hire a couple of veterans to 
round out his company. We directed the business to the local 
LVER. In less than a day the LVER had identified several 
potential candidates and the business had lined up interviews.
    The VFW believes that businesses want to hire veterans, and 
DVOPs and LVERs stand uniquely poised to make these 
connections. Unfortunately, we have not properly evaluated what 
works and what does not work in communities around the country. 
To better understand the veteran hiring experience, the VFW 
supports the subcommittee's draft legislation to conduct a 
longitudinal study on the outcomes for veterans who utilize 
DVOP and LVER services. We look forward to working with the 
committee to pass this legislation.
    Chairman Flores, Ranking Member Takano, this concludes my 
statement and I am happy to answer any questions you may have.
    Information Required by rule XI2(g)(4) of the House of 
Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, 
VFW has not received any federal grants in Fiscal Year 2013, 
nor has it received any federal grants in the two previous 
Fiscal Years.

               Prepared Statement of Mr. William Hubbard

    Chairman Flores, Ranking Member Takano and members of the 
Subcommittee:
    Thank you for inviting Student Veterans of America to 
submit written testimony regarding pending legislation intended 
to increase support for military servicemembers and veterans.
    Student Veterans of America (SVA) is the largest and only 
national association of military Veterans in higher education. 
Our mission is to provide military veterans with the resources, 
support, and advocacy needed to succeed in higher education and 
after graduation. We currently have nearly 1,000 chapters, or 
student veteran organizations, at colleges and universities in 
all 50 states, that assist veterans in their transition to and 
through higher education. This on-the-ground perspective, which 
comes from every corner of this nation, and our experience in 
supporting thousands of GI Bill beneficiaries, provides the 
framework for our testimony regarding these important issues.
    H.R. 2942, a Bill to amend Title 38, United States Code, to 
reestablish the Professional Certification and Licensure 
Advisory Committee of the Department of Veterans Affairs.
    SVA supports the reestablishment of this Committee as it is 
clear that this committee is a necessary entity. While the 
Department of Veterans Affairs currently performs outreach and 
auditing for licensing and certification programs, the 
extension would streamline those efforts and contribute to 
clear communication with State approving agencies presently act 
in a similar capacity. For these reasons, SVA sees this as a 
committee of necessity to address existing gaps by allowing 
applicable military experiences to be translated to civilian 
recognition.

H.R. 3056, Warriors' Peer-Outreach Pilot Program Act

    SVA stands firmly with the intent behind the legislation 
proposed by Rep. Takano in establishing metric-proven success 
of peer-to-peer support networks for veterans in higher 
education. With close to 1,000 chapters across the country 
which operate on this model, SVA strongly believes in the 
importance of peer-to-peer support in higher education--indeed 
a core precept of our organization.
    However, with ample evidence available already, both 
anecdotal and data-driven, of the success of peer-to-peer 
programs with regards to veterans pursuing postsecondary 
degrees, SVA does not support H.R. 3056. At present, SVA 
provides tools and resources for student veterans to act both 
formally and informally to support their veteran peers 
throughout their educational experience. In addition to a 
breadth of day-to-day support provided by chapter leaders for 
student veterans at the local level, SVA also provides an array 
of programmatic training that encourages outcomes which mirror 
the intent of this legislation. Our Leadership Institute Series 
teaches practical skills that apply directly to supporting 
effective peer-to-peer mentoring, as well as skills which 
translate beyond school and focus on building fulfilling 
careers.
    Others have also seen this approach of peer-to-peer support 
as a successful model, and have implemented it widely. In 
Washington State, the VetSuccess AmeriCorps program has been an 
excellent example of success, placing 64 AmeriCorps members on 
as many as 32 college campuses for the 2013-14 academic year. 
With rigorous reporting and metrics associated with that 
program, SVA believes that no additional proof is necessary to 
substantiate the positive impact that peer-to-peer support can 
have.
    SVA stands with the Veterans of Foreign Wars and the 
American Legion in accepting that peer-to-peer support in 
higher education is a known factor of success of veterans in 
higher education, with no further legislation required to 
execute additional study.

H.R. 3614, Military Skills to Careers Act

    This Bill seeks to ensure that military professionals have 
the opportunity to sit for licensing exams, allowing veterans 
the opportunity to successfully translate their military 
expertise and effectively integrate into the civilian 
workforce.
    The skills veterans learn in the military match those 
required for civilian job licenses, and this legislation would 
permit veterans to obtain only those licenses for which they 
are qualified. We know there exists substantial overlap between 
the training of veterans, state licenses that do not fully 
credit military experience, and current labor market needs.
    This legislation recommends allowing for the recognition of 
the investment that our Department of Defense has made in our 
service members, now veterans. It makes it possible for 
economic needs for critical skills positions, which align 
directly with veterans' prior training and experience, to be 
addressed. SVA carries reservation in establishing this 
legislation as a precursor to awarding grants or contracts to 
states, which may ultimately inhibit the overall intent of this 
Bill.
    SVA would look forward to providing further input on this 
legislation to achieve an outcome that we would fully support.

H.R. 4037, Improving Veterans' Access to Vocational 
Rehabilitation and Employment Act 2014

    Vocational rehabilitation is a crucial component in the 
transition process as veterans move from active service to the 
civilian population. The Montgomery and Post-9/11 GI Bills 
provide notable examples of the role that education plays in 
this transition process. American taxpayers have invested 
billions of dollars in programs that empower veterans to seek 
education that will allow them to attain gainful employment and 
meaningful careers.
    Chairman Flores' Bill seeks to ensure that the Vocational 
Rehabilitation and Employment Program is equipped to provide 
rehabilitation programs to the veterans who have the greatest 
demand for these services.
    In the Bill's current form, SVA does not support H.R. 4037, 
though we feel this issue should stay at the forefront of 
discussion. With some changes to the language, which would 
otherwise potentially lead to some veterans being caught in a 
gap, SVA would support this legislation.

H.R. 4038, Veterans Benefits Administration Information 
Technology Improvement Act of 2014

    SVA is in strong favor of Chairman Flores' Bill, H.R. 4038. 
Educational benefits claims processing is a persistent issue 
for veterans who would benefit from spending their time on 
their studies versus trying to manage a claim to an earned 
benefit. Even a small percentage of claims going unprocessed or 
delayed is unacceptable, as the impact is immediate and with 
lasting effects.
    For those who have experienced challenges in their claims 
being processed, they know all-too-well what kind of chain 
effect this can have on their ability to attend school and gain 
the full value of their educational benefits. Electronic 
adjudication of these benefits will greatly reduce user-error, 
and speed up the processing time for these benefits. An 
automated benefits processing of educational benefits should be 
a top priority of the Department of Veterans Affairs and SVA 
encourages the swift passage of H.R. 4038.

H.R. 4147, Student Veterans IT Upgrade Act

    As with Chairman Flores' legislation, H.R. 4038, this 
legislation proposed by Rep. Takano is a key component of 
modernizing the technical capabilities of the Department of 
Veterans Affairs. Public knowledge of the state of the IT 
infrastructure is a critical first-step in being able to 
address additional issues that stem from an inability to 
clearly understand what upgrades need to be performed. This 
understanding, along with an action plan to address finalizing 
each system, will send a clear signal that the Department of 
Veterans Affairs is actively seeking to follow-through on their 
intent to bring these systems to full implementation.
    SVA stands behind Rep. Takano on H.R. 4147 to pursue the 
upgrade of information technology infrastructure necessary to 
support the education benefits claims of veterans as they seek 
higher education.

H.R. 4150, Veterans Employment and Training Service 
Longitudinal Study Act of 2014

    On March 24th, we released our initial findings of our 
Million Records Project, an SVA-led research study of veterans 
in higher education in collaboration with the Department of 
Veterans Affairs and the National Student Clearinghouse. As we 
look at H.R. 4150, we find it to be complementary to our 
research, and within the spirit of seeking data-driven 
decisions on programs to support veterans in higher education.
    Since our organization's inception, we have held that the 
lifecycle of a veteran's transition from the military, to 
school, and onward to civilian careers, is a highly 
interdependent process. Each component of this process builds 
on the preceding steps, and this legislation seeks to empower 
veterans through several critical steps.
    The Department of Labor's Veterans Employment and Training 
Service (VETS) can build a bridge for millions of veterans over 
the coming years as they pursue gainful careers post-
graduation, for example. However, the current lack of 
coordination and understanding of the breadth of impact 
surrounding this part of the transition process is a crucial 
gap that must be addressed. SVA applauds the interest in moving 
towards the goal of gaining greater clarity on the impact of 
job counseling, training, and placement of veterans.
    In 2012, the GAO noted that the federal government has 
sponsored 6 different programs serving at least 880,000 
participants at a cost of $1.2 billion dollars. Such a broad 
variety of resources might be seen as a positive attribute, and 
certainly reflects the sea of goodwill that has developed over 
the past decade. However, without coordination, duplicative 
efforts and inefficiencies threaten to stymie the full 
potential of these resources.
    A study, as this legislation proposes, would enable 
decision makers at multiple levels to understand what is 
working. As well, the study would highlight areas for change.
    SVA is in full support of H.R. 4150, and applauds the 
legislation for being fully inclusive of all individuals 
entitled to any kind of educational assistance.

H.R. 4151, Veterans Education Survey Act of 2014

    SVA stands in strong favor of Rep. Bilirakis' legislation, 
H.R. 4151, ``Veterans Education Survey Act of 2014''. It is 
right for some American's to ask, ``What are we receiving for 
our investment in the GI Bill?'' Indeed, this is a crucial 
question as more than $34 billion dollars has been spent on 
millions of veterans who have sought, and are seeking, degrees 
in higher education.
    As previously noted, our Million Records Project has sought 
to answer that question. H.R. 4151 is an important piece of 
legislation because it answers another key element of this 
investment in our veterans, ``What motivates veterans to pursue 
the paths that they do?''
    We know that a majority of our service members elect to 
pursue higher education as they transition out of the military. 
With an expected 1 million new veterans to enter the civilian 
population over the next several years, the importance of 
empowering veterans in higher education will continue to 
increase. As individuals gain degrees in higher education, 
their earning power increases significantly. We also know that 
veterans who earn an initial degree in higher education have a 
much greater potential to pursue additional degrees, increasing 
their overall opportunity to contribute to the economy.
    Through the Million Records project, there are several data 
points have gained great insight on, and when paired with the 
data that would be collected through a study directed by this 
legislation, the picture will become even clearer; a holistic 
narrative will form, enabling policy makers to base their 
decisions on accurate data. From the research of the Million 
Records Project, we have identified what school sectors are 
performing well, what graduation rates for veterans looks like, 
and time-to-completion of degree, among many other critical 
attributes.
    This legislation would add another element to that picture: 
factors that impact the paths veterans pursue in higher 
education. As a customer satisfaction survey, policy regarding 
what can be done to improve the effectiveness of the 
educational benefits for veterans becomes increasingly 
applicable. The more data available on these topics, the 
better.
    Since 2000, over 4 million veterans have benefited from use 
of the GI Bill, and the American taxpayers can expect that this 
generation of veterans will positively impact the American 
economy in magnitudes that will continue for several 
generations to come. SVA encourages the swift passage of this 
important legislation, and applauds the efforts of all policy 
makers who are making it clear that an investment in our 
veterans and their education is an investment in this country's 
future.
    SVA finds the following Bill outside the scope of our 
mission and does not wish to offer comment at this time:

H.R. 4031, Department of Veterans Affairs Management 
Accountability Act of 2014

    Student Veterans of America is appreciative of the 
opportunity to provide this testimony. We thank the Chairman, 
Ranking Member and the Subcommittee members for their time, 
attention, and devotion to the cause of veterans in higher 
education. We look forward to continuing to work with this 
Subcommittee, the House Veterans' Affairs Committee, and the 
Congress to ensure the success of all generations of Veterans 
through education.
    Thank you for allowing Student Veterans of America the 
opportunity to participate in this important Hearing.

                        Wounded Warrior Project

    Chairman Flores, Ranking Member Takano, and Members of the 
Subcommittee:
    Thank you for inviting Wounded Warrior Project (WWP) to 
provide views on pending economic opportunity-related 
legislation. We welcome this opportunity to address several of 
the measures before you today.

Warriors' Peer-Outreach Pilot Program Act

    H.R. 3056 would require the Secretary of VA to carry out a 
three-year pilot program to provide peer outreach and support 
services at institutions of higher learning--with an emphasis 
on assisting veterans who may have or be having, difficulty in 
adjusting to such institution, or who may need services or 
supports that such institution is not equipped to provide--by 
training and employing fellow veteran students (or recent 
graduates) as peer mentors.
    With the Post 9/11 GI Bill, Congress has provided this 
generation of veterans an especially valuable gateway to 
economic success. Wounded warriors are using this benefit; in 
fact, almost one third of the nearly 14,000 wounded warriors 
who responded to our 2013 survey were enrolled in school.\1\  
However, some of our wounded warriors are facing stark 
challenges in pursuing higher education. In many instances, 
their injuries--and particularly the invisible wounds they have 
incurred--create obstacles their student-peers do not 
experience or even understand. Some wounded warriors simply 
need modest accommodations and supports. But without such 
supports some are struggling, dropping out, or even failing.
---------------------------------------------------------------------------
    \1\ Franklin, et al, 2013 Wounded Warrior Project Survey Report, vi 
(July 2013).
---------------------------------------------------------------------------
    Studies confirm the experiences our warriors have reported 
to WWP education-services staff. For example, one study found 
that the ``average'' student-veteran has experienced moderate 
anxiety, moderately severe depression, and symptoms of PTSD.\2\ 
 Specifically, nearly 46 percent of the sample experienced 
``significant symptoms of PTSD,'' \3\  almost 35 percent 
suffered from severe anxiety, and nearly 24 percent had severe 
depression.\4\  Another study found that most of the student 
veteran survey and focus group participants encountered 
substantial transition challenges while adapting to life on 
campus.<bullet>A\5\  Among these students, one of the most 
frequently discussed challenges was coping with service-related 
disabilities and PTSD.\6\  Overall, about 68 percent of survey 
respondents rated the extent to which they had to cope with 
such disabilities, and of those, 55 percent reported it as a 
moderate or major challenge.\7\ 
---------------------------------------------------------------------------
    \2\ David Rudd, Jeffery Goulding, and Craig Bryan, ``Student 
Veterans: A National Survey Exploring Psychological Symptoms and 
Suicide Risk.'' 42(5) Professional Psychology: Research and Practice, 
354, 357-358 (2011).
    \3\ Id. These exceed the cutoff score for PTSD in accordance with 
the PCL-M score for OIF/OEF veterans, Dept. of Veterans' Affairs and 
the National Center for PTSD Fact Sheet, ``Using the PTSD Checklist,'' 
available at: http://www.ptsd.va.gov/professional/pages/assessments/
assessment-pdf/pcl-handout.pdf.
    \4\ Rudd et al., supra note 6, at 357-358.
    \5\ Jennifer Steele, Nicholas Salcedo, and James Coley, ``Service 
Members in School: Military Veterans' Experiences Using the Post-9/11 
GI Bill and Pursuing Postsecondary Education,'' RAND Corporation 
(2011).
    \6\ Id. at 36.
    \7\ Id. at 39.
---------------------------------------------------------------------------
    As is apparent from our own extensive surveying, peer 
support and mentor relationships are vital in assisting 
warriors in their transition and throughout their recovery 
process. Particularly, peer support has played unique roles in 
military/veteran populations in decreasing stigma associated 
with seeking mental health care and improving adherence, 
increasing knowledge of treatment resources, and augmenting or 
teaching self-management. \8\  Notably, peer support 
relationships tend to support and encourage self-advocacy \9\  
and empowerment and they have been found to foster increased 
stability in work, education and training.\10\  In some cases, 
peer mentors are even more successful than professional 
qualified clinicians because they promote hope and belief in 
the possibility of recovery and their relationships with 
mentees foster increased self-esteem and social inclusion, 
engagement, and increased social networks \11\  all of which 
are key for success in post-secondary education. Furthermore, 
peer support relationships are mutually beneficial--employment 
as a peer mentor adds to self-esteem, confidence, and personal 
recovery and increases chances of further employment and 
continued recovery.\12\ 
---------------------------------------------------------------------------
    \8\ Williams, et. al, ``A Scoping Study of One-to-One Peer 
Mentorship Interventions and Recommendations for Application with 
Veterans with Postdeployment Syndrome,'' 27 J. Head Trauma Rehab. 261, 
270 (2012).
    \9\ Id. at 272.
    \10\ Repper & Carter, ``A Review of the Literature on Peer Support 
in Mental Health Services,'' 20(4) J. of Mental Health 392, 396 (2011).
    \11\ Id. at 400.
    \12\ Id.
---------------------------------------------------------------------------
    WWP was founded on the principle of warriors helping 
warriors, and we pride ourselves on outstanding service 
programs that advance that principle, including our own Peer 
Mentor Program. Underscoring the benefit of warriors reaching 
out to other warriors, our annual survey found that more than 
one half of our alumni reported that talking with another OEF/
OIF/OND veteran was the most effective resource they have used 
(and that has assisted them) for coping with their mental 
health concerns.\13\
---------------------------------------------------------------------------
    \13\ Franklin, et al, 2013 Wounded Warrior Project Survey Report, v 
(July 2013).
---------------------------------------------------------------------------
    Having current or recent graduate student peer mentors on 
campus to assist warrior-veterans--many of whom are battling 
PTSD, depression, anxiety, or a combination of these disorders 
would be an important step in assisting these warriors 
successfully make the transition to an educational program and 
increase their likelihood for success in such program. As such, 
WWP supports H.R. 3056.

Improving Veterans' Access to Vocational Rehabilitation and 
Employment Act

    H.R. 4037, the Improving Veterans' Access to Vocational 
Rehabilitation and Employment Act of 2014 is aimed at making 
certain improvements to VA's Vocational Rehabilitation and 
Employment Program (VR&E), including steps would: (1) Direct VA 
to revise the formula to calculate the rate of veterans who 
were rehabilitated under the program; (2) make the approval of 
courses for a VR&E education program more similar to that of 
the GI Bill; (3) expand eligibility for specially adapted 
housing to veterans who are permanent and totally service-
connected and are eligible to participate in VR&E; (4) 
authorize VA to prioritize provision of VR&E services for 
veterans based on need, as determined by reference to 
disability ratings, severity of employment handicaps, income 
and other factors, and (5) liberalize the definition of the 
term ``serious employment handicap.''
    WWP certainly appreciates the focus H.R. 4037 places on 
VR&E and welcomes many of its provisions. We do have concerns, 
however, regarding the implications of the proposed broad grant 
of authority the Bill would give VA to set priorities for 
providing VR&E services, and what that might portend for 
disabled veterans who are not afforded priority under 
regulations VA might then promulgate. Given the wide latitude 
this provision of H.R. 4037 would give VA, it is conceivable 
that such authority would be broadly exercised, with the result 
that some veterans' applications for VR&E would get expedited 
attention while others could face long waits. While one could 
appreciate the benefit of establishing a limited ``compelling 
need'' situation under which VA could, for example, expedite 
consideration of a case presenting exceptional circumstances, 
the language of H.R. 4037 invites a much broader approach. 
Drawing priority distinctions based on disability ratings is 
especially problematic, given the long waits many face in the 
course of the adjudication and appeals processes. It bears 
emphasizing that VR&E is an entitlement--an earned benefit. 
Given its mission, the VR&E program itself should be a VA 
priority, with funding commensurate with that priority. That 
funding should be sufficient to ensure that veterans are 
afforded timely service, and there should be no need to 
consider setting priorities. Indeed, for Congress to grant VA 
authority to set priorities could actually be read to signal 
that the program need not be fully funded. While we do not 
suggest that to be the intent of the provision, we would urge 
the Subcommittee to reconsider this provision.
    We would also urge the Subcommittee to address other 
areas--including through legislation--where the VR&E program 
needs attention, particularly with staffing levels and the need 
for more staff training. With military careers often cut short 
by life-altering injuries, it is particularly important that 
this generation of wounded warriors be afforded the tools, 
skills, resources, education, and support needed to secure 
employment and develop fulfilling careers. Congress designed 
the VR&E program to give disabled veterans the help they need 
to gain success in the workforce and it should be a key 
transitional pathway for wounded warriors. But too often the 
program is failing them.
    Wounded warriors and WWP's field staff--who work daily with 
our wounded warriors across the country--report wide-ranging 
variability in program administration and education/employment 
plan approvals, counselor skills, experience, understanding of 
battle-incurred TBI and PTSD, and interpretation and knowledge 
of the program's services. Though some warriors report positive 
experiences and have worked with dedicated counselors, this 
represents the exception and not the norm.
    Warriors have reported instances of VR&E counselors 
challenging their employment aspirations by denying them access 
to their program of choice and pressing them instead to pursue 
``any job'' as a goal. In other instances, wounded warriors 
seeking to go back to school to earn a second degree--to better 
compete in the job market--have met objection from counselors 
who view VR&E simply as a ``jobs program.'' Still, others, 
particularly those with TBI and PTSD, have encountered VR&E 
counselors who do not appear to understand those conditions.
    Additionally, warriors report delays in receiving VR&E 
services, difficulty communicating and scheduling with their 
counselors, and reduced opportunities to achieve successful and 
timely rehabilitation. The size of counselors' caseloads has 
particularly limited their ability to provide adequate on-going 
support and assistance to veterans throughout the course of 
their education or training program, especially to those with 
TBI and PTSD who need such supports.
    The following comments are emblematic of the experiences of 
many:
    ``In my experience working with Voc Rehab counselors, many 
of my veterans were exasperated by their counselors and 
oftentimes felt as though their counselors had such a large 
caseload that they were not getting the attention needed. . .  
and more often than not being brushed off when they asked for 
assistance.''
    ``While many of the Voc Rehab staff are sensitive to the 
veteran's needs, they do not seem to, as a whole, have an 
understanding of where the veteran is coming from . . . they 
are quick to write off a veteran's career choice due to their 
disability rather than take into account things such as 
passion, determination, and drive.''
    ``Many veterans have to justify why they want a specific 
degree or [employment goal] and that doesn't always match up 
with what the counselor believes that veteran can be successful 
at based on their history or [medical] diagnosis.''
    The recent Government Accountability Office Report on VR&E 
highlights the program's workload management challenges and 
gaps in VR&E staff training.\14\  The wide variability in 
counselor caseloads among the regional offices is particularly 
concerning, as is the fact that the program is just now--at the 
end of 2013 and into 2014--providing new staff training courses 
on mental health to improve counselors' ability to assist 
veterans with PTSD and other mental health issues. \15\ 
---------------------------------------------------------------------------
    \14\ U.S. Government Accountability Office, ``VA Vocational 
Rehabilitation and Employment: Further Performance and Workload 
Management Improvements are Needed,'' GAO-14-61 (2014).
    \15\ Id. at 27 and 32.
---------------------------------------------------------------------------
    VR&E counselors need to be sensitive and not only 
understand the struggles, but also the strengths, of warriors 
with TBI and PTSD so that they, in turn, can help warriors 
recognize that they are not ``broken,'' but continue to have 
great potential. They must be partners in the warriors' 
rehabilitation, not critical gatekeepers who too readily 
dismiss ``unrealistic'' aspirations. In working with this 
generation, counselors must also understand the very profound 
disorientation experienced by warriors whose lives and life-
plans have been upended and out of their control. As one put 
it, ``For me the most difficult part [of the transition] is 
finding purpose. [I] never really had to think about my purpose 
when I was in the Corps.'' \16\  A VR&E counselor must have the 
sensitivity, training and experience to help that warrior find 
new purpose, or to link him to appropriate professional help. 
But even the most capable, empathetic counselor--challenged 
with 150 other ``cases'' to manage--is unlikely even to have 
sufficient time to provide that warrior the needed level and 
kind of support. More appropriate staffing levels must be a 
component of refocusing and re-energizing this important 
program. In all, we urge this Committee to make the VR&E 
program a greater priority through budgetary, programmatic, and 
outcomes-based action.
---------------------------------------------------------------------------
    \16\ Franklin, et al, 2013 Wounded Warrior Project Survey Report, 
108 (July 2013).

---------------------------------------------------------------------------
Veterans Education Survey Act of 2014

    H.R. 4151 directs the Secretary of VA to contract with an 
independent agency to conduct a survey of individuals, who have 
used, or are currently using, their education benefits under 
chapters 30, 32, 33, and 35 of Title 38.
    WWP would welcome a comprehensive survey on warriors' 
experiences using their earned educational benefits. WWP's 
concerns regarding wounded warrior-student experiences on 
campus and in educational programs has been raised before this 
Committee.\17\  Such a survey would be invaluable in 
determining the effectiveness of these education programs and 
would shed light on veteran experiences in each of these 
programs.
---------------------------------------------------------------------------
    \17\ See WWP statement for the record, House Veterans' Affairs 
Subcommittee on Economic Opportunity Hearing on ``The Value of 
Education for Veterans at Public, Private, and For-Profit Colleges and 
Universities,'' June 20, 2013.
---------------------------------------------------------------------------
    But, as we outlined above in our discussion on VR&E, we 
urge this Committee to expand the scope of the Bill to include 
users of VR&E in this survey to better understand veteran 
experience with the program as an effort to remedy the 
program's gaps. Simply asking whether the veteran was entitled 
to VR&E and if he/she participated in the program, as this Bill 
requires, would be to lose an important opportunity. In our 
2013 annual survey--of those pursuing an education--only about 
20 percent of our warriors were using VR&E while 54 percent 
opted to use the Post 9/11 GI Bill to finance their 
education.\18\  Given that VR&E provides counseling and other 
supports and is limited to service-connected disabled veterans, 
it is striking that the majority of our alumni are selecting 
the Post 9/11 GI Bill--which does not provide the counseling 
and assistance that VR&E offers. Some warriors and field staff 
offer the reasoning that the Post 9/11 GI Bill is easy access 
and a swifter means to get an education. Many others report it 
is because they would have ``more freedom to pursue what they 
want, not what the vocational counselor tells them.''
---------------------------------------------------------------------------
    \18\ Franklin, et al, 2013 Wounded Warrior Project Survey Report, 
71 (July 2013). The percentage of alumni using the Post 9/11 GI Bill 
has continued to increase (53% in 2012, some 46% in 2011, and nearly 
28% in 2010) while the percentage of alumni reporting the use of VR&E 
continues to decline (21% in 2012, down from almost 25% in 2011, and 
some 36% in 2010).
---------------------------------------------------------------------------
    Including survey questions on VR&E--particularly questions 
focused on illuminating the reasons why service-disabled 
veterans choose the Post 9/11 GI Bill over VR&E would better 
assist VA in recognizing if more outreach and education is 
needed on VR&E and the services it provides. More importantly, 
questions related to veteran experiences with VR&E counselors 
and other staff, and on the timeliness and adequacy of services 
provided, are critically important to gain an understanding of 
where critical gaps in the program lie so VR&E administrators 
can begin addressing those gaps--whether through increased 
staffing, staff training, and/or through greater programmatic 
oversight or even program re-design.
    Thank you for your consideration of WWP's views on these 
issues.

       Disable American Veterans (DAV), Paul R. Varela, Director

    Chairman Flores, Ranking Member Takano and Members of the 
Subcommittee:

    Thank you for inviting DAV to submit testimony for this 
legislative hearing of the House Veterans' Affairs Subcommittee 
on Economic Opportunity. As you know, DAV is a non-profit 
veterans service organization comprised of 1.2 million wartime 
service-disabled veterans dedicated to a single purpose: 
empowering veterans to lead high-quality lives with respect and 
dignity. DAV is pleased to be here today to present our views 
on the Bills under consideration by the Committee.
    H.R. 2942, To amend Title 38, United States Code, to 
reestablish the Professional Certification and Licensure 
Advisory Committee of the Department of Veterans Affairs.
    H.R. 2942 would reauthorize the Department of Veterans 
Affairs (VA) Professional Certification and Licensure Advisory 
Committee and extend its operational authority to December 31, 
2019.
    The Committee would advise the Secretary with respect to 
the requirements of organizations or entities offering 
licensing and certification tests to individuals for which 
payment for such tests may be made under chapter 30, 32, 33, 
34, or 35 of Title 38 and such other related issues as the 
Committee determines to be appropriate.
    Members of the Committee would be appointed by the 
Secretary, without regard to the prior composition of the 
Committee.
    DAV does not have a resolution on this issue and has no 
position on this legislation.

H.R. 3056, the Warriors' Peer-Outreach Pilot Program Act

    H.R. 3056, would direct the Secretary of Veteran Affairs to 
carry out a three-year pilot program to place peer counselors 
providing outreach and support services to veterans utilizing 
Post-9/11 GI Bill benefits under Chapter 33. The pilot would 
provide peer-outreach and peer-support services to students 
veterans of Operation Enduring Freedom, Operation Iraqi 
Freedom, and Operation New Dawn at one four-year public 
university, one community college and one private non-profit 
college. Peer counselors must either be using, or have 
successfully used, their entitlement to educational assistance 
under Chapter 33.
    The program also looks to pair veterans with peers of 
similar service and educational pursuits to establish an 
immediate relationship, someone not only familiar with the 
military service, but with experience utilizing their own 
Chapter 33 benefits. A preference would be given to those 
potential peer counselors that have served in combat 
operations, with special consideration given to veterans who 
have recovered or are recovering from a mental health 
condition. The Bill seeks to maximize supportive services to 
post-9/11 veterans to ensure their successful completion of 
their educational goals.
    The Secretary would be required to provide training to the 
veterans employed by the pilot program and to develop 
requirements and measures for assessing the effectiveness of 
program services. The program would also makes as a condition 
of implementation at an institution of higher learning the 
employment of a post-9/11 veteran that has used or is using 
benefits under Chapter 33. For a school to be eligible to 
participate, they would need to provide office space with the 
capability for veterans to use information technology equipment 
and appropriate information technology support services for the 
individual who will provide peer-outreach and peer-support 
services at such institution.
    DAV does not have a specific resolution on this Bill, but 
does not oppose its favorable consideration.

H.R. 3614, the Military Skills to Careers Act

    H.R. 3614, the Military Skills to Careers Act, would make 
grants to states that agree to adhere to certain standards in 
how they implement their professional licensing and 
certification programs.
    In order to be eligible for a grant, a state would be 
required to issue licenses or credentials to veterans without 
requiring them to undergo any training or apprenticeship if the 
veteran receives a satisfactory score on completion of the 
state's required examination, has been awarded a military 
occupational specialty that is substantially equivalent to or 
exceeds the requirements of the state for the issuance of the 
license or credential; has engaged in the active practice of 
the occupation to be licensed or certified for at least two of 
the five years preceding the date of application; and pays any 
fees required by the state for the license or credential.
    The legislation would allow the Secretary to waive some of 
these requirements if the state certifies to the Secretary that 
it already takes into account previous military training for 
the purposes of issuing licenses or credentials; permits 
veterans to completely satisfy through examination any training 
or testing requirements for a license or credential with 
respect to which a veteran has previously completed military 
training; and for any credential or license for which a veteran 
is unable to completely satisfy such requirements through 
examination, substantially reduces training time required to 
satisfy such requirement based on the military training 
received by the veteran.
    States would be required to submit annual reports to VA 
about their licensing and credentialing programs for veterans 
with a description of the results of these exams, disaggregated 
by occupational field.
    DAV supports H.R. 3614 in accordance of DAV National 
Resolution No. 168, which calls for states to establish a clear 
process so military training meets civilian certification and 
licensure requirements once they leave the military.

H.R. 4031, the Department of Veterans Affairs Management 
Accountability Act of 2014

    H.R. 4031, the Department of Veterans Affairs Management 
Accountability Act of 2014, would provide the Secretary with a 
new authority to remove any individual from the Senior 
Executive Service if the Secretary determines the performance 
of the individual warrants such removal. The Secretary would be 
able to remove the individual completely from federal service 
or transfer the individual to a General Schedule position at 
any grade the Secretary determines appropriate.
    DAV agrees that the Secretary must have the ability to hold 
all employees accountable for performing their duties in order 
to ensure that veterans receive all of the benefits and service 
they have earned from their service. We have long advocated 
that VA must place accountability at the core of its efforts to 
reform the claims processing system and end the backlog. While 
H.R. 4031 is intended to provide the Secretary with new tools 
to remove employees, the Secretary recently testified that he 
already has sufficient tools to hold all of his employees fully 
accountable and it is not clear how this legislation would 
interact with VA's existing accountability and due process 
statutes affecting VA employees. DAV is also concerned about 
the potential for adverse impact of this legislation on VA's 
ability to hire and retain quality employees.
    DAV has no specific resolution on this proposal and has no 
position on this legislation.

H.R. 4037, the Improving Veterans' Access to Vocational 
Rehabilitation and Employment Act of 2014

    H.R. 4037, the Improving Veterans' Access to Vocational 
Rehabilitation and Employment Act of 2014, would make changes 
to eligibility and prioritization rules for veterans seeking 
Vocational Rehabilitation and Employment (Voc Rehab) services.
    Section 2 of the Bill would create a new metric that 
determines the percentage of veterans ``rehabilitated to the 
point of employability.'' This percentage would be calculated 
by dividing the number of veterans who complete their 
rehabilitation plans each year into the number of veterans 
participating in vocational rehabilitation programs during that 
year plus the number entitled to participate in the program.
    DAV has no specific resolution on this proposal but would 
not oppose its favorable consideration. While this new metric 
would provide information about the percentage of veterans 
completing their rehabilitation plans, we would also ask that 
VA refine its metric for assessing how many veterans are 
``rehabilitated'' and gainfully employed as a result. Currently 
VA's standard measure requires that a veteran retain employment 
for just 60 days in order to be considered a successful 
``rehabilitation;'' we would suggest that the length of 
employment should be tracked and measured at long intervals, 
such as 6 months or one year.
    Section 3 of this Bill would require that all education and 
training courses paid for by VR&E be approved courses for 
purposes of existing VA education support programs under 
Chapter 30 and 33. While this would remove some of the burden 
facing VR&E counselors in determining appropriate courses and 
providers for veterans, we are concerned that it could 
unnecessarily limit the ability of veterans to receive 
appropriate training and education at non-approved locations. 
Although there is a waiver provision contained in this section, 
it is unclear how and when waivers should be granted, as well 
as whether the waiver would be authorized at the local level, 
or whether Central Office approval would be required. This 
additional administrative function has the potential to create 
additional obstacles in efficiently administering the VR&E 
program.
    We have greater concerns about the impact of this provision 
in relation to courses and training that would be considered 
under the Independent Living (IL) program. Participants within 
this program often require more specialized and unique services 
that may fall outside those typically authorized by VA's 
educational programs. This provision could significantly 
restrict a VR&E counselor's ability to approve the unique 
courses and training required by IL participants, who are not 
anticipated to be looking for work anytime in the near future. 
IL's goal is to improve the quality of their lives, and VR&E 
needs wide latitude to accomplish this noble mission.
    DAV recommends that the Committee work with VA and veterans 
organizations to refine this language to ensure that VR&E 
retains sufficient flexibility to meet both participants and 
programmatic needs.
    Section 4 of this Bill would allow veterans to receive 
assistance under the Specially Adapted Housing (SAH) program 
when it is determined by VR&E that the veteran has need for 
these services due to the disability or disabilities that 
entitled them to vocational rehabilitation services. This 
provision would leave the facilitation and implementation of 
needed home adaptions to the VA office most familiar with the 
administration of this program.
    DAV has no resolution on this proposal but would not oppose 
its favorable consideration.
    Section 5 of the Bill would authorize the Secretary to 
create a priority system for processing veterans applications 
for vocational rehabilitation services. In determining 
``priority processing,'' the Secretary would consider the need 
of the applicant, including income, disability evaluations, 
severity of employment handicaps, whether the veteran is 
eligible for IL services and income. The construct of this 
provision is similar to how VA provides priority to certain 
claims for disability compensation and pension. While we 
understand the desire to ``prioritize'' work, we would remind 
the Subcommittee that VR&E has yet to reach its intended 
counselor to client ratio of 1:125. Without adequate staffing 
and resources, it is unlikely they will be able to keep pace 
with current and future demands, regardless of any efficiencies 
that might be gained through prioritizing their work-load.
    DAV has no resolution on this proposal but would not oppose 
its favorable consideration.
    Section 6 of this Bill would change the definition of 
``serious employment handicap,'' one of the criteria used to 
determine if veterans are entitled to receive vocational 
rehabilitation services. Under this new definition, the bar to 
receive services would be raised for veterans with disability 
evaluations rated 10 percent and veterans seeking access to 
services beyond the 12 year eligibility period, resulting in a 
significant number of veterans losing their entitlement to 
receive this valuable assistance.
    Essentially, this provision would restrict access to 
vocational rehabilitation services by imposing more stringent 
requirements upon those veterans necessitating a Serious 
Employment Handicap (SEH) determination to receive access to 
service. The current definition of ``serious employment 
handicap'' is `` . . . a significant impairment, resulting in 
substantial part from a service-connected disability rated at 
10 percent or more, of a veteran's ability to prepare for, 
obtain, or retain employment . . . '' If this section were 
enacted, that definition would change to `` . . . a significant 
impairment, resulting from the service-connected disability, 
that is directly related to the veteran's ability to prepare 
for, obtain, or retain employment . . . ''
    In accordance with DAV National Resolution No. 001, DAV 
strongly opposes this section because it would effectively 
remove one of the most valuable benefits currently available to 
thousands of disabled veterans seeking to transition into 
civilian employment.

H.R. 4038, the Veterans Benefits Administration Information 
Technology Improvement Act of 2014

    H.R. 4038 would require the Secretary of Veterans Affairs, 
to the maximum extent possible, to make improvements to VBA's 
information technology (IT) systems to ensure that all original 
and supplemental claims for veterans educational assistance are 
adjudicated electronically, and processed using a rules-based 
method. The Bill would require the Secretary to reduce 
redundancy and inefficiencies by ensuring that payments of 
subsistence allowance for veterans participating in this 
program are processed and paid out of only one corporate IT 
system. The Secretary would also be required to enhance the IT 
system supporting veterans participating VA's educational 
programs to ensure more accurate accounting of services and 
outcomes.
    Although DAV has no specific resolution on this proposal, 
we are not opposed to its favorable consideration.

H.R. 4147, the Student Veterans IT Upgrade Act

    H.R. 4147, the Student Veterans IT Upgrade Act, would 
require VA to study and report on the current status and future 
plans for the IT system used to administer educational 
services. This provision would require VA's Chief Information 
Officer, in coordination with the Deputy Under Secretary for 
Economic Opportunity, would be required to submit this report 
in 180 days to the Committees on Veterans' Affairs of the 
Senate and the House of Representatives. The report would 
include VA's current plan to update these IT systems, a 
detailed implementation plan, and a financial analysis of the 
costs involved.
    DAV has testified on several occasions before the House 
Veterans' Affairs Subcommittee on Economic Opportunity 
regarding the current state of VR&E's IT infrastructure, which 
lacks adequate capacity and capability. In its present state, 
it does not allow veterans to file claims for vocational 
rehabilitation benefits and services electronically. We have 
recommended that rather than continue to patch and upgrade the 
current Corporate Winston-Salem, Indianapolis, Newark, Roanoke, 
Seattle (CWINRS) system, that VR&E be integrated into the 
Veterans Benefit Management System, and we would recommend that 
any forward looking IT plan for VBA take this approach for all 
business lines.
    Although DAV has no specific resolution on this proposal, 
we are not opposed to its favorable consideration.

H.R. 4150, the Veterans Employment and Training Service 
Longitudinal Study Act of 2014

    H.R. 4150 would authorize a long-term longitudinal study to 
examine the effectiveness of the job counseling, training and 
placement services for veterans provided by the Veterans 
Employment and Training Service (VETS) in the Department of 
Labor. The study would be performed by a non-government entity 
over a period of at least five years, using a statistically 
valid sample of veterans who have received services, as well as 
those who did not seek or receive any services from VETS.
    The provision specifies a number of questions that the 
longitudinal study must address, and includes one question 
about whether the veteran participated in a VA vocational 
rehabilitation program. We would recommend that additional 
questions be included about the effectiveness of the VR&E 
program services in order to increase the value of this 
research.
    Although DAV has no specific resolution on this proposal, 
we do not oppose its favorable consideration.

    H.R. 4151, the Veterans Education Survey Act of 2014

    H.R. 4151 would require the Secretary to contract with a 
non-government entity to conduct a survey of individuals who 
have received or are receiving educational assistance under one 
of VA's many education programs under chapters 30, 32, 33, and 
35 of Title 38, United States Code. The purpose of the survey 
would be to provide insights into how veterans accessed, used, 
valued and benefited from VA education programs. The survey, 
which could be done electronically, must be completed no later 
than 180 days after VA enters into the contract. We would 
recommend that additional questions be included about the VR&E 
education and training program services in order to increase 
the value of this research.
    Although DAV has no specific resolution on this proposal, 
we do not oppose its favorable consideration.
    Mr. Chairman, this concludes our testimony.

                          VetsFirst Testimony

 Submitted by Heather L. Ansley, Esq., MSW; Vice President of VetsFirst

Improving Veterans' Access to Vocational Rehabilitation and 
Employment Act of 2014 (H.R. 4037)

    This legislation would make changes to aspects of VA's 
Vocational Rehabilitation and Employment (VR&E) program in an 
effort to improve access to services for veterans with 
significant barriers to employment. In general, we have 
concerns about proposed changes that limit access to employment 
services for any veterans living with disabilities. 
Specifically, Section 5 of this legislation would allow VA to 
prioritize the provision of VR&E services based on level of 
need. We are concerned that establishment of such priorities 
could lead to problems in accessing services for veterans who 
could greatly benefit from VR&E services but who are not deemed 
a priority for VA. Section 6 of this legislation would amend 
the definition of ``serious employment handicap.'' VetsFirst is 
concerned about limiting access to services and believes that 
this legislation should be amended to provide access to 
training, educational, or other benefits that could help 
impacted veterans in returning to the workforce.

Veterans Employment and Training Service Longitudinal Study Act 
of 2014 (H.R. 4150)

    We support this legislation. This survey will provide 
important data that will help the Department of Labor and other 
stakeholders determine the long-term impact of employment 
services for veterans. Because it will include measures on 
disability, this survey may also provide important information 
about a disability's impact on long-term employment.

Veterans Education Survey Act of 2014 (H.R. 4151)

    We support this legislation. The survey's requirement to 
collect data including whether or not the individual has a 
service-connected disability may be helpful in determining the 
influence that disability had, if any, on an individual's 
choice of school; goal for education or training; and the 
services that the individual received from the school. We also 
appreciate the inclusion of a question regarding VA's VR&E 
program which we believe will help with efforts to determine 
why veterans who are eligible for VR&E might instead pursue 
other educational benefits.
    Chairman Flores, Ranking Member Takano, and other 
distinguished members of the subcommittee, thank you for the 
opportunity to submit for the record VetsFirst's views on three 
of the Bills under consideration today.
    VetsFirst, a program of United Spinal Association, 
represents the culmination of over 65 years of service to 
veterans and their families. We advocate for the programs, 
services, and disability rights that help all generations of 
veterans with disabilities remain independent. This includes 
access to VA financial and health care benefits, housing, 
transportation, and employment services and opportunities. 
Today, we are not only a VA-recognized national veterans 
service organization, but also a leader in advocacy for all 
people with disabilities.

Improving Veterans' Access to Vocational Rehabilitation and 
Employment Act of 2014 (H.R. 4037)

    VA's Vocational Rehabilitation and Employment (VR&E) 
services are critical to helping eligible servicemembers and 
veterans with service-connected disabilities receive the skills 
and training necessary to help them reintegrate into the 
workforce and their communities. Without access to quality 
vocational rehabilitation services, many veterans with 
disabilities may be unable to successfully transition to the 
workforce and a long-term career. This legislation would make 
changes to aspects of VR&E's program in an effort to improve 
access to services for veterans with significant barriers to 
employment.
    Section 4 of this legislation would allow veterans who are 
receiving rehabilitation assistance through VR&E and who are 
referred for assistance under Chapter 21 to receive assistance 
for needed housing modifications. Specifically, this provision 
would add to the types of disabilities that qualify for 
assistance under Chapter 21 those that are disabilities for 
which the veteran is eligible for VR&E and is referred by VR&E 
for housing modification assistance. Access to housing 
modifications is critical for the successful rehabilitation of 
many veterans with significant disabilities. Thus, VetsFirst 
supports efforts to increase accessibility to housing 
modifications.
    Section 5 of this legislation would allow VA to prioritize 
the provision of VR&E services based on level of need. 
According to the legislation, a determination about need for 
services should include disability ratings, the severity of 
employment handicaps, qualification for a program of 
independent living, income, and any other appropriate factors. 
VetsFirst supports access to services for veterans with 
disabilities who have the most significant need for vocational 
rehabilitation services. However, VetsFirst is concerned that 
establishment of such priorities could lead to problems in 
accessing services for veterans who could greatly benefit from 
VR&E services but who are not deemed a priority for VA.
    Any prioritization must include provisions for ensuring 
that all eligible veterans receive needed services. Delays to 
receiving services that result from wait lists would be 
unacceptable and may impact long-term employment outcomes. 
Congressional review of any prioritization and its 
implementation would be helpful in ensuring continued access 
for all eligible veterans. An alternative to prioritization 
would be better workforce allocation within VR&E to ensure that 
VA is better able to meet the needs of all eligible veterans.
    Section 6 of this legislation would amend the definition of 
``serious employment handicap.'' Currently, a serious 
employment handicap is defined as ``a significant impairment, 
resulting in substantial part from a service-connected 
disability rated at 10 percent or more, of a veteran's ability 
to prepare for, obtain, or retain employment consistent with 
such veteran's abilities, aptitudes, and interests.'' \1\  This 
legislation would modify that definition by requiring that a 
significant impairment result from a service-connected 
disability that is directly related to a veteran's ability to 
return to work.
---------------------------------------------------------------------------
    \1\ 38 U.S.C. Sec.  3101(7).
---------------------------------------------------------------------------
    If implemented, some veterans who are currently eligible 
for VR&E services under the current definition would likely no 
longer be able to receive these services. VetsFirst believes 
that veterans who need assistance with vocational 
rehabilitation should be able to access services if needed to 
help them be successful in returning to the workforce. Although 
these veterans may be eligible for programs that are available 
to all Americans seeking employment, access to those programs 
may be limited. VetsFirst believes that this legislation should 
be amended to provide access to training, educational, or other 
benefits that can provide impacted veterans with a pathway to 
employment.

Veterans Employment and Training Service Longitudinal Study Act 
of 2014 (H.R. 4150)

    This legislation would require the Department of Labor to 
contract with a non-government entity to conduct a longitudinal 
study of veterans who received job counseling, training, and 
placement under Chapter 41 and those who did not seek the same 
assistance. The survey will include information about the 
disability ratings of individuals, their employment status, 
whether services provided by disabled veterans' outreach 
program specialist or local veterans' employment 
representatives were helpful, and whether the individual 
received VA educational assistance or participated in VA's VR&E 
program.
    VetsFirst supports this legislation. This survey will 
provide important data that will help the Department and other 
stakeholders to determine the long-term impact of employment 
services for veterans. Because it will include measures on 
disability, this survey may also provide important information 
about the impact it has on long-term employment.

Veterans Education Survey Act of 2014 (H.R. 4151)

    This legislation would require VA to contract with a non-
government entity to conduct a survey of individuals who have 
used or are using VA educational benefits under Chapters 30, 
32, 33, and 35. The survey will collect important information 
about beneficiaries, including the services received from their 
educational institutions, opinions about the effectiveness of 
the VA programs through which they received benefits, and 
eligibility for and use of VA's VR&E program. Upon completion 
of the survey, VA will be required to provide Congress with the 
results of the survey and resulting recommendations.
    VetsFirst supports this legislation. The survey's 
requirement to collect data including whether or not the 
individual has a service-connected disability may be helpful in 
determining the influence that disability had, if any, on an 
individual's choice of school; goal for education or training; 
and the services that the individual received from the school. 
We also appreciate the inclusion of a question regarding VA's 
VR&E program which we believe will help with efforts to 
determine why veterans who are eligible for VR&E might instead 
pursue other educational benefits.
    We urge swift passage of this legislation.
    Thank you for the opportunity to submit testimony 
concerning VetsFirst's views on these important pieces of 
legislation. We remain committed to working in partnership to 
ensure that all veterans are able to reintegrate in to their 
communities and remain valued, contributing members of society.
    Information Required by Clause 2(g) of Rule XI of the House 
of Representatives
    In fiscal year 2012 United Spinal Association served as a 
subcontractor to Easter Seals for an amount not to exceed $5000 
through funding Easter Seals received from the U.S. Department 
of Transportation. This is the only federal contract or grant, 
other than the routine use of office space and associated 
resources in VA Regional Offices for Veterans Service Officers 
that United Spinal Association has received in the current or 
previous two fiscal years.
    Heather L. Ansley is the Vice President of VetsFirst, which 
is a program of United Spinal Association.
    Ms. Ansley began her tenure with the organization in 
December 2009. Her responsibilities include managing the public 
policy advocacy, veterans benefits services, and veterans 
outreach activities for VetsFirst. She also works to promote 
collaboration between disability organizations and veterans 
service organizations by serving as a co-chair of the 
Consortium for Citizens with Disabilities Veterans and Military 
Families Task Force.
    Prior to her arrival at VetsFirst, she served as the 
Director of Policy and Advocacy for the Lutheran Services in 
America Disability Network.
    Before arriving in Washington, D.C., she served as a 
Research Attorney for The Honorable Steve Leben with the Kansas 
Court of Appeals. Prior to attending law school, she worked in 
the office of former U.S. Representative Kenny Hulshof (R-MO) 
where she assisted constituents with problems involving federal 
agencies. She also served as the congressional and 
intergovernmental affairs specialist at the Federal Emergency 
Management Agency's Region VII office in Kansas City, Missouri.
    Ms. Ansley is a Phi Beta Kappa graduate of the University 
of Missouri-Columbia with a Bachelor of Arts in Political 
Science. Ms. Ansley also holds a Master of Social Work from the 
University of Missouri-Columbia and a Juris Doctorate from the 
Washburn University School of Law in Kansas.
    She is licensed to practice law in the State of Kansas and 
before the United States District Court of Kansas.

    Association of Private Sector Colleges and Universities, (APSCU)

Executive Summary

    On behalf of APSCU, our member institutions and the 
military and veteran students we serve we welcome the 
opportunity to provide our views on legislation that will 
impact private sector colleges and universities and the 
military and veteran students enrolled at our institutions.
    H.R. 2942: We recognize the value of VA advisory 
committees. The reestablishment of the Professional 
Certification and Licensure Committee of the Department of 
Veterans Affairs (VA) allows key stakeholders to make important 
recommendations to the Secretary which will assist the VA in 
its efforts to better serve our veteran students.
    H.R. 3056, Warriors' Peer-Outreach Pilot Program Act: While 
we support the spirit of the Bill, we believe that other 
government and nongovernment programs are already providing 
peer-support and other similar services to veterans and we 
encourage Congress to review the existing efforts before 
creating a similar program. Additionally, the legislation makes 
a glaring omission. As drafted, the Bill only provides for 
piloting a peer-outreach program at public and private 
nonprofit institutions ignoring the fact that private sector 
colleges and universities educate more than 325,000 military 
veterans, servicemembers, and their family members.
    H.R. 4151, Veterans Education Survey Act of 2014: We 
support gaining more information on the educational experiences 
of student veterans at postsecondary institutions. APSCU is 
committed to using strong data and evidence to strengthen our 
sector's support of the military and veterans' community and 
having good data will assist all institutions in their efforts 
to improve services to students.
    Thank you for allowing APSCU to present our views on 
legislation impacting private sector colleges and universities 
and the military and veteran students we support. We welcome 
the opportunity to work with this subcommittee and members of 
Congress to support student veterans and student 
servicemembers.

Statement of Michael Dakduk, Vice President of Military and 
Veterans Affairs, The Association of Private Sector Colleges 
and Universities

    Chairman Flores, Ranking Member Takano, and members of the 
subcommittee, I am writing on behalf of the Association of 
Private Sector Colleges and Universities (APSCU), our member 
institutions, their faculty and the nearly four million 
students who attend private sector institutions. Our 
institutions provide a full range of higher education programs 
to students seeking career-focused education. We provide short-
term certificate programs and diploma programs, two-and-four-
year associate and baccalaureate degree programs, as well as a 
small number of master's and doctorate programs. We educate 
students for careers in over 200 occupational fields including 
information technology; allied health; automotive repair; 
business administration; commercial art; and culinary and 
hospitality management.
    Since 2009, over one million veterans have used the Post-9/
11 GI benefits to pay for their education. Private sector 
colleges and universities have educated more than 325,000. 
Private sector institutions continue to grow as the education 
choice for veterans because our schools offer focused academic 
delivery and flexible schedules, which veterans favor.
    We understand the challenges that arise when our military 
men and women transition back to civilian life and enter into 
postsecondary education. Our military and veteran students are 
not the fresh-out-of-high school, first-time, full-time student 
living on campus and attending college thanks to the generosity 
of family. Our military and veteran students are like many of 
our new traditional students--working, with a spouse and 
children and paying for their education with money they have 
earned.
    Servicemembers and veterans attend our institutions because 
we design courses to be relevant, concentrated, and suited to 
the personal goals of our students. This education foundation 
is of a particular benefit to military students and veterans 
seeking a promotion, advance in rank or supplementing skills 
attained during their service. This type of purposeful, 
tailored education ensures that veteran and military students 
nimbly move from the classroom onto their next academic or 
professional goal. The ability to offer courses on-base, 
online, and on the student's schedule is of tremendous value. 
Because of our longer school days and year-round academic 
programming, our students can often complete an associate's 
degree in 18 months or a bachelor's degree in just over three 
years.
    Private sector colleges and universities are providing 
skills that put Americans back to work. Today, in America, 
there is a very real skills gap that is impeding job creation 
and economic growth. Our institutions are working to bridge 
this gap by combining postsecondary education and career skills 
in ways that equip veteran students with workplace skills.
    Of veteran graduates, 75 percent earned certificates and 
associates degrees while 25 percent earned bachelor's and 
graduate degrees.
    Forty percent of all the veteran graduates earned 
credentials in healthcare fields, one of the fastest growing 
industries in the country. These occupations range from 
medical, dental and veterinary assistants to nurses and 
technologists of various types with weighted average annual 
median salaries of $33,000 for certificate and associate degree 
holders to $56,000 for bachelor and graduate degree holders.
    Another 20 percent of veteran graduates earned credentials 
in skilled trade programs, such as construction, maintenance 
and repair, and engineering technologies. According to the U.S. 
Bureau of Labor Statistics, the United States will need more 
than 1 million additional workers to fill these jobs by 2020. 
The weighted average annual median salary for graduates earning 
their certificates and associate degrees in these fields was 
$44,000.
    Ten percent of veteran graduates earned awards in computer 
and information programs like computer programming, computer 
graphics, computer systems networking, and information 
technology. The weighted average annual median salary is 
$57,000 for certificate and associate degree holders and 
$89,000 for bachelor and graduate degree holders. The U.S. will 
need nearly 3 million additional computer and IT workers by 
2020.
    We want to work with you to provide our service members and 
veterans, particularly young combat veterans, with the tools 
and resources to make an informed, thoughtful decision about 
which educational opportunity will best prepare them for the 
workforce.
    On behalf of APSCU, I welcome the opportunity to provide 
our views on legislation impacting private sector colleges and 
universities and military veterans enrolled at our 
institutions.
    H.R. 2942: Having previously served on the VA Advisory 
Committee on Education, I recognize the value of VA advisory 
committees. The reestablishment of the Professional 
Certification and Licensure Committee of the Department of 
Veterans Affairs (VA) allows key stakeholders to make important 
recommendations to the Secretary which will assist the VA in 
its efforts to better serve our veteran students.
    H.R. 3056, Warriors' Peer-Outreach Pilot Program Act: The 
VA has recently expanded the Vet Success on Campus program to 
94 sites nationwide. Outside of the government, the nonprofit 
group Student Veterans of America (SVA) has established over 
900 campus-based veteran groups and is still growing. The 
American Legion, too, has created posts on several campuses to 
support student veterans. The Veterans of Foreign Wars (VFW) 
has created an outreach program where VFW posts engage and 
support student veterans in their communities. Finally, 
colleges and universities already utilize the VA work-study 
program to support student veterans. While we support the 
spirit of the Bill, we believe there are other government and 
nongovernment programs that exist to provide peer-support and 
other similar services to veterans and we encourage Congress to 
review the existing efforts as it considers creating a similar 
program. Additionally, the legislation makes a glaring 
omission. As drafted, the legislation only provides for 
piloting a peer-outreach program at public and private 
nonprofit institutions ignoring the fact that private sector 
colleges and universities educate more than 325,000 military 
veterans, servicemembers, and their family members. If Congress 
wants to reach a broad group of students, it needs to include 
private sector colleges and universities in this endeavor.
    H.R. 4151, Veterans Education Survey Act of 2014: We 
support gaining more information on the educational experiences 
of student veterans at postsecondary institutions. APSCU is 
committed to using strong data and evidence to strengthen our 
sector's support of the military and veterans' community and 
having good data will assist all institutions in their efforts 
to improve services to students.
    Thank you for allowing APSCU to present our views on 
legislation impacting private sector colleges and universities 
and the military and veteran students we support. We welcome 
the opportunity to work with this subcommittee and members of 
Congress to support student veterans, student servicemembers, 
and their families.

                     Senior Executives Association

    March 24, 2014
    The Hon. William Flores, and Hon. Mark Takano
    Subcommittee on Economic Opportunity,
    Cannon House Office Building,
    Washington, DC 20515

    Dear Chairman Flores and Ranking Member Takano:

    The Senior Executives Association (SEA) represents the 
interests of career federal executives in the Senior Executive 
Service (SES), and those in Senior Level (SL), Scientific and 
Professional (ST), and equivalent positions. On behalf of the 
Association, and of SEA members who serve at the Department of 
Veterans Affairs (VA), I am writing to oppose H.R. 4031, the 
Department of Veterans Affairs Management Accountability Act of 
2014. This proposal not only sets the dangerous precedent of 
politicizing the career executive corps, it will not achieve 
the goal we all share--to provide the Nation's veterans with 
the highest quality care.
    The stated purpose of H.R. 4031 is to hold senior level 
employees accountable by allowing the Secretary of the VA to 
terminate Senior Executives ``in the same manner as the removal 
of a professional staff member employed by a Member of 
Congress.'' SEA questions the necessity of this Bill since 
Senior Executives can already be removed for poor performance.
    We will appreciate your considering the following points 
since they speak to both the lack of justification for the 
Bill, but also the danger of enacting this legislation.
    Annually, VA Senior Executives are subjected to a multi-
step approval process before being granted their final 
performance rating for the year. They are given initial ratings 
by their direct supervisors which are then reviewed by 
Performance Review Boards at the subcomponent (VBA/VHA/NCA) 
level, and subsequently go to a VA-wide Performance Review 
Board. At each level the Performance Review Board has the 
option to increase, lower, or maintain the rating level based 
on a review of the Senior Executive's performance. Senior 
Executives are rated on a wide variety of categories based of 
their individual performance plans and organizational 
performance. Finally, the rating goes to the agency head for 
review- in this case, Secretary Shinseki--who makes a final 
decision whether to raise, maintain or lower the rating. 
According to Secretary Shinseki (in a letter to Chairman 
Miller, 1/31/14), ``Results, or lack thereof, for which 
employees and executives are responsible and accountable, are 
factors when evaluating performance. This includes levels and 
outcomes of patient care, results of relevant investigations 
and audits, as well as individual and organizational 
performance and results.''
    Should poor performance be evident based on the rating 
process, an agency can take action to remove the Senior 
Executive. By law, Senior Executives must be removed from the 
SES if they receive two unsatisfactory ratings within five 
consecutive years or two less than fully successful ratings 
within three consecutive years.
    In a hearing before the House Veterans Affairs Committee in 
February, Undersecretary for Health Robert Petzel stated that 
in the past year 3,000 employees at the VA had been removed, 
including fourteen Senior Executives over the past two years. 
In the letter to Chairman Miller, Secretary Shinseki stated: 
``I believe VA has sufficient authority to take swift action 
and hold employees and executives accountable for 
performance.''
    Instead of ensuring strong performance (by which Senior 
Executives can already be held accountable through consistent, 
fair and transparent application of the existing performance 
management system), this legislation could well have the 
unintended effect of politicizing the career SES. Allowing the 
Secretary to terminate Senior Executives would place the 
Executives at the mercy of media and Congressional pressure, 
rather than providing an honest assessment of performance and 
accountability.
    In the 19th century the federal service was 
professionalized under the Pendleton Act to put an end to the 
patronage system that had allowed the civil service to become 
an arm of whichever political party held power at the time. To 
guarantee fair treatment of employees and preserve the 
integrity of the civil service, protections were put in place 
to provide due process for federal employees and a barrier to 
undue political influence so that federal employees could 
fairly carry out the laws passed by Congress without fear of 
political retribution.
    As it currently stands, career Senior Executives enjoy far 
fewer protections than other federal employees. The unfortunate 
reality of the past few years has been that the rhetoric 
surrounding federal employees is largely driven by optics 
rather than the policy needs of the American people. SEA is 
concerned that H.R. 4031 would allow Senior Executives to be 
subjected to a trial by media that pressures political 
appointees to remove them without cause. With fear of 
retribution by an agency head, the career SES could well become 
a politicized corps that bends with the political winds, rather 
than serving the American people free from political influence. 
SEA strongly supports holding employees accountable for their 
performance. Should an employee need to be removed, then an 
agency already has the means to do so. Federal employees are 
routinely fired and red tape is not the problem.
    SEA has become aware of some Veterans Service Organizations 
that are advocating for providing the Secretary of VA the same 
firing authority as the Defense Secretary. This is based on a 
quote by former Defense Secretary Robert Gates where he talked 
about firing people at the top to change the culture during the 
Walter Reed scandal. However, the people that former Secretary 
Gates fired in order to change the culture were political 
appointees. Further, there appears to be confusion between 
career Senior Executives and political appointees generally. 
Across the government, and at the VA, there are non-career 
Senior Executives who are political appointees, and, like all 
political appointees, they serve at the pleasure of the agency 
head. It is unclear to SEA that this distinction between career 
and political appointees is being accurately applied in the 
case of the VA.
    In discussing this legislation with many Congressional 
offices, it appears that the underlying concern has more to do 
with the SES performance appraisal process than the 
accountability process. SEA has long advocated for stronger 
transparency and fairness for the SES performance management 
system and stands ready to work with you to strengthen the 
system, rather than unfairly punishing Senior Executives 
through a measure that will do nothing to truly improve the 
quality of care and service given to the Nation's veterans.
    I look forward to answering any questions about the SES 
system that you may have.
    Sincerely,
    Carol A. Bonosaro, President

                                 <all>
</pre></body></html>
